SEMIANNUAL
  REPORT
 October 1999
    Cover: “By the Pool - Tule River Reservation,” by E. L. Curtis (Courtesy of Bureau of
            Indian Affairs Museum Property Program)




t
                                 MESSAGE FROM THE
                                INSPECTOR GENERAL

This Semiannual Report is the first I am honored to forward as Inspector General for the
Department of the Interior. The accomplishments reflected in this report document the efforts
that our committed staff have,achieved, for the most part, prior to my appointment as Inspector
General. I am, nonetheless, proud of these accomplishments and of the staff that have worked
hard to ensure that both the statutory mission and the strategic goals of the Office of Inspector
General were met. Several of the accomplishments reported here epitomize the greater body of
work produced during this reljorting period.

The Office of Investigations has continued to aggressively pursue allegations of wrongdoing in
the Department’s programs and operations and is committed to detecting fraud in those programs
that have been determined to be most susceptible to fraud, waste, and abuse. During this
reporting period, our investigations have resulted in criminal, civil, and administrative actions in
various program areas in the United States and the insular areas. Our investigations targeted a
range of wrongdoing from store owners misrepresenting the authenticity of Native American
jewelry to the systematic under-reporting of the value of oil and gas production on Federal and
Indian lands. Our office continued to participate in U.S. Attorney-led task forces and joint
investigative efforts involving public corruption in the Commonwealth of the Northern Mariana
Islands, violations of environmental and safety regulations, credit card fraud, and embezzlement
and theft from Indian tribal organizations.

Office of Inspector General auditors issued or processed 362 audit reports and negotiated 215
indirect cost proposals during this semiannual period. The reports represented our audit efforts
to effect positive change in Departmental operations, programs, and activities by (1) rendering
opinions on the bureaus’ and the Department’s financial statements, (2) evaluating the controls
over automated information systems in support of our financial statements audits, and (3)
determining whether royalties on the production of oil are properly calculated and paid. Based
on Congressional requests, we also issued a report on the administration of Federal funds by a
tribe and four reports on the costs to construct a rural water supply system. Further, as part of
our oversight of insular area governments’ activities and programs, we identified improvements
that were needed in the administration of grants under Medicaid, in the management of a rural
development loan program, and the administration of a development bank. The implementation
of the 186 recommendations made in these reports should result in significant improvements in
the Department’s and the insular area governments’ operations and programs, with a potential
monetary impact of $48.2 million in the form of cost recoveries, additional revenues, or better
use of these funds.




             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                     i
In support of our mission, the Management and Policy Division has ensured that all Office of
Inspector General systems are year 2000 (Y2K) compliant, completed and released a new
automated Investigative Tracking System, and completed the specification design for building
the new Audits Management Information System.

With these accomplishments behind us, we look forward to implementing some new approaches
toward meeting our strategic goals. First, we have created a Special Investigations Unit (SIU), a
small headquarters organization with both investigative and audit expertise. The SIU was
created to respond to requested audits and investigations from the Congress and DO1 that were
not anticipated in the Office of Inspector General strategic workplan. No longer will we be
required to interrupt audit and investigative staff from their mandatory or planned activities on an
ad hoc basis to conduct requested audits or investigations. The SIU is designed to relieve the
auditors and investigators of unexpected demands on their time, thereby allowing them
consistency and fluidity in their operations and producing higher quality activities and results.
We have expanded our audit and investigations staff to full capacity within budget by hiring
additional auditors, evaluators, and agents. With this increased capacity, we will focus our
activities to effect the greatest impact on the protection of assets and/or program operations and
address programs or activities with the greatest potential for fraud and abuse.

We are also exploring organizational changes that will allow us to maximize our existing
resources, and we will begin to measure our success in the future based on the impact that our
audits and investigations have on both internal and external administration, management. and
fiscal responsibility.




                                                      Earl E. Devaney
                                                      Inspector General




ii          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
                                                                                           CONTENTS


Statistical Highlights ..........................................................                                                                     ..                              ........ iv
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        ..                              ........ 1
  DepartmentProfile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                               ........ 1
  OIGOrganization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                               ........
Audit and Investigative Activities ................................................                                                                                                   ........ ;
  SummaryofAuditResults . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                       ........ 5
  InvestigativeMatters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                ..                              ........ 5
CongressionalHearings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 ..                              ........ 6
Significant Audit Activities and Investigations .... ........ ......... ... : ... ..... ....                                                                                          ........
  Department of the Interior Consolidated Principal Financial Statements for Fiscal Year 1998                                                                                         ........
  Bureau Financial Statements Audits .............................................                                                                                                    ........ 7
  Bureau of Indian Affairs ......................................................                                                                                                     ........ 8
  BureauofLandManagement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                          ....... 12
  BureauofReclamation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                   ....... 13
  Insular Areas ...................................                                                          ..                                                                       .......
  Minerals Management Service .....................                                                                                                                                   ....... ii
  Multi-Office ...................................                                                                                                                                    ....... 20
  National Park Service ............................                                                                                                                                  .......
  Office of Surface Mining Reclamation and Enforcement                                                       ..                              ..........                               ....... f :
  Office of the Secretary ...........................                                                        ..                             ..........                                ....... 23

Appendices
1 - Summary of Audit Activities From April 1, 1999, Through September 30, 1999 .......................                                                                                                   25
2 - Audit Reports Issued or Processed and Indirect Cost Proposals Negotiated
     During the 6-Month Period Ended September 30, 1999 ..........................................                                                                                                       Z$
     -Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
     -ContractandGrantAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                               28
     -SingleAudits ..                                                           .......... ................                        ......                                                                iy
                                     ................
                          .......
     - Indirect Cost Proposals                         .......... ........ ....                              ..................
3 - Monetary Impact of Audit Activities From April 1, 1999, Through September 30, 1999                                                     ...........................................................   ‘57
4 - Non-Federal Funding Included in Monetary Impact of Audit Activities ..............................
     During the 6-Month Period Ended September 30, 1999                                                                                                                                                  51
5 - Audit Resolution Activities . ...... ......... ... ........................................................................................                                                          52
     - Table I - Inspector General Audit Reports With Questioned Costs ................................                                                                                                  52
     - Table II - Inspector General Audit Reports With Recommendations That
        FundsBePutToBetterUse . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                  53
     - Table III - Inspector General Audit Reports With Lost or Potential Additional Revenues ..............                                                                                             54
6 - Summary of Audit Reports Over 6 Months Old Pending Management Decisions .......................                                                                                                      $
     - Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
     - ContractandGrant Audits                       ........ ............ ........ ..............                                                                                                       2:
     -SingleAudits . . . . . . . . ............                ....                                     ...................
7 - Summary of Internal Audit Reports Over 6 Months Old Pending Correctwe Action                                             ........................................................................    62
8 - Statutory and Administrative Responsibilities                                                                                                                                                        2:
9 - Cross-References to the Inspector General Act ...................................................................................................




                                                                                                                                                                                                         ..*
                          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                                                                                                          111
                                           STATISTICAL HIGHLIGHTS


Audit Activities
  Audit Reports Issued or Processed ..............................................                                                                ......... .           362
    -Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          ...... 39
    - Contract and Grant Audits .................................................                                                                 ...... 18
    -Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          ..... 305
  Indirect Cost Proposals Negotiated .............................................                                                                . . . . . . . .       215

Impact of Audit Activities - (Dollar Amounts in Millions)
 Total Monetary Impact ..................................                                                                                                          . $48.2
   - Questioned Costs ...................................                                                                                                iii
   - Recommendations That Funds Be Put To Better Use ........                                                                                            kl3.9
   - Lost or Potential Additional Revenues ...................                                                                                           $27.0
 Internal Audit Recommendations Made .....................                                                                                               . . . . . . . 186
 Internal Audit Recommendations Resolved ..................                                                                                              . . . . 103

Investigative Activities
 TotalReportsIssued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                96
 Cases Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    . . 103
 Cases Opened (3 from Hotline) ..........................................................                                                                          ...
 CasesPending.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        . . 3;:
 Hotline Complaint Matters Received ......................................................                                                                         . . 48

Impact of Investigative Activities
 IndictmentsiInformations .............................                                            ..                   .   ..   .   .   .             ,........* 11
 Convictions.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         ..                   .    .   .   .   .             .........I
 Sentencings.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              .   ..   .   .   .             . . . . ...*.. :;
   -Jail . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .   .                .    .   .   .   .             . 1 3 1        m o n t h s
   -Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        .   .                *   ..   .   .   .             . ..
   - Community Service ............................ . .                                            .   .                .   ..   .   .   .             . . . . 728 hours
   - Criminal Judgements/Restitutions ................. .                                          .   .                .    .   .   .   .             . . . $375,355
 Cases Pending Prosecutive Action as of April 1, 1999 ....                                                              .   ..   .   .   .             .., . . . . . 94
 Cases Referred for Prosecution This Period .............                                                               .   ..   .   .   .             . . . . . . ...*
 Cases Declined ...................................                                                                     .   ..   .   .   .             . . . ...*... ;;
 Cases Pending Prosecutive Action as of September 30, 1999                                                              .   ..   .   .   .             . . . . . . . . . 97
 Administrative Actions ............................. . .                                          .   .                .   ..   .   .   .             . . . . . . . . . . 22
 Civil Referrals .................................... . .                                          .   .                .   ..   .   .   .             ........... 3
 Civil Declinations ................................. . .                                          .   .                .    .   .       .             ...........
 Civil Settlements (3) ............................... . .                                         .   .                                               . . . $7,32 1,07:
 Cases Pending Civil Action as of September 30, 1999 .... . .                                      .   .                                               . . . . . . . . . . 38

Administrative Actions Taken by Bureaus
 Matters Referred for Administrative Action .....................................................                                                                         32
 Matters Referred for Information (16 from Hotline) .............................................. 56
 Removals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
 Downgrades . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   . 2
 Resignations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


iv                   Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
Reassignments/Transfers ............................................................. ........ 1

                                                                                                                                          ........ z
Employee Suspensions (Totaling 125 days) .............................................. ........
Reprimands/Counseling* . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  ........
Other Personnel Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                                                  ........
                                                                                .................................. ........
General Policy Actions .............................................................. ........ 3




*One action took place during a prior semiannual period; however, the information was not provided to the Office of Inspector
                                this semiannual period.

                   Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                                                                V
                                      INTRODUCTION

Department Profile
    he Congress created the Department of the Interior (DOI) on March 3, 1849, to manage the
T   Nation’s internal affairs. Since that time, DOI’s role has changed to become the steward for
the Federal Government’s natural and cultural resources and the administrator of its trust
responsibilities to American Indians and Alaska Natives.

DOI’s mission is “to protect and provide access to [the] Nation’s natural and cultural heritage
and honor [the] trust responsibilities to Tribes.” DO1 achieves its mission through hundreds of
programs and activities carried out mainly by its nine bureaus and offices. DOT has
approximately 70,000 employees based in more than 2,000 locations, and it spends about
$10 billion and collects revenues of more than $7 billion annually. DO1 and its bureaus have the
following responsibilities:

    - Administer more than 500 million acres of Federal lands and more than 56 million acres of
Indian trust lands. Land administration by DO1 represents about 19 percent of America’s land
surface and approximately 66 percent of all Federally owned land.

    - Manage, develop, and protect water and related resources in an environmentally and
economically sound manner. The Bureau of Reclamation (BOR) is the largest supplier of water
in the 17 western states.

    - Manage mineral resources on the Outer Continental Shelf and on Federal and Indian lands
and collect, verify, and distribute revenues from these lands in a timely manner. The Minerals
Management Service (MMS) collects more than $4 billion annually from the mineral leasing
program.

   - Conserve, protect, and enhance fish and wildlife and their habitats. The U.S. Fish and
Wildlife Service (FWS) manages 512 National Wildlife Refuges, which encompass
approximately 93 million acres.

    - Preserve the natural and cultural resources and values of the national park system. The
National Park Service (NPS) manages 376 parks, which encompass more than 83 million acres.

   - Sustain the health, diversity, and productivity of the Nation’s public lands. The Bureau of
Land Management (BLM) manages 264 million acres (one eighth of the United States land mass)
and 300 million additional acres of subsurface mineral estate.

            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                  1
I


       - Fulfill trust responsibilities and promote self-determination on behalf of tribal
    governments, American Indians, and Alaska Natives. The Bureau of Indian Affairs (BIA)
    administers Federal Indian policy for more than 550 American Indian and Alaska Native tribal
    governments.

        - Provide the Nation with reliable scientific information to describe and understand the
    earth. The U.S. Geological Survey (USGS) has the largest United States natural science and
    mapping agency, which contributes to publicienvironmental health and safety.

       - Reclaims abandoned mine sites and enforces regulations to ensure that coal mines are
    operated in a manner that protects citizens and the environment (The Office of Surface Mining
    Reclamation and Enforcement (OSM)).

    The Office of Inspector General (OIG) assists DOI and its bureaus and the insular areas in
    improving the economy, efficiency, effectiveness, and integrity of DO1 programs and operations.




    2           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
OIG Organization and Mission

w      orking with a budget of $25 million, OIG has employees assigned to 13 offices throughout
       the United States and the insular areas, in addition to Washington, D.C. The OIG staff is
tasked with providing policy direction for and conducting audits, investigations, and other
activities to promote economy, efficiency, and effectiveness of the Federal Service and to prevent
fraud, waste, abuse, and mismanagement.

OIG also provides DOI with independent and objective reviews of the integrity of DO1
operations. OIG is the primary authority to ensure quality, coverage, and coordination of audit
and investigative services between DO1 and other Federal, state, and local governmental
agencies. The Inspector General reports directly to the Secretary of the Interior on these matters
and is required to keep both the Secretary and the Congress fully and currently informed about
problems and deficiencies relating to the administration of DOI programs and operations and the
necessity for corrective action.

In addition to the requirement for semiannual reporting to the Secretary of the Interior and the
Congress, OIG’s mission encompasses a wide array of statutory and administrative audit and
investigative responsibilities, OIG also conducts audits and investigations responsive to requests
made by DO1 and the Congress.

Furthermore, OIG responsibilities extend to the insular areas of Guam, American Samoa, the
U.S. Virgin Islands, the Commonwealth of the Northern Mariana Islands, the Federated States of
Micronesia, the Republic of the Marshall Islands, and the Republic of Palau.

The OIG is playing an active role in both assisting with and assessing the Department’s
implementation of the Results Act. For FY 2000, we have incorporated the Department’s
mission critical performance measures and the General Accounting Office’s and the OIG’s
identified management problems of the Department into the annual audit planning process and
have included references to the measures in the FY 2000 audit workplan. The Department’s
FY 2000 Performance Plan includes 390 performance measures for both the Department’s and
the bureau’s goals. However, our plan for both the FY 1999 data review process (in which the
first Annual Report is due in March, 2000) and the FY 2000 review is to focus on verification
and validation of the data from the key performance measures for programs and activities which
have been identified as high risk for fraud, waste, or mismanagement within the Department. In
doing so, we are reviewing controls over the Department’s and the bureau’s systems used to
generate the performance data that are included in the financial statements for each of these
activities, as part of our Chief Financial Officer’s (CFO) audits.

OIG’s organization and locations relative to these responsibilities are represented on the chart on
page 4.




             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                3
                                                            U.S. DEPARTMENT OF THE INTERIOR
                                                             OFFICE OF INSPECTOR GENERAL


                                                                             Inspector General
                                                                                     Deputy IG
                                                                                                             I


                                                                         Secretaly               Executive
                                                                                                 Assistant
                                                                      Office of
                                                                   General Counsel


                 I                                      I
      Assistant Inspector                      Assistant Inspector                                                  Assistant inspector                             Assistant Inspector
      General for Audits                    General for Mgt. & Policy                                            General for Investigations                   General for Strategic Initiative5
        Deputy AK;                                                                                                     Deputy AlG




                                                                                                                                       New Orleans, 1.A




                  I
                                                                                                                                          Tulsa, OK


                                                                                                                                                          t

                                                                                                   4lbuquerque. NM                       St. Paul, MN


                                                                                                                                                          t




H          Atlanta, GA*




           External Audits     I

‘WIII br   stall4 and operational in 121%
                        AUDIT AND INVESTIGATIVE
                               ACTIVITIES


Summary of Audit Results

0
     IG auditors issued or processed 362 audit reports and negotiated 215 indirect cost proposals
     during the 6-month period ended September 30, 1999. Appendix 1 summarizes audit
activities, and Appendix 2 lists the audit reports issued or processed and the indirect cost
proposals negotiated. The monetary impact of the findings in the audit reports and indirect cost
proposals totaled $48.2 million, which was composed of questioned costs, funds to be put to
better use, and lost or potential additional revenues, all of which are summarized in Appendix 3.
Appendix 4 identifies the non-Federal funds (from audits of insular area governments) included
in the monetary impact of audit activities. During this 6-month period, OIG resolved
$43.7 million of monetary findings from prior and current reporting periods. Appendix 5
provides summary information on the resolution of the monetary impact of audit activities,
Appendix 6 provides a listing of audit reports over 6 months old pending management decisions
on recommendations and/or monetary impact, and Appendix 7 provides a summary of resolved
internal audits over 6 months old pending final actions by management (implementation) on
recommendations and on monetary impacts.


Investigative Matters
During the past 6 months, OIG special agents have conducted investigations that have resulted in
charges against 11 defendants, 10 convictions, criminal fines/restitutions of $375,355, and civil
recoveries of $7,321,077.

OIG is continuing investigative initiatives to identify and suppress royalty fraud, environmental
crimes, and program fraud within DO1 and continues to seek significant civil recoveries through
the use of Affirmative Civil Enforcement. We are also expanding fraud awareness initiatives
throughout DO1 to preclude waste and theft of DO1 monies through abuses of the Government
purchase card program. Additionally, we continue to increase our participation in task forces
with state, local, and Federal entities to increase our reach and effectiveness by providing them
technical expertise. These multi-agency investigations include activities conducted with the
Federal Bureau of Investigation (FBI), the Internal Revenue Service (IRS), the Department of
Justice (DOJ), OIGs of other Federal agencies, and other law enforcement components.




             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                  5
                       CONGRESSIONAL HEARINGS


0 Government Management, Information, and Technology, Committee on Government
    n May 19, 1999, the then Acting Inspector General testified before the Subcommittee on

Reform, U.S. House of Representatives, on the Royalty Management System. The Acting
Inspector General testified that from October 1993 through March 1999, OIG had issued 24
reports on royalty management, which identified a potential monetary impact to the Government
of about $309 million and made 63 recommendations. Forty-three of these recommendations
had been implemented, 18 had not been implemented, and 2 were unresolved. The Acting
Inspector General also testified that during this period, OIG initiated 30 investigations on royalty
management, which had resulted in civil settlements of about $47 million. Further, the Acting
Inspector General testified that the results of the reviews generally found that DO1 was making
progress in improving its Royalty Management System but that additional improvements were
needed to ensure that all royalties due the Government were collected and accounted for.




6            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
                   SIGNIFICANT AUDIT ACTIVITIES
                       AND INVESTIGATIONS

Department of the Interior Consolidated Principal
Financial Statements for Fiscal Year 1998

w     e concluded that DOI’s principal financial statements for fiscal year 1998 were presented
      fairly in all material respects. However, our tests of internal controls identified weaknesses
in the following areas that we considered to be material weaknesses: NPS controls over the
construction-in-progress account, BIA controls over the property management accounts, BIA
general controls over automated information systems, and BIA controls over financial integrity
reviews. In addition, we believe that weaknesses in the following areas are reportable
conditions: DO1 and bureau controls over deferred maintenance, USGS controls over its data
processing environment, DO1 and bureau controls over summarizing transactions as Government
and non-Government, and DO1 and bureau controls over trading partner data. Our tests of
compliance with laws and regulations identified specific noncompliance issues for BIA that are
required to be reported concerning the Chief Financial Officers Act of 1990, the Debt Collection
Improvement Act of 1996, the Credit Reform Act of 1990, the Prompt Payment Act, and the
Federal Financial Management Improvement Act of 1966. Since our reports on the individual
bureaus’ financial statements and the administrative service centers included recommendations to
correct the deficiencies reported, we did not make additional recommendations to DOI. This
financial statements audit is required by the Chief Financial Officers Act of 1990.


Bureau Financial Statements Audits
   uring this semiannual period, OIG issued audit reports on the financial statements of two of
D  DOI’s nine bureaus and offices and an audit report on the financial statements of the
Departmental Offices. We expressed a qualified opinion on BIA’s financial statements for fiscal
years 1998 and 1997 and unqualified opinions on the fiscal year 1998 and 1997 financial
statements of NPS and the Departmental Offices. We performed these audits at the request of
DO1 ofticials.

We concluded that BIA’s financial statements for fiscal years 1998 and 1997 were fairly
presented in all material respects except for the amounts reported for 13 accounts (accounts and
interest receivables and related revenue, advances, allowance for doubtful accounts, and bad debt
expense; construction-in-progress; land improvements, buildings, other structures and facilities,
equipment, and the related accumulated depreciation and depreciation expense; and undelivered
orders). We also identified specific internal control weaknesses that we consider to be reportable

             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                 7
conditions related to the accounts receivable and interest receivable accounts, construction-in-
progress account, land improvements account, buildings account, other structures and facilities
account, equipment account, general controls over automated information systems, deferred
maintenance, stewardship reporting, and financial information integrity reviews. We consider
the reportable conditions related to the accounts receivable and interest receivable accounts,
construction-in-progress account, land improvements account, buildings account, other structures
and facilities account, equipment account, undelivered orders, general controls over automated
information systems, and financial information integrity reviews to be material weaknesses. The
report contained 23 recommendations, of which 1 was considered resolved but not implemented
and 22 were considered unresolved because the response did not specifically address the
recommendations.

We issued an unqualified opinion on the financial statements of NPS and the Departmental
Offices. However, for NPS, we identified internal control weaknesses related to the
construction-in-progress account and to deferred maintenance that we considered to be reportable
conditions. Furthermore, we considered the weakness over the construction-in progress account
to be a material weakness because we determined that there was a high level of risk that material
misstatements may occur and not be detected within a timely period by NPS employees in the
normal course of performing their assigned functions. Specifically, NPS did not have sufficient
internal control procedures to ensure that the subsidiary account for construction-in-progress,
which had a reported balance of $782.4 million at September 30, 1998, was stated in accordance
with Federal accounting standards.


Bureau of Indian Affairs
Improvements in Funds Administration Needed
    ased on a Congressional request, we reviewed selected Federal funds administered by the
B   Chickasaw Nation of Oklahoma and found no significant deficiencies concerning the
Nation’s accounting for costs incurred under DO1 funding agreements during the period of
October 1, 1996, through September 30, 1997. However, of the costs of $5 18,000 we tested
under the Department of Health and Human Services Self-Governance Compact, we questioned
costs of $36,800 and identified interest expenses of $9,500, resulting from late payments, which
were incorrectly charged to the Nation’s indirect cost account. In addition, we found that
27 purchase transactions, totaling $336,100, were made without adequate competition. As a
result, the Nation did not have full assurance that goods and services were acquired at a
reasonable price. In its response, BIA agreed to instruct the Nation to implement the report’s
three recommendations to address these issues. Based on the response, we considered all of the
recommendations resolved and implemented. Although we did not make recommendations to
the Department of Health and Human Services, a copy of the report was provided to that agency
for review and appropriate actions.




8           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
General Controls Over Automated Information Systems Ineffective
    o support the financial statements audits of BIA and the Office of the Special Trustee for
T   American Indians, we performed a followup review of the 20 recommendations contained in
our April 1997 (No. 97-I-771) and June 1998 (No. 98-I-483) audit reports on BIA’s general
controls over automated information systems. We found that 3 recommendations had been
implemented, 6 recommendations had been partially implemented, and 11 recommendations had
not been implemented. As a result, the general controls over BIA’s automated information
systems were ineffective in the areas of its security program, access controls, software
development and change controls, segregation of duties, and continuity of service. Furthermore,
BIA is at risk of loss, misuse, modification of, or unauthorized access to the data in its automated
information systems. Because BIA has not made significant progress in correcting deficiencies
in the general controls over its automated systems, we recommended that BIA report these
deficiencies to DO1 as a material weakness in its annual assurance statement on management
controls, which is required by the Federal Managers’ Financial Integrity Act. Based on BIA’s
response to the report, we considered the one new recommendation contained in our current
report resolved but not implemented.

BIA agreed that the deficiencies identified constituted an exception under the Federal Financial
Management Improvement Act. As a result, BIA developed a recommendation plan that lists
actions to correct the deficiencies as follows:

        - Transferring the IBM mainframe operations to USGS’s host computer’s operating,
security, and automated job scheduling systems.

        - Holding BIA’s Information Technology Security Manager accountable for performmg
the responsibilities of the position through evaluations based on the incumbent’s performance
standards and position description. BIA also augmented its information technology security
staff.

        - Removing all safety hazards from the computer operations room.

        - Issuing a task order for the strategic and tactical plans that will provide direction to and
define the functions of the Operations Service Center.

       - Evaluating periodically the system security program to assess its effectiveness, which is
in accordance with the schedule established by the information technology security plan and
Office of Management and Budget Circular A- 130, “Management of Federal Information
Resources.”

        - Working with DOI information resources management staff to identify and develop
local area network and Web-based security awareness training.

        - Initiating risk assessments,


             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                       9
Although BIA has begun to implement the recommendations that would improve the general
controls over its automated information systems, the actions were not completed as of
September 30, 1999. Therefore, we concluded that the general controls over BIA’s automated
information systems continued to be ineffective. As a result, we believe that BIA continues to
have a material weakness in its general controls over its automated information systems.

Management of Agricultural Leases Inadequate

A   t the request of the Assistant Secretary for Indian Affairs, we audited agricultural leasing
    activities at select BIA agency offices. We found that BTA’s Pima Agency did not
adequately manage agricultural leasing activities on the Gila River Indian Reservation.
Specifically, the Agency did not (1) approve leases timely, resulting in delays in landowners
receiving their rental payments; (2) enforce lease bonding requirements to protect the
landowners’ interests; (3) assess and collect interest on late rental payments; and (4) distribute
agricultural lease rents to landowners timely. These conditions occurred because the Agency did
not have sufficient controls and/or procedures to ensure that the realty staff complied with all
leasing and regulatory requirements in a timely manner; the lessee and individual Indian
landowners did not provide necessary leasing-related information to the Agency in a timely
manner; and, according to BIA officials, inadequate funding and a reduction in staff for
agricultural programs adversely impacted the Agency’s realty program. In addition, we found
that revenues and related interest earnings of approximately $1.4 million from agricultural lease
rents and from other sources that were deposited into special deposit accounts since the 1960s
had not been distributed to landowners. We did not make any new recommendations because
actions to address these issues had been taken by BIA and the Office of the Special Trustee for
American Indians in response to other audit reports on these issues, or actions were identified in
the High Level Implementation Plan for the Trust Management Improvement Project to address
these issues.

Former Tribal Employee Manipulates Tribal Accounts

0
    n July 8, 1999, the former bookkeeper for a Northwestern Indian tribe pled guilty to one
    count of embezzlement and theft from an Indian tribal organization and one count of tax
evasion. On September 27, 1999, the employee was sentenced to 13 months of imprisonment
and 36 months of probation. The employee was ordered to make restitution of $44,378 and to
pay a special assessment of $100. The OIG investigation regarding the tribal funds disclosed that
the bookkeeper converted the funds to personal use through manipulation of tribal checking
accounts.

Retailer Fined in Indian Arts and Crafts Case

0 its practice of misrepresenting the authenticity of Native American-style jewelry sold in the
     n May 6, 1999, a retail store in the Southwest agreed to pay a $10,000 fine and discontinue

store. The settlement agreement resulted from a lawsuit filed by a state attorney general’s office
and was based on the results of an undercover investigation. The investigation revealed that

10           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
many items in the store which were represented as handmade from natural materials by Native
Americans were actually manufactured in other countries using plastic and other man-made
materials. The sale of items mass produced from inexpensive materials impacted negatively on
sales of jewelry handmade by Native American artists because the counterfeit items could be
sold less expensively.

Tribal School Official Pleads Guilty to Theft

0
     n June 16, 1999, the former business manager for a tribal school on an Indian reservation in
     the Northwest was indicted on one count of theft or bribery concerning programs receiving
Federal funds and one count of mail fraud. On September 13, 1999, the employee pled guilty to
one count of theft. The investigation disclosed that between March 1997 and February 1999, the
employee issued and negotiated numerous checks from a school district account totaling
$65,02 1. The employee used the money for her personal benefit and later attempted to conceal
the theft by destroying or falsifying supporting documentation. Sentencing is set for
January 6,200O.

Former Tribal Official, Five Others Sentenced in Embezzlement
Scheme
     n investigation into allegations of embezzlement and receipt of kickbacks by the former
A    secretary-treasurer of a Midwestern Indian tribe resulted in the indictment of the former
tribal official and five co-conspirators. The six individuals were charged with misapplication of
$300,000 in conspiracy, and income tax evasion. Between June and August 1999, the six
individuals pled guilty and were sentenced to an aggregate of 54 months of imprisonment and
264 months of probation and were ordered to make restitution of $40,000 and to pay special
assessments of $500. In addition, the court ordered the payment of penalties and interest to the
IRS on unreported personal income of $592,100.

Contractor Agrees to Civil Settlement Under False Claims Act
     former BIA contractor entered into a civil settlement with the U.S. Attorney’s Office for the
A    District of Columbia that called for the contractor to repay $50,000 and accept a voluntary
5-year suspension from contracting with DO1 to resolve issues relating to submission of false
claims on a computer services contract. An OIG investigation revealed that the company
submitted invoices to BIA for reimbursement of contract-related expenses it did not incur. As a
result of the settlement, which was obtained under provisions of the False Claims Act, the funds
will be returned to BIA for use on future projects.




            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                11
Bureau of Land Management
Land Surveys and Controls Over Museum Collections for Cultural
Resources Inadequate

w     e concluded that BLM did not adequately survey the public lands to determine the location
      and condition of cultural resources and that BLM therefore did not have the information
needed to protect undisclosed culturally significant sites on public lands. Also, BLM did not
adequately control and account for its museum collections. That is, the ownership and the
location of artifacts and historical items were not determined, new collections were not deposited
timely with repositories, required inventories were not completed, and agreements with non-
Federal museums regarding collection responsibilities were not established. Consequently, BLM
had little assurance that its museum collections were intact and safeguarded. Based on BLM’s
response to the report, we considered the report’s four recommendations resolved but not
implemented.

Special Drug Reduction Funds Used Effectively, But Improvements
in Project Oversight Needed

   n response to a request from DOI’s Office of Managing Risk and Public Safety, we reviewed
 I the Methamphetamine Reduction Project in California’s Desert District and found that
BLM’s California State Office properly accounted for the special methamphetamine reduction
funds and generally used the funds as intended. With approximately two-thirds of the funds
expended at the end of our fieldwork, the Project had resulted in five arrests for illegal
methamphetamine-related incidents, the removal of six methamphetamine laboratories, and the
identification of two organizations operating illegal methamphetamine laboratories on public
land. However, Project oversight was not adequate in that the State Office did not prepare
operational plans or report its activities to the Office of Managing Risk, as required by the
reimbursable support agreement. In addition, the State Office did not retain ownership of
equipment purchased under the agreement or enforce budget spending limits for the equipment.
These deficiencies occurred because the reimbursable support agreement did not clearly specify
how frequently progress reports should be submitted to the Office of Managing Risk and did not
address the transfer of funds to other law enforcement organizations. Also, adequate
communications between the two DOI agencies were not maintained, and the State Office did
not adequately monitor expenditures of the funds under its law enforcement agreements with
cooperating agencies. The report contained six recommendations. Based on BLM’s and the
Office of Managing Risk’s responses to the report, we considered two recommendations resolved
and implemented and four recommendations resolved but not implemented.




12          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
Rangelands Improvement Program Costs Not Adequately Justified
or Charged Correctly

w     e found, for the three offices we visited in Nevada, that BLM had charged costs that were
      not adequately justified and/or were incorrectly charged to the rangelands improvement
program. The costs were not adequately justified because BLM charged expenditures based on
budgeted amounts rather than on actual expenditures and did not record program costs by
rangelands improvement project numbers. In addition, these offices did not maintain a complete
and accurate database of rangelands improvement projects because BLM did not provide
adequate guidance to its personnel on inputting data into the Rangelands Improvement Program
System. As a result, as much as $328,700 charged to the rangelands improvement program was
not used for program purposes, and BLM was unable to readily ascertain the operational status of
its improvements, which hindered its ability to manage, maintain, and improve the condition of
the public rangelands. Based on BLM’s response to the report and the additional information
BLM provided, we considered the report’s four recommendations to improve the program
resolved but not implemented.

Employee Pleads Guilty to Imprest Fund Embezzlement

0 Government imprest fund. The employee photocopied and resubmitted legitimate
    n August 13, 1999, a BLM employee pled guilty to embezzling more than $7,100 from a

reimbursement vouchers for payment and forged the signatures of the person claiming the funds
and the approving official. When the scheme was discovered by BLM officials, the employee
was discovered to have several additional forged and altered documents in her possession that
subsequently could have been submitted for payment. Sentencing is pending.

Bureau of Reclamation
Cost Overruns in Construction of Mni Wiconi Rural Water Supply
Project Identified

    ased on a Congressional request, we reviewed the costs incurred to plan, design, and
B   construct the Mni Wiconi Rural Water Supply Project by the Oglala Sioux Tribe; the
Rosebud Sioux Tribe; the Lower Brule Sioux Tribe; and West River/Lyman-Jones Rural Water
Systems, Inc. The overall Project includes a water treatment plant, 4,500 miles of pipeline, 60
booster pump stations, and 35 water storage reservoirs. The Project, which will ultimately serve
more than 50,000 people, had a projected appropriation ceiling of $327 million as indexed
through October 1999. In four audit reports, we found that cost overruns totaling an estimated
$56.8 million will occur, $49.7 million for the Oglala Sioux Rural Water Supply System and
$7.1 million for the Lower Brule Sioux Tribe’s System, if the Project is constructed as currently
designed. Further, the Oglala Sioux Tribe is likely to exceed its percentage allowance for


            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999               13
noncontract activities (such as contract administration, training, and indirect costs), which we
estimate would increase the total cost overruns by $12.9 million, to a total of approximately
$69.7 million for the Project. These overruns will occur because the costs for some of the Oglala
Sioux Tribe’s components were underestimated and others were not included in BOR’s May
1993 Final Engineering Report; BOR and the Oglala Sioux Tribe did not ensure that the Project
was planned, designed, and constructed as described in the Report; the cost estimate for the
Lower Brule Sioux Tribe was not based on a thorough assessment of the Tribe’s water needs and
related construction costs; and BOR approved construction of additional items for the Lower
Brule Sioux Tribe that were not included in the Report. In addition, we questioned the eligibility
of reimbursable costs of about $1.2 million incurred by the Oglala Sioux Tribe for contract
administration, training, tribal administration, and indirect costs; $253,000 incurred by the Lower
Brule Sioux Tribe for maintenance and unsupported charges; and $939,000 incurred by West
River/Lyman Jones for unrelated administrative expenses and for expenses that had been
reimbursed by other entities. The four audit reports had a total of 19 recommendations, with
which BOR management agreed. Based on the responses to the reports, we considered 18
recommendations resolved but not implemented and requested additional information for the
remaining recommendation.

Costs Charged Inappropriately to General Administrative Expenses
Appropriation

w     e found that BOR’s Technical Service Center inappropriately charged costs to the General
      Administrative Expenses (GAE) appropriation. The appropriation to GAE provides
funding for the costs and expenses incurred for BOR’s general administration that are
nonreimbursable pursuant to the Fact Finders’ Act. However, costs charged to the GAE
appropriation were not adequately monitored because, according to Center officials, of an
ambiguous definition of allowable charges and unclear instructions on what expenses could be
charged to the general administration expense accounts. As a result, for the $400,735 reviewed,
we found that GAE appropriation funds totaling $17,334 should have been charged to project
beneficiaries, funds totaling $12,455 should have been charged to the Center’s overhead
accounts, and funds totaling $26,190 were not adequately documented as allowable costs.
Based on our review, BOR clarified the Center’s definitions and instructions for charging
allowable costs to the GAE appropriation and the overhead accounts. In addition, the Center’s
Senior Management Team met with the Center’s group managers and emphasized the need for
improved monitoring by the group managers of the costs charged to the GAE appropriation to
ensure compliance with Center policies and the Fact Finders’ Act. Because of these actions, we
did not make any recommendations in the report.




14          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
Insular Areas
FEDERATED STATES OF MICRONESIA

Rural Development Loan Program Generally Effective, But
Improvements in Use of Funds Needed

   n an audit requested by the U.S. Ambassador to the Federated States of Micronesia, we found
Iprogram
   that the Pohnpei Local Office of the U.S. Department of Agriculture’s Rural Development
           was generally effective in making Direct Single Family Housing Program loans to
borrowers who were eligible to participate in the loan program. However, the Pohnpei Local
Office made loans totaling $571,690 to 12 borrowers who constructed or repaired houses that
were subsequently used for income-producing purposes and loans totaling $135,000 to
2 borrowers who constructed houses that, in our opinion, exceeded what would be considered of
“modest design” as defined in program regulations. These deficiencies occurred because (1) the
Pohnpei Local Office and borrowers believed that the program regulations did not prohibit
borrowers from leasing their houses, (2) the terms and conditions of the Real Estate Deed of
Trust did not specifically require borrowers to reside in their houses, and (3) the Pohnpei Local
Office did not adequately review loan documents and did not comply with program regulations
when it approved a loan to a borrower who used the loan funds to construct commercial property.
Regarding the design of the two houses, the Pohnpei Local Office (1) did not believe that one of
the houses was unacceptably elaborate in design, (2) did not adequately monitor the construction
of one house, and (3) approved a loan that exceeded the authorized maximum loan limit by
$15,000. Based on the response from the State Director, Hawaii State Office, to the report’s nine
recommendations, we considered four recommendations resolved and implemented and one
recommendation unresolved and requested additional information for four recommendations.


GUAM

Management of Extended Day Program Inadequate


I
  n response to a request from Guam officials, we audited the Guam Department of Education to
  determine whether it was in compliance with applicable laws, regulations, and other
requirements applicable to the Extended Day Program. We found that the Department needed to
make improvements in the management of the Program. Specifically, the Department did not
ensure that elementary school personnel administering the Program collected and deposited all
Program income into Program accounts and expended Program income only for Program
purposes, competitively procured goods and services, and adequately accounted for and
controlled Program property. In addition, the Department did not ensure that grant funds used to
finance the Program were adequately accounted for and that all claims for Federal reimbursement
for grant-related expenses were adequately documented. These conditions occurred because the

            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999              1.5
Department had not delegated responsibility and authority to a specific Departmental office
and/or senior-level official for ensuring that school principals and staff were accountable for
administering the Program in compliance with applicable rules and regulations. In addition, the
turnover of school personnel resulted in a lack of continuity in Program administration, and
guidelines on the use of Program fee income were unclear. Further, accounting personnel were
not adequately trained or supervised. As a result, during fiscal years 1996, 1997, and 1998
(through June 30) Program income of at least $3 1,670 may not have been deposited into
Program bank accounts and another $1,000 may not have been properly collected; expenditures
totaling $84,342 from Program income were not adequately supported; and Program
expenditures totaling $137,552 were unnecessary or were for equipment or personnel costs that
did not directly benefit the Program’s students. In addition, the Department could not ensure that
full value was received for Program purchases totaling $64,107. Further, six of the eight schools
reviewed did not have current inventories of property acquired with Program funds, and two of
the eight schools could not locate or account for nonexpendable property totaling $3,050.
Lastly, the Department lost about $325,837 in Federal grant funding from the fiscal year 1996
U.S. Department of Education Consolidated Grant for Insular Areas and could not support
expenditures of at least $2,017,126 claimed for reimbursement from the same grant for fiscal
years 1996, 1997, and 1998 (through June 30).

Based on the Governor of Guam’s response to the report’s 12 recommendations, we considered 4
recommendations resolved and implemented and 8 recommendations unresolved.

REPUBLIC OF THE MARSHALL ISLANDS

Administration of Development Bank Inadequate

  n an audit requested by the U.S. Ambassador to the Marshall Islands, we found that the
I Marshall Islands Development Bank (1) used funds provided by the Compact of Free
Association for commercial loans to businesses and government entities without adequate
assurances that the loan purposes were in conformance with official economic development plans
and that the loans could be and would be repaid; (2) did not effectively collect delinquent loans
and maintain loan records; and (3) combined United States-funded loans with Republic-funded
loans, classifying the United States-funded loans as Republic loans. These deficiencies occurred
because the Bank (1) issued loans, according to the Bank’s Chairman of the Board and the
Managing Director, based on political considerations and without adequate financial analyses of
the projects’ financial viability and the borrowers’ ability to repay; (2) was reluctant, according
to the Bank’s Managing Director, to seize loan collateral; and (3) had not adequately trained and
supervised loan personnel. Further, the Bank was not aware of the requirements to separately
account for loans funded through the United States-funded Economic Development Loan Fund.
As a result, outstanding loans totaling $6.8 million appear to be uncollectible, and loans totaling
another $6.9 million may become uncollectible. The unavailability of this $13.7 million has
prevented the Bank from issuing new commercial loans from Compact funds since July 1996 and
from fostering its legally mandated purpose to “promote the development and expansion of the
economy of the Marshall Islands.” Also, because of ineffective collection enforcement,

16           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
additional loans totaling $838,000 appear to be uncollectible, and loans of another $3.3 million
may become uncollectible. Finally, Economic Development Loan Funds of $382,888 were not
available for new loans because the Bank (1) did not account for and report on loans financed by
the Loan Fund in a separate revolving fund, as required by law, and (2) transferred borrowers’
Loan Fund account balances to the same borrowers’ accounts under other funds, which was
contrary to Loan Fund requirements. Based on the Bank’s response to the report’s 11
recommendations, we considered 3 recommendations resolved and implemented, 4
recommendations resolved but not implemented, and 2 recommendations unresolved and
requested additional information for 2 recommendations.


VIRGIN ISLANDS

Expenditures of Paternity and Child Support Grant Funds
Appropriate, But Other Improvements Needed

0
     ur audit of the administration of Federal grants by the Division of Paternity and Child
     Support, Virgin Islands Department of Justice, disclosed that the Division generally
expended grant funds for purposes which were allowable under the grants. However, the
Division expended $78,884 for office space that was not used and an additional $87,468 for
office space construction work for which it should not have been responsible and did not (1)
ensure that competitive procurement practices were used, (2) ensure that payroll costs were
supported by valid time and attendance records, (3) maintain adequate property control records
or perform periodic physical inventories of nonexpendable property, (4) properly record and
safeguard collections, (5) correctly calculate indirect costs chargeable to the grants, (6) request
drawdowns of Federal grant funds until after payment checks had been prepared for issuance,
and (7) maintain adequate supporting documents for drawdowns made prior to June 1998. Based
on the Governor’s response to the report’s 10 recommendations, we considered
7 recommendations resolved and implemented and 1 recommendation unresolved and requested
additional information for 2 recommendations.

Expenditure of Federal Grants for Education Appropriate, But
Improvements in Administration Needed

0
     ur audit of the administration of the Federally funded Consolidated Education Grant and
     School Lunch programs by the Virgin Islands Department of Education found that, although
the Department generally expended grant funds for purposes that were allowable under the
grants, the Department did not effectively carry out some of the administrative functions related
to the programs. Specifically, the Department did not (1) ensure that personal services costs
were properly supported and were charged to the correct accounts, (2) prepare and submit
accurate grant financial reports within the required time frames, (3) always use competitive
procurement procedures when making purchases, (4) have adequate control over equipment
purchased with Federal funds, and (5) ensure that the School Lunch Program warehouses had

            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                17
adequate controls over food and other commodities. As a result, we took exception to payroll
charges of $61,800 and classified as unsupported additional payroll charges of $8,340. We made
11 recommendations to the Governor of the Virgin Islands to address the deficiencies identified
by the audit. However, because a response to the draft report was not received, all of the
recommendations were unresolved.

Administration of Medicaid Program Grants Needs Improvements

0 and Medical Assistance, Virgin Islands Department of Health, disclosed that the Bureau
     ur audit of the administration of Medicaid Program grants by the Bureau of Health Insurance

generally expended grant funds for purposes that were allowable under the grants and
accomplished the primary objective of providing low-income individuals with quality health care
services. However, the Bureau did not (1) ensure that health care providers were properly
licensed and had current agreements with the Medicaid Program, (2) purchase equipment and
supplies at the most cost-effective prices, (3) maintain complete and accurate property
management records and perform physical inventories of equipment at least biennially, (4)
establish a claims processing assessment system that was in compliance with Federal regulations,
(5) ensure that corrective actions were taken with regard to individuals who were found to be
ineligible to receive Medicaid Program benefits, and (6) ensure that salary costs charged to
Medicaid Program funds were accurate and based on adequate time and attendance records. As a
result of these deficiencies, Medicaid Program funds of at least $1,169 were expended for
purchases that, in our opinion, were not needed to accomplish Program objectives; medical bills
totaling at least $23,325 were paid on behalf of individuals who did not meet Medicaid Program
eligibility requirements; and we took exception to salary costs of $60,8 18 that were incorrectly
charged against the Medicaid Program. Based on the Governor’s response to the report’s
14 recommendations, we considered 6 recommendations resolved and implemented and 2
recommendations unresolved and requested additional information for 6 recommendations.

Contractor Convicted for Submitting False Claims

0
    n August 25, 1999, after a trial in the U.S. District Court for the Virgin Islands,
    St. Thomas, Virgin Islands, a local construction contractor was convicted of two counts of
submitting false claims in the amount of $236,926 for reimbursement of bonding fees on two
Government building projects awarded to the company. Sentencing is pending.


Minerals Management Service
Improvements in Processing Notifications for Stripper Oil Well
Property Royalty Rate Reduction Program Needed
    he Stripper Oil Well Property Royalty Rate Reduction Program was initiated by BLM in
T   1992 to provide royalty relief on low-producing Federal onshore oil properties. MMS is
responsible for processing royalty rate reduction notifications and ensuring that the approved

18          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
rates are paid by operators and payors participating in the Program. We found that MMS,
because of insufficient personnel, did not timely confirm royalty rate reduction notifications it
received and did not timely input the confirmed rates into or review differences in the royalty
rates confirmed with the royalty rates paid for the properties participating in the Program. As a
result, royalties may have been underpaid by as much as $3.5 million, excluding interest, on the
properties participating in the Program because of these issues. Based on MMS’s response to the
report’s two recommendations, we considered one recommendation resolved and implemented
and one recommendation resolved but not implemented.

Further Improvements in General Controls Over Automated
Information System Needed
   o support our audit of MMS’s financial statements, we conducted a followup audit of
T  23 recommendations contained in our March 1998 audit report entitled “General Controls
Over the Automated Information System, Royalty Management Program, Minerals Management
Service” (No. 98-I-336). We found that 20 recommendations had been resolved and
implemented and 3 recommendations resolved but not implemented. The unimplemented
recommendations pertained to improving access controls. However, we also found that
improvements were needed in the areas of access controls, security planning, and continuity of
operations. Specifically, Program management did not ensure that (1) computer security training
was received by employees and contractor personnel and access to computer processing was
limited, (2) security plans were updated appropriately, and (3) disaster recovery plans were
developed in compliance with established criteria. As a result, there was an increased risk of (1)
unauthorized access to, modification of, and disclosure of sensitive data; (2) ineffective security
planning; and (3) loss of system availability. Overall, we identified four weaknesses and made
four new recommendations for improving general controls at the Program. We did not consider
these weaknesses to be material weaknesses under the provisions of the Federal Financial
Management Improvement Act. Based on MMS’s response to the report’s four
recommendations, we considered two recommendations resolved and implemented and two
recommendations resolved but not implemented.

Oil Company Pays $7.3 Million in Royalty Case

0
    n August 21, 1999, DOJ announced that a major oil company agreed to pay $7.3 million to
    resolve claims that it had underpaid the Government royalties for oil produced on Federal
and Indian lands. This settlement was handled by DOJ’s Commercial Litigation Branch, Civil
Division, Washington, D.C., with investigative support provided by OIG.

The settlement resolved allegations that the oil company had systematically underreported the
value of oil it produced from leases on Federal and Indian lands. The Government alleged that
the value of oil production was understated during the period of January 1, 1988, to
December 3 1, 1997, which resulted in the company’s paying less royalties than it owed. Federal
leases in which royalties are collected by MMS require oil companies to report the amount and


            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                19
value of oil produced and sold on Federal and Indian leases each month. Royalties are paid
based upon the value of the oil a company reports.


Multi-Office
Weaknesses in Accounting and Budgeting for Deferred Maintenance
Noted
    WS, NPS, USGS, BIA, BLM, and BOR need to implement actions to ensure that deferred
FSpecifically,
    maintenance information is more reliable for budgetary and accounting purposes.
               estimated deferred maintenance costs were not completely reliable because they (1)
were based on the bureaus’different assumptions on the types of projects and project costs that
should be reported as deferred maintenance; (2) were not supported with adequate
documentation; (3) in some cases included costs for projects that, in our opinion, were not
deferred maintenance projects; and (4) did not include all deferred maintenance needs. These
deficiencies occurred because the bureaus and DO1 had not addressed all of the significant issues
related to defining deferred maintenance, had not identified all deferred maintenance projects and
related costs, and had not established adequate controls over deferred maintenance data. As a
result, we found that the bureaus could not adequately support the deferred maintenance cost
estimates of $542.5 million which we reviewed. Also, DO1 and the bureaus did not have reliable
data to support their budget requests for deferred maintenance funding. Based on the Office of
Policy, Management and Budget’s response to the report, we requested additional information
for the report’s three recommendations.

System for Processing Oil and Gas Royalty Appeals Sufficient

ItonHearings
     an audit conducted in response to a request from the former Director of the Office of
             and Appeals, we determined that the Interior Board of Land Appeals should be able
    process oil and gas royalty appeals within the 33-month time frame required by the Federal Oil
and Gas Royalty Simplification and Fairness Act of 1996. We based our conclusion in part on
the fact that the Office of Hearings and Appeals had implemented several procedural and
organizational changes to enhance its oil and gas royalty appeals processing. However, we found
that Land Appeals did not have supervisory reviews over data entered into its computerized
tracking system, which resulted in data entry errors not being corrected, the same appeals being
assigned to different judges, and the appeals deadlines not being calculated accurately. We also
found that MMS did not provide adequate supervisory controls to ensure that the appeals files
sent to Land Appeals were complete and organized and that MMS did not have log-in and log-
out procedures to track the location and status of the appeals. If these internal control
weaknesses are corrected, we believe that appeals could be processed more efficiently. The
Office and MMS concurred with the report’s four recommendations, which we considered
resolved and implemented.




20          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
National Park Service
Review of Housing Program Policy Needed


w      e found that NPS was providing housing to employees who were not eligible for park
       housing under NPS policy that was in effect at the time of our audit. Of the 3 13 housing
units at three parks, we reviewed 309 units that had not been declared excess and found that 52
units were occupied by employees who did not qualify for the housing. For example, 30 units
were occupied by employees who did not qualify for housing based on NPS’s “remoteness”
criterion (that is, there was no available housing within a 60-minute, one-way commute of the
park). We identified another 22 units at another park that were occupied by ineligible
employees. NPS personnel said that these employees were residing in the housing pending the
completion of NPS’s housing assessments and the development of its housing policy based on
the assessments. We concluded that NPS may not be accurately reporting its housing needs, as
required by the Omnibus Parks and Public Lands Management Act of 1996 (Public Law 104-
333). We recommended that the Director, NPS, review the existing policy and, if the prevailing
policy is reaffirmed, take action to enforce the policy. In its response to the draft report, NPS did
not specifically address the report’s recommendation.

Improvements in Concessions Management Needed
    PS did not fully comply with the Concessions Policy Act (Public Law 89-249) or with NPS
N   regulations. Specifically, NPS did not always obtain the required approval for certain
concession contracting actions, reissue expired concession contracts in a timely manner, adjust
franchise fees periodically, determine building use fees, or establish and use special accounts
properly. In addition, NPS did not issue specific guidance to ensure that designated officials
performed or completed concession contracting actions in a timely manner, establish clear lines
of authority for concession contracting actions, or adequately monitor and control concession
contracting activity. As a result, NPS concessioners operated under expired concession
agreements that contained provisions which were not advantageous to NPS, the Government lost
or delayed the opportunity to receive additional revenues, and NPS may not have received a fair
return from concessioners’ special accounts or from their use of park facilities. We identified
potential additional revenues of approximately $4 million from NPS’s implementation of
recommended increases to fees and rents.

Based on NPS ‘s response to the report’s nine recommendations, we considered two
recommendations resolved and implemented, one recommendation resolved but not
implemented, and six recommendations unresolved. The unresolved recommendations pertained
to controls over the concession contracting process, fee reconsideration, and building use fee
computations.




             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                21
Overall Process for Land Acquisitions Adequate, But Improvements
in Some Areas Needed

N
     PS’s processes and procedures for acquiring land were usually efficient and conducted in
     accordance with applicable laws and regulations. However, for certain land acquisitions
costing more than $100,000, NPS did not ensure that just compensation was properly established
before it purchased land and conservation easements at the regions reviewed. Also, NPS
acquired one property without obtaining an appraisal and acquired another property based on an
appraisal that had insufficient documentation to support the estimated fair market value. As a
result, NPS did not have adequate assurance that it paid fair market value for some land,
including nine acquisitions that totaled $7.3 million. We also found that NPS’s Southeast
Region did not negotiate a sales price at an amount less than fair market value when it acquired
land from nonprofit organizations, even though such an option was authorized by DOI guidance.
As a result, NPS did not take advantage of the opportunity to save about $3 million, which
represented the differences between the nonprofit organizations’ purchase and selling prices of
lands conveyed to NPS. In addition, NPS did not properly establish the amount of compensation
paid for conservation easements at two parks because it obtained updated appraisals that did not
appear to be warranted at one park and did not obtain a valid appraisal at another park. As a
result, NPS may have paid $2.6 million more than fair market value for an easement at one park
and did not have assurance that the payment of $588,000 for an easement at another park was
appropriate. Additionally, we found that NPS’s Southeast Region paid relocation claims that
were not supported by adequate documentation, which resulted in NPS not having full assurance
that payments for relocation costs totaling $53,400 were reasonable or justified. Based on NPS’s
response to the report’s 11 recommendations, we considered 7 recommendations resolved but not
implemented and 4 recommendations unresolved.

Employee Embezzles $59,000 From Bank
     n OIG investigation disclosed that an administrative technician at a national historic site in
A    the mid-Atlantic states embezzled $59,236 from a local bank. Located in the city with the
national historic site was a condominium association with a name similar to that of the NPS
facility. Bank officials contacted the historic site regarding funds belonging to the condominium
association, which they erroneously assumed were NPS funds. The administrative technician set
up a new account at the bank in the name of the historic site, transferred funds from the account
of the condominium association, and withdrew more than $24,000 from the new account for
personal use. On May 3, 1999, the technician pled guilty in state superior court and was placed
in a pre-trial intervention program because of no previous criminal history. The technician was
placed on 24 months of probation and was ordered to make restitution to the bank, pay court fees
of $150, and perform 50 hours of community service. Administrative action against the
employee is pending.




22           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
Employee Terminated From Position Following Guilty Plea
    n OIG investigation revealed that an NPS employee used a credit card machine to make a
A   series of debit transactions which enabled her to deposit Government funds of nearly
$60,000 into her personal checking account. On April 29, 1999, the employee pled guilty to one
count of embezzlement of public money. On August 13, 1999, the employee was sentenced to
4 months of imprisonment, 4 months of home confinement with electronic monitoring, and 36
months of supervised probation and was ordered to make restitution of $59,442 and to pay a
special assessment of $100. On August 22, 1999, the employee was terminated from her
position with NPS.

Subcontractor Guilty of Making False Claims on Removal of
Hazardous Wastes
    subcontractor was paid to remove containers of hazardous wastes from a national seashore in
A   Texas. Instead of removing the hazardous materials, the subcontractor placed containers of
hazardous wastes on the beach at the national seashore and invoiced NPS as if the material had
been removed. The subcontractor was indicted on four counts of making false claims against the
Government and one count of violating the Resource Conversion and Recovery Act. On
September 23, 1999, the subcontractor pled guilty and agreed to make restitution of $19,000.

Office of Surface Mining Reclamation and
Enforcement
Contractor Agrees to Settlement Under False Claims Act
    construction contractor and an engineering firm recently entered into a civil settlement with
A   the U.S. Attorney’s Office for the Eastern District of Kentucky to pay $250,000 to OSM for
submitting false claims on contracts to reclaim abandoned mine lands. The contractor and the
engineering firm inflated the amount of excavation material removed from landslides that
occurred as a result of previous surface mining operations. Under the provisions of the False
Claims Act, the funds will be returned to OSM for use on future reclamation projects.

Office of the Secretary
Improvements in Mainframe Computer Policies and Procedures
Needed

T oService
     support our audit of the financial statements of DOI and clients of BOR’s Administrative
           Center, we conducted a followup audit of the 38 recommendations contained in our


            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999               23
March 1997 (No. 97-I-683) and August 1998 (No. 98-I-623) audit reports on mainframe
computer policies and procedures at BOR’s Administrative Service Center. We found that 30
recommendations had been implemented, 5 recommendations had been partially implemented,
and 3 recommendations had not been implemented. The actions taken to implement the
recommendations have improved the controls in the areas of computer center management and
operations, local area network protection, mainframe physical and logical security, software
change management, and service continuity. Based on our current audit, we believe that, overall,
the controls were operating with no material weaknesses. However, we found that improvements
were needed in the area of continuity of operations. Specifically, we found that Service Center
management had not ensured that its Business Recovery Plan was adequate and that critical
business functions would resume within 3 days after a disaster or an emergency, as required by
the Plan. As a result, there was an increased risk that the critical business functions of the
Service Center and the critical operations of its clients may not be able to fully recover from a
disaster or an emergency within the required time frame. Based on the Service Center’s response
to the report’s four new recommendations, we considered one recommendation resolved and
implemented and three recommendations resolved but not implemented.




24          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
                                        APPENDIX 1

                   SUMMARY OF AUDIT ACTIVITIES FROM
                 APRIL 1,1999, THROUGH SEPTEMBER 30,1999
                                  AUDITS PERFORMED BY:
                                             OTHER
                                           FEDERAL         NON-FEDERAL
                                           AUDITORS          AUDITORS
                                        (With Review and   (With Review and
                                          Processing by     Processing by
                       OIG STAFF            OIG Staff)        OIG Staff)
                       Internal and       Contract and
                      Contract Audits     Grant Audits       Single Audits       TOTAL
REPORTS ISSUED TO:
Department/Office
If the Secretary             10                 0                  4                  14
Fish and Wildlife
md Parks                     11                10                 54                  7.5
!ndian Affairs                5                 0                182                 187
[nsular Areas                 7                 0                 12                  19
Land and Minerals
Management                    S                2                  26                  33
Water and Science             6                 1                 27                  34
 Subtotal                   44                 13                305                 362
NDIRECT COST PROPOSALS NEGOTIATED FOR:
ndian Tribes and
X-ganizations              119                 0                   0                 119
nsular Areas                 4                 0                   0                   4
itate Agencies              92                 0                   0                  92
 Subtotal                  215                 0                   0                 215
    TOTAL,                 259                 13                305                 577




             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999          25
                                                               APPENDIX 2

  AUDIT REPORTS ISSUED OR PROCESSED AND INDIRECT COST
 PROPOSALS NEGOTIATED DURING THE 6-MONTH PERIOD ENDED
                    SEPTEMBER 30,1999

      This listing includes all internal, contract, and single audit reports issued and indirect cost agreements negotiated during the 6.month period
      ended September 30, 1999. It provides report number. title, issue date, and monetary amounts identified in each report (*funds to be put
      to better use, **questioned costs, **?msupponed costs [unsupported costs are included in questioned costs], and ****lost or potential
      additional revenues).




INTERNAL AUDITS                                       99-I-937 AUDITORS REPORT                                   BUREAU OF
                                                      ON BUREAU OF INDIAN                                        RECLAMATION
                                                      AFFAIRS CONSOLIDATED
BUREAU OF INDIAN                                      COMPARATIVE FINANCIAL                                      99-I-499 ROSEBUD SIOUX
AFFAIRS                                               STATEMENTS FOR FISCAL                                      RURAL WATER SYSTEM,
                                                      YEARS 1998 AND 1997                                        MN1 WICONI RURAL
99-I-484 COSTS INCURRED                               (9124199)                                                  WATER SUPPLY
UNDER SELECTED                                                                                                   PROJECT, BUREAU OF
FEDERAL AGREEMENTS                                    BUREAU OF LAND                                             RECLAMATION (5!28/99)
WITH THE CHICKASAW                                    MANAGEMENT
NATION OF OKLAHOMA                                                                                               99-I-519 WEST
(5121199) **$46,300                                   99-I-677 RANGELANDS                                        RIVER/LYMAN-JONES
                                                      IMPROVEMENT PROGRAM,                                       RURAL WATER SYSTEM,
99-I-654 FOLLOWUP OF                                  BUREAU OF LAND                                             MN1 WICONI RURAL
RECOMMENDATIONS FOR                                   MANAGEMENT                                                 WATER SUPPLY PROJECT
IMPROVING GENERAL                                     (7128199) ‘$328,700                                        BUREAU OF
CONTROLS OVER                                                                                                    RECLAMATION (611199)
AUTOMATED                                             99-I-808 CULTURAL                                          **$938,899
INFORMATION SYSTEMS,                                  RESOURCE MANAGEMENT,
BUREAU OF INDIAN                                      BUREAU OF LAND                                             99-I-588 LOWER BRULE
AFFAIRS (7126199)                                     MANAGEMENT (9/3/99)                                        SIOUX RURAL WATER
                                                                                                                 SYSTEM, MN1 WICONI
99-I-803 AGRICULTURAL                                 99-I-873 MANAGEMENT                                        RURAL WATER SUPPLY
LEASMG ACTIVITIES, PIMA                               ISSUES IDENTIFIED DURING                                   PROJECT, BUREAU OF
AGENCY, BUREAU OF                                     AUDIT OF BUREAU OF                                         RECLAMATION (6124199)
INDIAN AFFAIRS (9/28/99)                              LAND MANAGEMENT                                            **$253,525
                                                      FINANCIAL STATEMENTS
99-E-922 PROPOSED                                     FOR FISCAL YEARS 1998                                      99-I-627 OGLALA SIOUX
CLAIM FOR INDIRECT                                    AND 1997 (9/l/99)                                          RURAL WATER SUPPLY
COSTS NOT RECOVERED                                                                                              SYSTEM, MN1 WICONI
BY THE WHITE MOUNTAIN                                 99-I-917 SPECIAL DRUG                                      RURAL WATER SUPPLY
APACHE TRIBE (9/24/‘99)                               REDUCTION FUNDS,                                           PROJECT, BUREAU OF
(Report issued to the U.S.                            BUREAU OF LAND                                             RECLAMATION (6129199)
Attorney ‘s Office for the District                   MANAGEMENT                                                 **$1,154,106 & ***$492,307
of New Mexico.)                                       (9/30/99) *s21,so9




26                Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-I-958 GENERAL                 U.S. Virgin Islands               MULTI-OFFICE
ADMINISTRATIVE
EXPENSES                         99-I-701 FEDERAL                  99-I-438 AUDITORS
APPROPRIATION,                   TRANSIT ADMINISTRATION            REPORT ON DEPARTMENT
TECHNICAL SERVICE                GRANTS, DEPARTMENT OF             OF THE LNTERIOR
CENTER, BUREAU OF                PUBLIC WORKS,                     FMANCIAL REPORT FOR
RECLAMATION (9/30/99)            GOVERNMENT OF THE                 FISCAL YEARS 1998 AND
?$55,979                         VIRGIN ISLANDS (812199)           1997 (4119i99)
                                 *$2,800,000, **$119,758, &
INSULAR AREAS                    ***$97,571                        99-I-53 1 VERIFICATION
                                                                   OF THE FEDERAL
Federated States of              99-I-921 CHILD SUPPORT            AGENCIES’ CENTRALIZED
                                 ENFORCEMENT PROGRAM,              TRIAL-BALANCE DATA AS
Micronesia
                                 DIVISION OF PATERNITY             OF SEPTEMBER 30, 1998,
                                 AND CHILD SUPPORT,                FOR THE DEPARTMENT OF
99-I-953 POHNPEI LOCAL           DEPARTMENT OF JUSTICE,            THE INTERIOR (6i4/99)
OFFICE, RURAL                    GOVERNMENT OF
DEVELOPMENT PROGRAM.             THE VIRGIN ISLANDS                99-T-700 TESTIMONY ON
U.S. DEPARTMENT                  (9130199) *$182.535               THE ROYALTY
OF AGRICULTURE,                                                    MANAGEMENT SYSTEM
FEDERATED STATES OF                                                (8i6i99)
                                 99-I-956 SELECTED
MICRONESIA (9/30/99)
                                 FEDERAL GRANT
*$7 14,722                                                         99-I-782 PROCESSING
                                 PROGRAMS, DEPARTMENT
                                 OF EDUCATION,                     NOTIFICATIONS FOR THE
Guam                             GOVERNMENT OF THE                 STRIPPER OIL WELL
                                 VIRGIN ISLANDS (9/30/99)          PROPERTYROYALTYRATE
99-I-455 EXTENDED DAY            *fl39,500, **$70,140, &           REDUCTION PROGRAM,
PROGRAM, DEPARTMENT              ***fig,340                        MINERALS MANAGEMENT
OF EDUCATION,                                                      SERVICE (813 l/99)
GOVERNMENT OF GUAM                                                 ****!33,500,000
                                 99-I-957 MEDICAID
(S/l l/99) **$2,306,378,
                                 PROGRAM GRANTS,
***$2,165,575, &                                                   99-I-874 DEFERRED
                                 DEPARTMENT OF HEALTH.
****5357,507                                                       MAINTENANCE, NATIONAL
                                 GOVERNMENT OF THE
                                 VIRGIN ISLANDS (9130199)          PARK SERVICE, U.S. FISH
Republic of the Marshall         **$85,3 12                        AND WILDLIFE SERVICE,
Islands                                                            U.S. GEOLOGICAL SURVEY,
                                                                   BUREAU OF INDIAN
                                 MINERALS                          AFFAIRS, BUREAU OF
99-I-952 MARSHALL                MANAGEMENT                        LAND MANAGEMENT, AND
ISLANDS DEVELOPMENT
                                 SERVICE                           BUREAU OF
BANK, REPUBLIC OF THE
                                                                   RECLAMATION (9/‘28/99)
MARSHALL ISLANDS
(9130199) *$382,888 &            99-I-628 IMPLEMENTATION
                                 OF RECOMMENDATIONS                99-I-892 SELECTED
****$17,783,611
                                 FOR IMPROVING GENERAL             ASPECTS OF THE
                                 CONTROLS OVER THE                 ADMINISTRATION OF THE
                                 AUTOMATED                         WORKERS’
                                 INFORMATION SYSTEM,               COMPENSATION
                                 ROYALTY MANAGEMENT                PROGRAM, DEPARTMENT
                                 PROGRAM, MINERALS                 OF THE INTERIOR (g/28/99)
                                 MANAGEMENT SERVICE
                                 (7/9i99)




            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999          27
NATIONAL PARK                   99-I-924 ADMINISTRATIVE           BUREAU OF
SERVICE                         APPEALS PROCESS OF THE            RECLAMATION
                                INTERIOR BOARD OF LAND
                                APPEALS, DEPARTMENT OF            99-E-905 BURNS AND ROE
99-I-518 LAND
                                THE INTERIOR (9130199)            SERVICES CORPORATION,
ACQUISITION ACTIVITIES,
NATIONAL PARR SERVICE                                             LABOR FLOORCHECKS FOR
                                99-I-938 IMPLEMENTATION           CALENDAR YEAR ENDED
(5/28/99) *$2,601,700 &
                                OF RECOMMENDATIONS                DECEMBER 3 1, 1999
**$789,700
                                FOR IMPROVING                     (9i17199)
                                MAINFRAME COMPUTER
99-I-626 CONCESSION
                                POLICIES AND                      99-E-906 BURNS AND ROE
CONTRACTING
                                PROCEDURES AT THE                 SERVICES CORPORATION,
PROCEDURES,
                                ADMINISTRATIVE SERVICE            COMPLIANCE WITH COST
NATIONAL PARR SERVICE
                                CENTER (9!30/‘99)                 ACCOUNTING STANDARD
(6130199) ****$5,314,000
                                                                  4 12, COMPOSITION AND
99-I-916 AUDITORS               U.S. FISH AND                     MEASUREMENT OF
REPORT ON NATIONAL              WILDLIFE SERVICE                  PENSION COST (g/17/99)
PARR SERVICE FINANCIAL
STATEMENTS FOR FISCAL           99-I-907 ACQUISITION OF           NATIONAL PARK
YEARS 1998 AND 1997             SELECTED FURNITURE AT             SERVICE
(9117199)                       THE DIVISION OF
                                ENGINEERING, U.S. FISH            99-E-648 MJC ELECTRIC,
99-I-919 EMPLOYEE               AND WILDLIFE SERVICE              INC., BILLINGS SUBMITTED
HOUSING RENTAL                  (9/30/99)                         UNDER NATIONAL PARK
INCOME, NATIONAL PARK
                                                                  SERVICE CONTRACT
SERVICE (9130199)
                                U.S. GEOLOGICAL                   NO. 1443CX160092007
**$256,684 & ***$256,684
                                SURVEY                            (719199)
99-I-959 DEFERRED
                                                                  99-E-778 LORD, AECK AND
MAINTENANCE, NATIONAL           99-I-688 MANAGEMENT
                                                                  SARGENT, INC., COST
PARR SERVICE (913Ot99)          ISSUES IDENTIFIED DURLNG
                                                                  PROPOSAL SUBMITTED
                                AUDIT OF U.S. GEOLOGICAL
                                                                  UNDER NATIONAL PARK
OFFICE OF THE                   SURVEY FINANCIAL
                                STATEMENTS FOR FISCAL             SERVICE CONTRACT
SECRETARY                                                         NO. 1443CX509098008
                                YEARS 1998 AND 1997
                                                                  (g/18/99)
                                (7/l 6199)
99-I-495 AUDITORS
REPORT ON DEPARTMENT                                              99-E-823 HARTRAMPF
OF THE INTERIOR                 CONTRACT AND                      ENGINEERING, INC., COST
DEPARTMENTAL OFFICES                                              PROPOSAL SUBMITTED
FINANCIAL REPORT FOR            GRANT AUDITS                      UNDER NATIONAL PARK
FISCAL YEARS 1998 AND                                             SERVICE CONTRACT
1997 (5/12/99)                  BUREAU OF LAND                    NO. 1443CX509098009
                                MANAGEMENT                        (g/27/99)
99-I-687 MANAGEMENT
ISSUES IDENTIFIED                                                 99-E-824 POND AND
                                99-E-556 TRW
DURING AUDIT OF                                                   COMPANY, COST
                                INFORMATION
DEPARTMENTAL                                                      PROPOSAL SUBMITTED TO
OFFICES FINANCIAL               TECHNOLOGY
                                                                  NATIONAL PARK SERVICE
                                SERVICE, COSTS LNCURRED
STATEMENTS FOR FISCAL                                             UNDER CONTRACT
                                FOR CALENDAR YEAR 1997
YEARS 1998 AND 1997                                               NO. 1443CX509098007
                                (619199)
(706199)                                                          (g/27/99)




28         Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-E-825 EDAW, INC.,            99-E-729 U.S. FISH AND            SINGLE AUDITS
COST PROPOSAL                   WILDLIFE SERVICE
SUBMITTED USDER                 FEDERAL AID GRANTS TO
NATIONAL PARK                   MISSISSIPPI DEPARTMENT            BUREAU OF INDIAN
SERVICE CONTRACT                OF WILDLIFE, FISHERIES            AFFAIRS
NO. 1443CX5509098006            AND PARKS FOR 2 FISCAL
(8i27i99)                       YEARS ENDED JUNE 30,1997          99-A-401 TE-MOAK TRIBE
                                (8/4/99)                          OF WESTERN SHOSHONE
U.S. FISH AND                                                     BATTLE MOUNTAIN BAND
WILDLIFE SERVICE                99-E-736 LLOYD H.                 COUNCIL, FISCAL YEAR
                                KESSLER, INC., CLAIM FOR          ENDED SEPTEMBER 30,
                                EQUITABLE ADJUSTMENT              1997 (4/l/99)
99-E-422 PROCONTROLS
                                SUBMITTED TO U.S. FISH
CORPORATION,                    AND WILDLIFE SERVICE
TERMINATION                                                       99-A-402 SUMMIT LAKE
                                UNDER CONTRACT
SETTLEMENT PROPOSAL                                               PAIUTE TRIBE, FISCAL
                                NO. 1448.OOOl-98CO13 (g/5199)     YEAR ENDED
SUBMITTED TO U.S. FISH
AND WILDLIFE SERVICE                                              DECEMBER 31, 1996 (4!1i99)
                                99-E-904 RECREATIONAL             **$2,848
UNDER CONTRACT                  BOATING AND FISHING
NO. 1448-601081-97-CO39
                                FOUNDATION, COST
(4/l 6/99)                      PROPOSAL SUBMITTED TO             99-A-41 1 TOHONO
                                US. FISH AND WILDLIFE             O’ODHAM NATION, FISCAL
99-E-559 U.S. FISH AND          SERVICE UNDER                     YEAR ENDED
WILDLIFE FEDERAL AID            COOPERATIVE                       SEPTEMBER 30, 1995 (4/9/99)
GRANTS TO MONTANA                                                 **$7,877
                                AGREEMENT
DEPARTMENT OF FISH,             NO. 1448-98210-99-5053
WILDLIFE AND PARKS FOR                                            99-A-412 HAJNES
                                (9116199)
2 FISCAL YEARS ENDED                                              BOROUGH SCHOOL
JUNE 30, 1996 (6/l l/99)        99-E-923 U.S. FISH AND            DISTRICT, FISCAL
                                WILDLIFE SERVICE                  YEAR ENDED JUNE 30,1997
99-E-726 U.S. FISH AND                                            (4/9/99)
                                FEDERAL AID GRANTS TO
WILDLIFE SERVICE                IDAHO DEPARTMENT OF
FEDERAL AID GRANTS TO           FISH AND GAME FOR                 99-A-413 PINOLEVILLE
NEBRASKA GAME AND               2 FISCAL YEARS ENDED              BAND OF POMO INDIANS
PARK COMMISSION FOR             JUNE 30, 1997 (9122199)           OF THE PINOLEVILLE
2 FISCAL YEARS ENDED                                              INDIAN RESERVATION,
JUNE 30. 1997 (814199)          99-E-925 U.S. FISH AND            FISCAL YEAR ENDED
                                WILDLIFE SERVICE                  DECEMBER 3 1, 1996 (4/9/99)
99-E-727 U.S. FISH AND          FEDERAL AID GRANTS TO
WILDLIFE SERVICE
                                AMERICAN SAMOA                    99-A-414 BUENA VISTA
GRANTS TO OREGON                DEPARTMENT OF MARINE              RANCHERIA BAND OF
DEPARTMENT OF FISH              AND WILDLIFE FOR                  MEWUK INDIANS, FISCAL
AND WILDLIFE FOR                2 FISCAL YEARS ENDED
2 FISCAL YEARS ENDED                                              YEAR ENDED
                                JUNE 30, I997 (9122199)           DECEMBER 31, 1994 (4/9/99)
JUNE 30, 1996 (8/4/99)
                                                                  99-A-415 SWJNOMISH
99-E-728 U.S. FISH AND
                                                                  INDIAN TRIBAL
WILDLIFE GRANTS TO
                                                                  COMMUNITY,
PUERTO RICO
                                                                  FISCAL YEAR ENDED
DEPARTMENT OF
                                                                  DECEMBER 3 1, 1997 (4/9199)
NATURAL RESOURCES FOR
2 FISCAL YEARS ENDED
JUNE 30, 1996 (814199)



           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999           29
99-A-416 HOOPA VALLEY            99-A-432 UNITED SIOUX              99-A-466 NATIVE VILLAGE
TRIBE, FISCAL YEAR               TRIBES OF SOUTH DAKOTA             OF KWTNHAGAK, FISCAL
ENDED SEPTEMBER 30,              DEVELOPMENT                        YEAR ENDED JUNE 30. 1995
1997 (4i9199)                    CORPORATION, FISCAL                (5/5/99)
                                 YEAR ENDED
99-A-417 LEUPP SCHOOLS,          SEPTEMBER 30, 1996                 99-A-467 NATIVE VILLAGE
INC.> FISCAL YEAR ENDED          (4/‘16/99)                         OF KWMHAGAK, FISCAL
JUNE 30, 1996 (4i9199)                                              YEAR ENDED JUNE 30, 1996
                                 99-A-452 HANNAHVILLE               (5i5/99)
99-A-418 NOATAK IRA              INDIAN COMMUNITY,
COUNCIL. FISCAL YEAR             FISCAL YEAR ENDED                 99-A-468 SANDIA PUEBLO,
ENDED SEPTEMBER 30,              SEPTEMBER 30,1997                 FISCAL YEAR ENDED
1996 (4/9/99)                    (4:3Oi99)                         DECEMBER 3 1, 1997
                                                                   (5/5199)
99-A-419 PAWNEE NATION           99-A-453 LITTLE TRAVERSE
OF OKLAHOMA, FISCAL              BAY BANDS OF                      99-A-469 ALASKA
YEAR ENDED                       ODAWA INDIANS, FISCAL             INTER-TRIBAL COUNCIL,
DECEMBER 3 1, 1996 (4/9/99)      YEAR ENDED                        FISCAL YEAR ENDED
                                 DECEMBER 3 1, 1997 (4:3Oi99)      DECEMBER 3 1, 1995
99-A-420 NATIVE VILLAGE                                            (5i5199)
OF TYONEK, FISCAL YEAR           99-A-454 CHEYENNE RIVER
ENDED JUNE 30, 1996              SIOUX TRIBE, FISCAL YEAR          99-A-470 ALASKA
(4/9/99) **$6,740                ENDED SEPTEMBER 30,1997           INTER-TRIBAL COUNCIL,
                                 (4130199)                         FISCAL YEAR ENDED
99-A-428 RED LAKE BAND                                             DECEMBER 3 1, 1996
OF CHIPPEWA INDIANS,             99-A-461 PRAIRIE BAND OF          (5/5/99)
FISCAL YEAR ENDED                POTAWATOMI INDIANS,
SEPTEMBER 30, 1997               FISCAL YEAR ENDED                 99-A-471 PORT GAlMBLE
(4/16/99) **$2,500               DECEMBER 3 1, 1997 (S/5/99)       S’KLALLAM TRIBE, FISCAL
                                 **$40,022                         YEAR ENDED
99-A-429 TOHONO                                                    DECEMBER 3 1, 1997 (55199)
O’ODHAM NATION, FISCAL           99-A-462 CAHUILLA BAND
YEAR ENDED                       OF INDIANS, FISCAL YEAR           99-A-472 PUEBLO OF
SEPTEMBER 30, 1996               ENDED DECEMBER 3 1, 1993          POJOAQUE, FISCAL YEAR
(4116199) **$3,620               (515199)                          ENDED
                                                                   SEPTEMBER 30, 1997
99-A-430 OMAHA TRIBE             99-A-463 CAHUILLA BAND            (5/5/99)
OF NEBRASKA, FISCAL              OF INDIANS, FISCAL YEAR
YEAR ENDED                       ENDED DECEMBER 3 1, 1994          99-A-473
SEPTEMBER 30, 1996               (515199)                          ORUTSARARMUIT
(4/16/99)                                                          NATIVE COUNCIL, FISCAL
                                 99-A-464 CAHUILLA BAND            YEAR ENDED
99-A-431 LAS VEGAS               OF INDIANS, FISCAL YEAR           DECEMBER 31. 1995 (5/7/‘99)
PAIUTE TRIBE, FISCAL             ENDED DECEMBER 31, 1995           **$107,838
YEAR ENDED                       (5/5/99)
DECEMBER 31, 1997                                                  99-A-474
(4/ 16199)                       99-A-465 CAHUILLA BAND            ORUTSARARMUIT
                                 OF INDIANS, FISCAL YEAR           NATIVE COUNCIL, FISCAL
                                 ENDED DECEMBER 3 1,1996           YEAR ENDED
                                 (5/j/99) **$6,687                 DECEMBER 31, 1996 (5/7/99)
                                                                   **S250,520




30          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-A-475 KUIGPAGMIUT,            99-A-505 CONFEDERATED             99-A-525 PLEASANT POINT
LNC., FISCAL YEAR ENDED          TRIBES OF THE GRAND               PASSAMAQUODDY TRIBAL
DECEMBER 3 1, 1993               RONDE COMMUNITY OF                COUNCIL, FISCAL YEAR
(5i7/99)                         OREGON, FISCAL ENDED              ENDED SEPTEMBER 30,
                                 DECEMBER31, 1997 (S/21/99)        1997 (614i99)
99-A-476 WHITE EARTH
RESERVATION, FISCAL              99-A-506 MANDAREE                 99-A-528 HWAL’BAY BA:J
YEAR ENDED                       PUBLIC SCHOOL DISTRICT            ENTERPRISES, FISCAL
SEPTEMBER 30, 1997 (5/7/99)      NO. 36, FISCAL YEAR ENDED         YEAR ENDED
                                 JUNE 30, 1997 (5/21/99)           DECEMBER 3 1, 1997
99-A-477 KUIGPAGMIUT,                                              (6i4i99)
INC., FISCAL YEAR ENDED          99-A-507 ROSEBUD SIOUX
DECEMBER 3 1, 1994 (517199)      TRIBE, FISCAL YEAR ENDED          99-A-529 SAGINAW
                                 SEPTEMBER 30, 1997                CHIPPEWA TNDIAN TRIBE
99-A-478 KUIGPAGMIUT,            (5!2 l/99)                        OF MICHIGAN, FISCAL
INC., FISCAL YEAR ENDED                                            YEAR ENDED
DECEMBER 3 1, 1995 (517199)      99-A-508 ASSOCIATION OF           SEPTEMBER 30, 1997 (6/‘4/99)
                                 VILLAGE COUNCIL
99-A-479 KUIGPAGMIUT,            PRESIDENTS, INC., FISCAL          99-A-530 KAIBAB BAND
INC., FISCAL YEAR ENDED          YEAR ENDED                        OF PAIUTE MDIANS,
DECEMBER 31, 1996 (S/7/99)       DECEMBER 31, 1997 (5121199)       FISCAL YEAR ENDED
                                                                   DECEMBER 31, 1997 (614i99)
99-A-480 MINNESOTA               99-A-509 SOUTHERN UTE
CHIPPEWA TRIBE, FISCAL           INDIAN TRIBE, FISCAL              99-A-537 WINGATE
YEAR ENDED                       YEAR ENDED                        BOARD OF EDUCATION,
SEPTEMBER 30, 1997 (5/7/99)      SEPTEMBER 30, 1997                INC., FISCAL YEAR ENDED
                                 (5121199)                         JUNE 30, 1993 (615199)
99-A-481 ST. CROIX
CHIPPEWA INDIANS OF              99-A-510 COLLEGE OF THE           99-A-538 WINGATE
WISCONSIN, FISCAL YEAR           MENOMINEE NATION,                 BOARD OF EDUCATION,
ENDED SEPTEMBER 30,              FISCAL YEAR ENDED                 INC., FISCAL YEAR ENDED
1997 (5/7/99)                    JUNE 30, 1997 (5121199)           JUNE 30, 1994 (6/5/99)

99-A-483 TONTO-APACHE            99-A-51 1 TEMECULA BAND           99-A-539 WTNGATE
TRIBE, FISCAL YEAR               OF LUISENO MISSION                BOARD OF EDUCATION,
ENDED DECEMBER 31, 1995          INDIANS OF THE PECHANGA           INC., FISCAL YEAR ENDED
(S/7/99) **$18,814               INDIAN RESERVATION,               JUNE 30, 1995 (615199)
                                 FISCAL YEAR ENDED
99-A-491 ELK0 BAND               SEPTEMBER 30, 1997                99-A-540 QUINAULT
COUNCIL, FISCAL YEAR             (5/2 l/99)                        INDIAN NATION, FISCAL
ENDED SEPTEMBER 30,                                                YEAR ENDED
1995 (5/14/99)                   99-A-52 1 BUENA VISTA             SEPTEMBER 30, 1997 (6/5/99)
                                 RANCHERIA BAND OF
99-A-503 SAN CARLOS              MEWUK INDIANS, FISCAL             99-A-541 QUAPAW TRIBE
APACHE TRIBE, FISCAL             YEAR ENDED                        OF OKLAHOMA, FISCAL
YEAR ENDED                       DECEMBER 31, 1995 (6/l/99)        YEAR ENDED
SEPTEMBER 30, 1997                                                 SEPTEMBER 30, 1995 (61’5199)
(5/21/99)                        99-A-524 MOUNT ADAMS
                                 SCHOOL DISTRICT NO. 209,          99-A-542 QUAPAW TRIBE
99-A-504 WHITE SHIELD            FISCAL YEAR ENDED                 OF OKLAHOMA, FISCAL
SCHOOL, FISCAL YEAR              AUGUST 3 1. 1997 (6/4/99)         YEAR ENDED
ENDED JUNE 30, 1997                                                SEPTEMBER 30, 1996 (6/5/99)
(51.2 1199)


            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999           31
99-A-543 TABLE                   99-A-552 SAUK-SUIATTLE            99-A-590 TOPPENISH
MOUNTAIN RANCHERIA               INDIAN TRIBE, FISCAL               SCHOOL DISTRICT NO. 202,
BAND OF INDIANS, FISCAL          YEAR ENDED                         FISCAL YEAR ENDED
YEAR ENDED                       DECEMBER 31, 1997                  AUGUST 31, 1997 (6114199)
DECEMBER 3 1, 1997 (6/5!99)      (615199)
**$19,585                                                          99-A-596 FOREST COUNTY
                                 99-A-553 BERING SEA               POTAWATOMI
99-A-544 NATIVE VILLAGE          FISHERMEN’S                       COMMUNITY,
OF EKLUTNA, FISCAL               ASSOCIATION,                      FISCAL YEAR ENDED
YEAR ENDED                       FISCAL YEAR ENDED                 SEPTEMBER 30, 1997
SEPTEMBER 30, 1997 (615i99)      JUNE 30, 1997 (615199)            (6117199)

99-A-545 SHONTO                  99-A-554 EASTERN                   99-A-598 NORTHERN
GOVERNING BOARD OF               SHOSHONE TRIBE OF THE              PLAINS INTERTRIBAL
EDUCATION, INC., FISCAL          WTND RIVER RESERVATION,            COURT OF APPEALS,
YEAR ENDED JUNE 30, 1997         FISCAL YEAR ENDED                  FISCAL YEAR ENDED
(615199)                         DECEMBER 31, 1997                  SEPTEMBER 30, 1995
                                 (614199)                           (6/17/99)
99-A-546 HOONAH INDIAN
ASSOCIATION, FISCAL              99-A-555 MENOMINEE                 99-A-602 KODIAK AREA
YEAR ENDED                       TRIBAL ENTERPRISES,                NATIVE ASSOCIATION,
DECEMBER 3 1, 1995 (6/S/99)      FISCAL YEAR ENDED                  FISCAL YEAR ENDED
                                 JUNE 30, 1997 (614199)             SEPTEMBER 30, 1997
99-A-547 SAMISH TRIBAL                                              (6/17/99)
ORGANIZATION, FISCAL             99-A-561 AMERICAN
YEAR ENDED                       INSTITUTES FOR RESEARCH            99-A-603 KODIAK AREA
DECEMBER 3 1, 1997 (615199)      IN THE BEHAVIORAL                  NATIVE ASSOCIATION,
                                 SCIENCES, FISCAL YEAR              FISCAL YEAR ENDED
99-A-548 MECHOOPDA               ENDED SEPTEMBER 30,1997            SEPTEMBER 30, 1996
INDIAN TRIBE OF CHICO            (618199)                           (6/17199)
RANCHERIA, CALIFORNIA,
FISCAL YEAR ENDED                99-A-573 MARANA UNIFIED            99-A-606 AGDAAGUX
DECEMBER 3 1, 1997               SCHOOL DISTRICT NO. 6,             TRIBAL COUNCIL, FISCAL
(615199)                         FISCAL YEAR ENDED                  YEAR ENDED
                                 JUNE 30. 1997 (6:9/99)             SEPTEMBER 30,1996
99-A-549 LYTTON BAND                                                (6117199)
OF POMO INDIANS, FISCAL           99-A-575 MOORE
YEAR ENDED                        INDEPENDENT SCHOOL                99-A-610 MENTASTA LAKE
DECEMBER 3 1, 1997 (6/5/99)       DISTRICT NO. 2, FISCAL            VILLAGE TRADITIONAL
                                  YEAR ENDED JUNE 30, 1997          COUNCIL, FISCAL YEAR
99-A-550 PLEASANT POINT           (619199)                          ENDED SEPTEMBER 30,
SCHOOL MAINE INDIAN                                                 1993 (6118199) **$3,250
EDUCATION, FISCAL YEAR            99-A-576 NOME CITY
ENDED JUNE 30, 1997               SCHOOL DISTRICT, FISCAL           99-A-611 MENTASTA LAKE
(615199)                          YEAR ENDED JUNE 30, 1997          VILLAGE TRADITIONAL
                                  (619199)                          COUNCIL, FISCAL YEAR
99-A-551 SANTA ANA                                                  ENDED SEPTEMBER 30.
PUEBLO, FISCAL YEAR               99-A-578 NORTH SLOPE              1994 (6/18/99)
ENDED SEPTEMBER 30,               BOROUGH SCHOOL
1997 (6/5/99)                     DISTRICT, FISCAL YEAR
                                  ENDED JUNE 30, 1997
                                  (6/10/99)



32           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-A-612 MENTASTA LAKE          99-A-642 LOWER ELWHA               99-A-662 QUILEUTE
VILLAGE TRADITIONAL             S’KLALLAM TRIBE, FISCAL            TRIBAL SCHOOL, FISCAL
COUNCIL, FISCAL YEAR            YEAR ENDED                         YEAR ENDED JUNE 30,1997
ENDED SEPTEMBER 30,             SEPTEMBER 30, 1997 (712199)        (706199)
1995 (6/18/99)
                                99-A-643 POTNT NO POINT            99-A-663 SKAGIT SYSTEM
99-A-613 MENTASTA LAKE          TREATY COUNCIL, FISCAL             COOPERATIVE, FISCAL
VILLAGE TRADITIONAL             YEAR ENDED                         YEAR ENDED
COUNCIL, FISCAL YEAR            DECEMBER 3 1, 1997 (7/2/99)        DECEMBER 3 1, 1997
ENDED SEPTEMBER 30,                                                (7116199) **$159,183
1996 (6/18/99)                   99-A-644 GUIDIVILLE
                                 BAND OF POMO INDIANS,             99-A-664
99-A-615 PORCUPINE               FISCAL YEAR ESDED                 SHOSHONE-BANNOCK
SCHOOL, FISCAL YEAR              JULY 3 1, 1997 (7i2i99)           TRIBES, FISCAL YEAR
ENDED JUNE 30, 1997                                                ENDED SEPTEMBER 30,
(6118199)                        99-A-655 ACOMA PUEBLO,            1997 (7/16/99)
                                 FISCAL YEAR ENDED
99-A-616 HAVASUPAI               DECEMBER31, 1997 (7116199)        99-A-665 CONFEDERATED
TRIBE, FISCAL YEAR                                                 TRIBES OF COOS, LOWER
ENDED SEPTEMBER 30,             99-A-656 COCHITI                   UMPQUA AND SIUSLAW
1995 (6118199)                  PUEBLO, FISCAL YEAR                INDIANS, FISCAL YEAR
                                ENDED DECEMBER 3 1, 1997           ENDED DECEMBER 3 1, 1997
99-A-617 HAVASUPAI              (7116199)                          (7/16/99)
TRIBE, FISCAL YEAR
ENDED SEPTEMBER 30,              99-A-657 SHOALWATER               99-A-666 COLUMBIA
1996 (6/‘18/99)                  BAY INDIAN TRIBE, FISCAL          RIVER INTER-TRIBAL FISH
                                 YEAR ENDED                        COMMISSION, FISCAL
99-A-637 JENA BAND OF            SEPTEMBER 30,1997                 YEAR ENDED
CHOCTAW INDIANS,                 (7116199)                         DECEMBER 3 1, 1997
FISCAL YEAR ENDED                                                  (7116199)
DECEMBER 31, 1997 (7/l/99)       99-A-658 CHEMEHUEVI
                                 INDIAN TRIBE, FISCAL              99-A-667 TOHATCHI
99-A-638 DINE’ BII               YEAR ENDED                        SPECIAL EDUCATION AND
ASSOCIATION FOR                  DECEMBER 31, 1997 (7116199)       TRAINING CENTER, INC.,
HANDICAPPED CITIZENS,                                              FISCAL YEAR ENDED
TNC., FISCAL YEAR ENDED          99-A-659 NAVAJO NATION            DECEMBER 3 1, 1997
JUNE 30, 1997 (7/l/99)           AND RELATED TRIBAL                 (7/16/99) **$117,678
                                 ENTITIES, FISCAL YEAR
99-A-639 MENOMINEE               ENDED SEPTEMBER 30.1997           99-A-668 NORTHWEST
INDIAN TRIBE OF.                 (706199)                          TNDIAN FISHERIES
WISCONSIN, FISCAL YEAR                                             COMMISSION, FISCAL
ENDED SEPTEMBER 30,              99-A-660 KAW NATION OF            YEAR ENDED
1997 (7/l/99)                    OKLAHOMA, FISCAL YEAR             SEPTEMBER 30, 1997
                                 ENDED DECEMBER 3 1, 1997          (7/ 16i99)
99-A-640 ONEIDA TRIBE            (7/l 6i99)
OF INDIANS OF                                                      99-A-679 TUNICA-BILOXI
WISCONSIN, FISCAL YEAR           99-A-661 CRAZY HORSE              INDIANS, FISCAL YEAR
ENDED SEPTEMBER 30,              SCHOOL, FISCAL YEAR               ENDED DECEMBER 3 1, 1997
1997 (7/l/99)                    ENDED JUNE 30, 1998               (7/16199)
                                 (7/16/99)




            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999        33
99-A-680 LOVELOCK                99-A-72 1 GILA RIVER              99-A-766 THLOPTHLOCCO
PAIUTE TRIBE, FISCAL             INDIAN COMMUNITY,                 TRIBAL TOWN, FISCAI.
YEAR ENDED                       FISCAL YEAR ENDED                 YEAR ENDED
DECEMBER 3 1, 1997               MARCH 3 1, 1998                   SEPTEMBER 30, 1995
(7116199) **$4,400               (7130199)                         (8/13!99)

99-A-681 MISSISSIPPI             99-A-722 INDIAN                   99-A-767 BAHWETING
BAND OF CHOCTAW                  TOWNSHIP TRIBAL                   ANISHNABE SCHOOL,
INDIANS, FISCAL YEAR             GOVERNMENT, FISCAL                FISCAL YEAR ENDED
ENDED SEPTEMBER 30,              YEAR ENDED                        JUNE 30, 1998 (8/13/99)
1997 (7/16/99)                   SEPTEMBER 30, 1997
                                 (7130199)                         99-A-768 AHMIUM
99-A-683 GREAT LAKES                                               EDUCATION, INC., FISCAL
MTER-TRIBAL COUNCIL,             99-A-723 SEMINOLE TRIBE           YEAR ENDED JUNE 30, 1997
INC., FISCAL YEAR ENDED          OF FLORIDA, FISCAL YEAR           (8/13/99)
JUNE 30, 1998 (7116199)          ENDED JUNE 30, 1997
                                 (7130199)                         99-A-769 FORT BIDWELL
99-A-685 COCOPAH                                                   INDIAN COMMUNITY
INDIAN TRIBE, FISCAL             99-A-755                          COUNCIL, FISCAL YEAR
YEAR ENDED                       SHOSHONE-PAIUTE TRIBES            ENDED SEPTEMBER 30,
DECEMBER 3 1, 1995               OF THE DUCK VALLEY                1996 (803199)
(7/16/99)                        INDIAN RESERVATION,
                                 FISCAL YEAR ENDED                 99-A-770 FALSE PASS
99-A-686 JOINT                   SEPTEMBER 30, 1997                TRIBAL COUNCIL, FISCAL
PROGRAMS OF THE                  (8/13199)                         YEAR ENDED
SHOSHONE AND                                                       SEPTEMBER 30, 1996
ARAPAHO TRIBES OF THE            99-A-756 SPIRIT LAKE              (8113199)
WIND RIVER                       TRIBE, FISCAL YEAR ENDED
RESERVATION, FISCAL              SEPTEMBER 30, 1998                99-A-785 NEW MEXICO
YEAR ENDED                       (g/13199) **S84,364               AZTEC MUNICIPAL
DECEMBER 31, 1993                                                  SCHOOL DISTRICT NO. 2,
(7116199) **$2,212               99-A-757 FORT BELKNAP             FISCAL YEAR ENDED
                                 INDIAN COMMUNITY,                 JUNE 30, 1997 (S/19/99)
99-A-713 INDEPENDENT             FISCAL YEAR ENDED
SCHOOL DISTRICT NO. 1,           SEPTEMBER 30, 1997                99-A-794 BROWNING
FISCAL YEAR ENDED                (8113199)                         PUBLIC SCHOOLS, FISCAL
JUNE 30, 1997 (7129199)                                            YEAR ENDED JUNE 30, 1997
                                 99-A-762 COCOPAH INDIAN           (8119199)
99-A-715 BELCOURT                TRIBE, FISCAL YEAR ENDED
PUBLIC SCHOOL DISTRICT           DECEMBER 31, 1996 (g/13/99)       99-A-804 D-Q UNIVERSITY,
NO. 7, FISCAL YEAR ENDED                                           FISCAL YEAR ENDED
JUNE 30, 1998 (7/29/99)          99-A-764 KUSKOKWIM                JUNE 30, 1996 (8119199)
                                 NATIVE ASSOCIATION,
99-A-720 CROW TRIBE OF           FISCAL YEAR ENDED                 99-A-816 YA-KA-AMA
INDIANS, FISCAL YEAR             SEPTEMBER 30, 1996                INDIAN EDUCATION AND
ENDED SEPTEMBER 30,              (8/l 3/99)                        DEVELOPMENT, INC.,
1997 (7/30/99)                                                     FISCAL YEAR ENDED
                                 99-A-765 COEUR D’ALENE            SEPTEMBER 30, 1996
                                 TRIBE, FISCAL YEAR ENDED          (8/25/99)
                                 SEPTEMBER 30, 1995
                                 (g/13/99)




34          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-A-818 WHEELING,              99-A-837 FLAGSTAFF                99-A-885 POTTER VALLEY
WEST VIRGINIA, FISCAL           BORDERTOWN DORMITORY              LITTLE LAKE POMO TRIBE,
YEAR ENDED JUNE 30, 1997        BOARD, MC., FISCAL YEAR           FISCAL YEAR ENDED
(S/25/,99)                      ENDED SEPTEMBER 30, 1997          DECEMBER 3 1, 1995
                                (81271’99)                        (9/10/99)
99-A-819 STONE CHILD
COLLEGE, FISCAL YEAR            99-A-839 SAN PASQUAL              99-A-886 RIVERSIDE-SAN
ENDED SEPTEMBER 30,             BAND OF MISSION INDIANS,          BERNARDINO COUNTY
1997 (8125’99)                  FISCAL YEAR ENDED                 INDIAN HEALTH, INC.,
                                DECEMBER 3 1, 1997                FISCAL YEAR ENDED
99-A-826 LAC COURTE             (g/27/99)                         DECEMBER 3 1, 1996
OREILLES OJIBWA                                                   (9!10/99)
COMMUNITY COLLEGE,              99-A-841 STILLAGUAMISH
INC., FISCAL YEAR ENDED         TRIBE OF INDIANS, FISCAL          99-A-887 KLAMATH
JUNE 30, 1996 (g/27/99)         YEAR ENDED                        TRIBES, FISCAL YEAR
                                SEPTEMBER 30, 1998                ENDED DECEMBER 3 1, 1997
99-A-827 LAC COURTE             (8/27/99)                         (9/10/99)
OREILLES OJIBWA
COMMUNITY COLLEGE,              99-A-843 NORTHERN                 99-A-888 ONEIDA TRIBE
INC., FISCAL YEAR ENDED         PLAINS INTERTRIBAL                OF INDIANS OF
JUNE 30, 1997 (8127199)         COURT OF APPEALS, FISCAL          WISCONSIN, FISCAL YEAR
                                YEAR ENDED                        ENDED SEPTEMBER 30,
99-A-831 LEUPP SCHOOLS,         SEPTEMBER 30, 1996                1998 (900199)
INC., FISCAL YEAR ENDED         (8/27/99)
JUNE 30, 1997 (8127199)                                           99-A-889 HUALAPAI
                                99-A-844 CATAWBA INDIAN           TRIBE, FISCAL YEAR
99-A-833 LUMMI INDIAN           NATION, FISCAL YEAR               ENDED DECEMBER 3 1, 1997
BUSINESS COUNCIL,               ENDED DECEMBER 3 1, 1994          (9/10/99) **$28,864
FISCAL YEAR ENDED               (8/27/99)
DECEMBER 3 1, 1997                                                99-A-890 HOPI
(8127199)                       99-A-845 CATAWBA INDIAN           JUNIOR/SENIOR HIGH
                                NATION, FISCAL YEAR               SCHOOL, FISCAL YEAR
99-A-834 MESCALERO              ENDED DECEMBER 31, 1995           ENDED JUNE 30. 1998
APACHE TRIBE. FISCAL            (8127199) **$12,261               (9110199)
YEAR ENDED
SEPTEMBER 30, 1997              99-A-881 POTTER VALLEY            99-A-933 JOINT
(g/27/99)                       LITTLE LAKE POMO TRIBE.           PROGRAMS
                                FISCAL YEAR ENDED                 OF THE SHOSHONE AND
99-A-835 WA HE LUT              DECEMBER 31, 1992 (9/10/99)       ARAPAHO TRIBES OF THE
INDIAN SCHOOL, FISCAL                                             WIND RIVER
YEAR ENDED JUNE 30, 1998        99-A-882 POTTER VALLEY            RESERVATION,
(8127199)                       LITTLE LAKE POMO TRIBE,           FISCAL YEAR ENDED
                                FISCAL YEAR ENDED                 DECEMBER 3 1, 1994
99-A-836 SANTEE SCHOOL          DECEMBER 31, 1993 (9/10/99)       (9124199)
DISTRICT NO. C-5, FISCAL
YEAR ENDED AUGUST 3 1,          99-A-884 POTTER VALLEY
1998 (8/27/99)                  LITTLE LAKE POMO TRIBE,
                                FISCAL YEAR ENDED
                                DECEMBER 3 1. 1994 (9/l O/99)




           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999        35
99-A-934 JOINT                   99-A-961 NORTH FORK                99-A-604 MILLARD
PROGRAMS                         MONO R4NCHERIA. FISCAL             COUNTY, UTAH, FISCAL
OF THE SHOSHONE AND              YEAR ENDED                         YEAR ENDED
ARAPAHO TRIBES OF THE            SEPTEMBER 30, 1997                 DECElMBER 3 1, 1997
WIND RIVER                       (9i3Oi99)                          (6/l 7i99)
RESERVATION,
FISCAL YEAR ENDED                99-A-965 NORTHERN                  99-A-605 CALHOUN
DECEMBER 3 1, 1995               CHEYENNE TRIBAL                    COUNTY, ILLINOIS. FISCAL
(9124199)                        SCHOOLS, FISCAL YEAR               YEAR ENDED AUGUST 3 1,
                                 ENDED JUNE 30, 1997                1997 (6!17:99)
99-A-935 JOINT                   (9130199) **$42,724
PROGRAMS                                                            99-A-669 ADAMS COUNTY,
OF THE SHOSHONE AND              99-A-966 NATIVE VILLAGE            WASHINGTON, FISCAL
ARAPAHO TRIBES OF THE            OF TYONEK, FISCAL YEAR             YEAR ENDED
WIND RIVER                       ENDED JUNE 30, 1997                DECEMBER 3 1, 1997
RESERVATION,                     (9!30/99)                          (7/16/99)
FISCAL YEAR ENDED
DECEMBER 3 1, 1996               99-A-968 PUEBLO OF SAN             99-A-671 ROOSEVELT
(9124199)                        JUAN BOARD OF                      COUNTY, MONTANA,
                                 EDUCATION, FISCAL YEAR             FISCAL YEAR ENDED
99-A-936 NORTHERN                ENDED JUNE 30, 1998                JUNE 30, 1997 (7116199)
ARAPAHOE TRIBE OF                (9130199)
INDIANS, FISCAL YEAR                                                99-A-676 DAWSON
ENDED DECEMBER 3 1, 1996         99-A-974 ROUND VALLEY              COUNTY, MONTANA,
(9124199)                        INDIAN TRIBES, FISCAL              FISCAL YEAR ENDED
                                 YEAR ENDED                         JUNE 30. 1997 (7116199)
99-A-941 WINGATE HIGH            DECEMBER 31, 1997 (9/30/99)
SCHOOL BOARD OF                                                     99-A-71 1 COWLITZ
EDUCATION, FISCAL YEAR           99-A-975 KETCHIKAN                 COUNTY, WASHINGTON,
ENDED JUNE 30,1996               GATEWAY BOROUGH,                   FISCAL YEAR ENDED
(9/24/99)                        FISCAL YEAR ENDED                  DECEMBER 3 1, 1997
                                 JUNE 30, 1998 (9/30/99)            (7!29/99)
99-A-942 INDEPENDENT
SCHOOL DISTRICT NO. 1,           BUREAU OF LAND                     99-A-744 KING COUNTY,
FISCAL YEAR ENDED                MANAGEMENT                         WASHINGTON, FISCAL
JUNE 30, 1998 (9124199)                                             YEAR ENDED
                                  99-A-589 WASATCH                  DECEMBER 3 1, 1996 (813i99)
99-A-943 TODD COUNTY              COUNTY, UTAH, FISCAL
SCHOOL DISTRICT NO. 66- 1,        YEAR ENDED                        99-A-745 HENDERSON
FISCAL YEAR ENDED                 DECEMBER 31, 1997 (604199)        COUNTY, ILLINOIS, FISCAL
JUNE 30, 1998 (9124199)                                             YEAR ENDED
                                  99-A-593 WEST VIRGINIA,           NOVEMBER 30, 1997 (816199)
99-A-946 SCOT-I’S VALLEY          FISCAL YEAR ENDED
BAND OF POMO INDIANS,             JUNE 30, 1997 (6/15/99)           99-A-746 KITTITAS
FISCAL YEAR ENDED                                                   COUNTY, WASHINGTON,
DECEMBER 3 1, 1997                99-A-594 MORGAN COUNTY            FISCAL YEAR ENDED
(9124199)                         FISCAL COURT, KENTUCKY,           DECEMBER 31,1996
                                  FISCAL YEAR ENDED                 (g/3199)
99-A-947 DIBE YAZHI               JUNE 30, 1997 (6117199)
HABITIIN OLTA, INC.,
FISCAL YEAR ENDED
JUNE 30, 1997 (9124199)




36           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-A-748 JUAB COUNTY,            99-A-970 HENDERSON                99-A-684 WEBER BASIN
UTAH, FISCAL YEAR                COUNTY, ILLINOIS, FISCAL          WATER CONSERVANCY
ENDED DECEMBER 3 1, 1997         YEAR ENDED                        DISTRICT, FISCAL YEAR
(811 li99)                       NOVEMBER 30, 1998 (9/30/99)       ENDED JUNE 30, 1998
                                                                   (7/16!99)
99-A-749 IDAHO STATE             99-A-971 MCCORMICK
UNIVERSITY, FISCAL YEAR          COUNTY, SOUTH                     99-A-752 BURLEIGH
ENDED JUNE 30, 1997              CAROLINA, FISCAL YEAR             WATER USERS
(8/l l/99)                       ENDED JUNE 30, 1998               COOPERATIVE, FISCAL
                                 (9/30/99)                         YEAR ENDED
99-A-750 EL DORADO                                                 DECEMBER 31, 1997
COUNTY, CALIFORNIA,              BUREAU OF                         (8112199)
FISCAL YEAR ENDED                RECLAMATION
JUNE 30, 1997 (8/12/99)                                            99-A-753 METROPOLITAN
                                                                   WATER DISTRICT OF
99-A-761 LINCOLN
                                 99-A-427 WEST                     SOUTHERN CALIFORNIA,
                                 RIVER/LYMAN-JONES                 FISCAL YEAR ENDED
COUNTY, WASHINGTON,
                                 RURAL WATER SYSTEMS,              JUNE 30, 1997 (8/13/99)
FISCAL YEAR ENDED
                                 INC., FISCAL YEAR ENDED
DECEMBER 3 1. 1997
                                 DECEMBER 3 1, 1997                99-A-754 EASTERN
(8/13/99)
                                 (4/16/99)                         MUNICIPAL WATER
99-A-795 BARTLESVILLE                                              DISTRICT, FISCAL YEAR
                                 99-A-501 EASTERN                  ENDED JUNE 30, 1998
SCHOOL DISTRICT NO. I-30,
                                 MUNICIPAL WATER                   (803199)
FISCAL YEAR ENDED
JUNE 30, 1997 (8/20/99)          DISTRICT, FISCAL YEAR
                                 ENDED JUNE 30, 1997               99-A-799 NORTH DAKOTA
                                 (5121199)
99-A-798 MERCER                                                    RURAL WATER SYSTEMS
COUNTY, ILLINOIS, FISCAL                                           ASSOCIATION, FISCAL
                                 99-A-502 AMERICAN
YEAR ENDED                                                         YEAR ENDED
                                 FARMLAND TRUST, FISCAL            DECEMBER 3 1, 1997
NOVEMBER 30, 1997
                                 YEAR ENDED                        (8120199)
(8/20/99)
                                 SEPTEMBER 30, 1997
                                 (5/21/99)                         99-A-812 PHILADELPHIA,
99-A-806 LINCOLN
COUNTY, WASHINGTON,                                                PENNSYLVANIA, FISCAL
                                 99-A-526 SWEETWATER               YEAR ENDED JUNE 30, 1996
FISCAL YEAR ENDED
                                 AUTHORITY, FISCAL YEAR
DECEMBER 3 1, 1996                                                 (8/24/99)
                                 ENDED JUNE 30, 1998 (6/4/99)
(8119199)
                                                                   99-A-846 METROPOLITAN
                                 99-A-584 PHOENIX,                 WATER DISTRICT OF
99-A-838 MADERA
                                 ARIZONA, FISCAL YEAR              SOUTHERN CALIFORNIA,
COUNTY, CALIFORNIA,
FISCAL YEAR ENDED                ENDED JUNE 30. 1997               FISCAL YEAR ENDED
                                 (6/10/99)                         JUNE 30. 1998 (8127199)
JUNE 30, 1997 (8127199)

99-A-939 OKANOGAN                99-A-597 TALENT                   99-A-847 LOWER RIO
COUNTY, WASHINGTON,              IRRIGATION DISTRICT,              GRANDE VALLEY
FISCAL YEAR ENDED                FISCAL YEAR ENDED                 DEVELOPMENT
DECEMBER 31, 1996                SEPTEMBER 30, 1997                COUNCIL, FISCAL YEAR
(9124199)                        (6/17/99)                         ENDED DECEMBER 3 1, 1997
                                                                   (g/27/99)
                                 99-A-675 SAN DIEGO,
                                 CALIFORNIA, FISCAL YEAR
                                 ENDED JUNE 30, 1997
                                 (7/16/99)


            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999          37
99-A-948 GLENN-COLUSA            Guam                              NATIONAL
IRRIGATION DISTRICT,                                               BIOLOGICAL
FISCAL YEAR ENDED                99-A-451 GUAM                     SCIENCE
SEPTEMBER 30, 1998               HUMANITIES COUNCIL,
(9124/99)                        FISCAL YEAR ENDED                 99-A-574 MISSOURI
                                 OCTOBER 3 1, 1996 (4/28/99)       BOTANICAL GARDEN,
I N S U L A R            A R E A S                                 FISCAL YEAR ENDED
                                 99-A-678 UNIVERSITY OF            DECEMBER 31, 1997 (619i99)
                                 GUAM, FISCAL YEAR
Commonwealth of the              ENDED SEPTEMBER 30, 1998
Northern Mariana                 (7116199)                         NATIONAL PARK
Islands                                                            SERVICE
                                 99-A-830 SANCTUARY,
99-A-738                         INCORPORATED, FISCAL              99-A-522 BEXAR COUNTY,
COMMONWEALTH OF THE              YEAR ENDED                        TEXAS, FISCAL YEAR
NORTHERN MARIANA                 SEPTEMBER 30, 1998                ENDED SEPTEMBER 30,
ISLANDS PUBLIC SCHOOL            (8127199)                         1997 (614199)
SYSTEM, FISCAL YEAR
ENDED SEPTEMBER 30,1996          Republic of the Marshall          99-A-527 COOSA VALLEY
(g/9/99) **$234,194                                                REGIONAL DEVELOPMENT
                                 Islands
                                                                   CENTER, FISCAL YEAR
99-A-880                                                           ENDED JUNE 30, 1997
COMMONWEALTH                     99-A-421 COLLEGE OF THE           (614199)
PORTS AUTHORITY,                 MARSHALL ISLANDS,
FISCAL YEAR ENDED                FISCAL YEAR ENDED                 99-A-558 GRAND RAPIDS,
SEPTEMBER 30, 1998               SEPTEMBER 30, 1996                MICHIGAN, FISCAL YEAR
(9110199)                        (404199)                          ENDED JUNE 30, 1997
                                                                   (6/8/99)
Federated States of              Republic of Palau
Micronesia                                                         99-A-580 NEW IBERIA,
                                 99-A-636 PALAU                    LOUISIANA, FISCAL YEAR
                                 COMMUNITY COLLEGE,                ENDED OCTOBER 3 1, 1997
Chuuk                            FISCAL YEAR ENDED                 (6/10/99)
                                 SEPTEMBER 30,1997
99-A-436 CHUUK                   (6128/99)**$47,314                99-A-583 RAILROADERS
ORGANIZATION FOR
                                                                   MEMORIAL MUSEUM, INC.,
COMMUNITY ACTION,                99-A-960 PALAU                    FISCAL YEAR ENDED
FISCAL YEAR ENDED                COMMUNITY ACTION                  DECEMBER 31, 1997
SEPTEMBER 30, 1994               AGENCY, FISCAL YEAR               (6110199)
(4/19/99)                        ENDED SEPTEMBER 30,1997
                                 (9130199)                         99-A-587 STEEL INDUSTRY
99-A-460 CHUUK                                                     HERITAGE CORPORATION,
ORGANIZATION FOR                 U. S. Virgin Islands              FISCAL YEAR ENDED
COMMUNITY ACTION,                                                  DECEMBER 31. 1997
FISCAL YEAR ENDED                99-A-893 VIRGIN ISLANDS           (719199)
SEPTEMBER 30, 1995 (S/4/99)      PORT AUTHORITY, FISCAL
                                 YEAR ENDED                        99-A-591 WASHTENAW
                                 SEPTEMBER 30, 1998                COUNTY, MICHIGAN,
                                 (9110199)                         FISCAL YEAR ENDED
                                                                   DECEMBER 3 1, 1997
                                                                   (6115199)




38          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-A-682 MINNESOTA                99-A-792 LAFAYETTE              OFFICE OF THE
HISTORICAL SOCIETY.               CITY PARISH                     SECRETARY
FISCAL YEAR ENDED                 CONSOLIDATED
JUNE 30, 1998 (7/16/99)           GOVERNMENT, FISCAL
                                  YEAR ENDED OCTOBER              99-A-599 LEHIGH
                                                                  UNIVERSITY, FISCAL YEAR
99-A-712 ANN ARBOR,               31, 1997 (8120199)
                                                                  ENDED JUNE 30, 1997
MICHIGAN, FISCAL YEAR
                                                                  (6i17i99)
ENDED IUNE 30, 1997               99-A-802 UNIVERSITY OF
(7i29i99)                         GEORGIA, FISCAL YEAR
                                                                  99-A-601 WASHINGTON
                                  ENDED JUNE 30, 1997
                                                                  UNIVERSITY, FISCAL YEAR
99-A-751 GREENSBORO,              (8i2Oi99)
                                                                  ENDED JUNE 30, 1997
NORTH CAROLINA, FISCAL
                                                                  (6i17i99)
YEAR ENDED JUNE 30, 1997          99-A-81 1 TACOMA,
(8/12/99)                         WASHINGTON, FISCAL
                                                                  99-A-81 5 OKLAHOMA STATE
                                  YEAR ENDED
                                  DECEMBER 3 1, 1996              UNIVERSITY, FISCAL YEAR
99-A-758 OHIO STATE
                                                                  ENDED JUNE 30, 1997 (g/25/99)
UNIVERSITY, FISCAL YEAR           (8124199)
ENDED JUNE 30, 1998
(8i13i99)                         99-A-820 SPRINGFIELD            99-A-81 7 TEMPE,
                                                                  ARIZONA, FISCAL YEAR
                                  LIBRARY AND MUSEUMS
99-A-760 GRANDVIEW                ASSOCIATION, FISCAL             ENDED JUNE 30, 1997
SCHOOL DISTRICT                   YEAR ENDED JUNE 30.             (8/25/99)
NO. 116/200, FISCAL YEAR          1997 (8i25199)
ENDED AUGUST 3 1, 1997                                            OFFICE OF SURFACE
(8113199)                         99-A-821 ORANGE                 MINING
                                  COUNTY, CALIFORNIA.             RECLAMATION AND
99-A-786 MISSION,                 FISCAL YEAR ENDED
TEXAS, FISCAL YEAR                JUNE 30, 1997 (8125199)
                                                                  ENFORCEMENT
ENDED SEPTEMBER 30,
1997 (8/19/99)                    99-A-840 MARICOPA               99-A-670 SHERIDAN,
                                  COUNTY, ARIZONA,                WYOMING, FISCAL YEAR
99-A-787 MARTIN LUTHER            FISCAL YEAR ENDED               ENDED JUNE 30, 1997
KING, JR., CENTER FOR             JUNE 30, 1998 (g/27/99)         (7/16:99)
NONVIOLENT SOCIAL
CHANGE, INC., FISCAL              99-A-842 NEW MEXICO             99-A-759 UNIVERSITY OF
YEAR ENDED JUNE 30, 1997          OFFICE OF CULTURAL              WYOMING, FISCAL YEAR
(8120199)                         AFFAIRS, FISCAL YEAR            ENDED JUNE 30. 1997
                                  ENDED JUNE 30, 1997             (g/13/99)
99-A-790 STAYTON,                 (B/27/99)
OREGON, FISCAL YEAR                                               99-A-789 PENNSYLVANIA,
ENDED JUNE 30, 1997               99-A-940 COPPER RIVER           FISCAL YEAR ENDED
(8120199)                         NATIVE ASSOCIATION,             JUNE 30, 1997 (8120199)
                                  INC., FISCAL YEAR ENDED
99-A-791 OPELOUSAS,               SEPTEMBER 30, 1997              U.S. BUREAU OF MINES
LOUISIANA, FISCAL YEAR            (9/24/99)
ENDED AUGUST 3 1, 1997
                                                                  99-A-579 NATIONAL
(B/19/99)
                                                                  ACADEMY OF SCIENCES,
                                                                  FISCAL YEAR ENDED
                                                                  JUNE 30, 1997 (6110199)




             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999          39
99-A-595 UNIVERSITY OF            99-A-632 OKLAHOMA,              99-A-814 ST. LUCIE
MINNESOTA, FISCAL YEAR            FISCAL YEAR ENDED               COUNTY, FLORIDA, FISCAL
ENDED JUNE 30, 1997               JUNE 30, 1997 (6124199)         YEAR ENDED
(6117i99)                                                         SEPTEMBER 30, 1997 (g/25/99)
                                  99-A-634 MISSISSIPPI,
U.S. FISH AND                     FISCAL YEAR ENDED               99-A-828 MASSACHUSETTS,
                                  JUNE 30, 1997 (6/24/‘99)        FISCAL YEAR ENDED
WILDLIFE SERVICE
                                                                  JUNE 30, 1997 (g/26/99)
                                  99-A-652 TENNESSEE,
99-A-557 IBERVILLE                FISCAL YEAR ENDED               99-A-829 UNIVERSITY OF
PARISH COUNCIL, FISCAL            JUNE 30, 1997 (7/16/99)         MASSACHUSETTS, FISCAL
YEAR ENDED                                                        YEAR ENDED JUNE 30, 1997
DECEMBER 31, 1997 (614199)        99-A-674 ARCHBOLD               (g/26:99)
                                  EXPEDITIONS, FISCAL
99-A-563 DELAWARE,                YEAR ENDED                      99-A-832 UTAH, FISCAL
FISCAL YEAR ENDED                 DECEMBER 3 1, 1997              YEAR ENDED JUNE 30, 1998
JUNE 30. 1997 (6/8/99)            (7!16/99)                       (g/27/99) **$25,097

99-A-572 LAKE COUNTY,             99-A-747 IDAHO, FISCAL          99-A-945 NEVADA, FISCAL
FLORIDA, FISCAL YEAR              YEAR ENDED JUNE 30,             YEAR ENDED JUNE 30, 1998
ENDED SEPTEMBER 30,               1997 (8/l l/99) **$120,000      (9124199)
1997 (619/99)
                                 99-A-763 ATLANTIC                99-A-949 FLORIDA, FISCAL
99-A-577 NORTHERN                STATES MARINE                    YEAR ENDED JUNE 30, 1998
MICHIGAN UNIVERSITY,             FISHERIES COMMISSION,            (9124199)
FISCAL YEAR ENDED                FISCAL YEAR ENDED
JUNE 30, 1997 (6110199)          JUNE 30, 1997 (8113199)          99-A-963 NEBRASKA,
                                                                  FISCAL YEAR ENDED
99-A-586 SAN DIEGO               99-A-788 NEW JERSEY,             JUNE 30, 1998 (9130199)
ASSOCIATION OF                   FISCAL YEAR ENDED
GOVERNMENTS, FISCAL              JUNE 30, 1997 (8120199)          99-A-964 ATLANTIC
YEAR ENDED JUNE 30, 1997                                          STATES MARINE FISHERIES
(6110199)                        99-A-796 CHEROKEE,               COMMISSION, FISCAL YEAR
                                 IOWA, FISCAL YEAR                ENDED JUNE 30, 1998 (9/30/99)
99-A-592 WISCONSIN,              ENDED JUNE 30, 1997
FISCAL YEAR ENDED                (g/20/99)                        99-A-967 TRUMAN STATE
JUNE 30, 1997 (6/15/99)                                           UNIVERSITY, FISCAL YEAR
                                  99-A-797 LYON COUNTY,           ENDED JUNE 30, 1997 (9/30/99)
99-~-600 UNIVERSITY OF            IOWA, FISCAL YEAR
NEBRASKA, FISCAL YEAR             ENDED JUNE 30, 1997             99-A-969 CHEROKEE,
ENDED JUNE 30, 1997               (8120199)                       IOWA, FISCAL YEAR ENDED
(6/17/99)                                                         JUNE 30, 1998 (9/30/99)
                                 99-A-801 GEORGIA,
99-A-607 RHODE ISLAND            FISCAL YEAR ENDED                U.S. GEOLOGICAL
AND PROVIDENCE                   JUNE 30, 1997 (8/20/99)
PLANTATIONS, FISCAL                                               SURVEY
YEAR ENDED JUNE 30,1998          99-A-805 DUNN COUNTY,
(6/17/99)                                                         99-A-523 CALIFORNIA
                                 WISCONSIN, FISCAL YEAR           STATE UNIVERSITY,
                                 ENDED DECEMBER 3 1,              SACRAMENTO FOUNDATION,
99-A-614 SOUTH                   1996 (g/19/99)
CAROLINA, FISCAL YEAR                                             FISCAL YEAR ENDED
ENDED JUNE 30, 1997                                               JUNE 30, 1997 (6/4/99)
(6/18/99)



40           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-A-562 CENTRAL               INDIRECT COST                    99-P-425 COMANCHE
UNITED STATES                                                   INDIAN TRIBE, FISCAL YEAR
EARTHQUAKE                     PROPOSALS                        ENDED SEPTEMBER 30,1998
CONSORTIUM, FISCAL                                              (4/14/99) *$210,869
YEAR ENDED                     BUREAU OF INDIAN
DECEMBER 3 1, 1997                                              99-P-426 PUEBLO OF
                               AFFAIRS                          SANTO DOMINGO, FISCAL
(618i99)
                                                                YEAR ENDED SEPTEMBER 30,
                               99-P-403 SHINGLE                 1999 (4/14/99)
99-A-633 INSTITUTE OF
                               SPRINGS BAND OF MIWOK
ECOSYSTEM STUDIES, INC.,
                               INDIANS, FISCAL YEAR             99-P-433 BATTLE
FISCAL YEAR ENDED
                               ENDED DECEMBER 3 1,              MOUNTAM BAND COUNCIL
JUNE 30, 1997 (6/24/99)
                               1998 (4/1i99) *$33,844           OF THE TE-MOAK TRIBE OF
99-A-672 WOODS HOLE                                             WESTERN SHOSHONE,
                               99-P-405 SHINGLE                 FISCAL YEAR ENDED
OCEANOGRAPHIC
                               SPRINGS BAND OF MIWOK            SEPTEMBER 30, 1998 (4i16i99)
INSTITUTION, FISCAL
                               INDIANS, FISCAL YEAR             *$13.155
YEAR ENDED
                               ENDED DECEMBER 3 1,
DECEMBER 3 1, 1997
                               1999 (4/l/99) *$617              99-P-434 AROOSTOOK BAND
(7116199)
                                                                OF MICMACS, FISCAL YEAR
                               99-P-406 PAWNEE TRIBE            ENDED DECEMBER 3 1, 1998
99-A-673 ACADEMY OF
                               OF OKLAHOMA, FISCAL              (4/16/99) *$45,350
NATURAL SCIENCES OF
                               YEAR ENDED
PHILADELPHIA, FISCAL
                               DECEMBER 30, 1993                99-P-437 ROCK POINT
YEAR ENDED
                               (417199)                         COMMUNITY SCHOOL,
DECEMBER 3 1, 1997
(7/16/99)                                                       FISCAL YEAR ENDED
                                99-P-407 PAWNEE TRIBE           JUNE 30, 1999 (4119199)
                                OF OKLAHOMA, FISCAL
99-A-714 AMERICAN
                                YEAR ENDED                      99-P-442 SITKA TRIBE OF
MUSEUM OF NATURAL
                                DECEMBER 31, 1994               ALASKA, FISCAL YEAR
HISTORY, FISCAL YEAR
                                (417199)                        ENDED DECEMBER 3 1, 1998
ENDED JUNE 30, 1998
(7129199)                                                       (4120199)
                                99-P-408 PAWNEE TRIBE
                                OF OKLAHOMA, FISCAL             99-P-443 SITKA TRIBE OF
99-A-793 AMERICAN
                                YEAR ENDED                      ALASKA, FISCAL YEAR
MUSEUM OF NATURAL
                                DECEMBER 3 1, 1997              ENDED DECEMBER 3 1, 1997
HISTORY, FISCAL YEAR
                                (417199) ‘$72,353               (4120199) *$122,978
ENDED JUNE 30, 1997
(8120199)
                                99-P-409 PAWNEE TRIBE           99-P-444 COOK INLET
                                OF OKLAHOMA, FISCAL             TRIBAL COUNCIL, INC.,
99-A-944 WASHINGTON
                                YEAR ENDED                      FISCAL YEAR ENDED
UNIVERSITY, FISCAL YEAR
                                DECEMBER 3 1, 1998              SEPTEMBER 30, 1999 (4120199)
ENDED JUNE 30,1998
                                (4/7/99)
(9124199)
                                                                99-P-445 CONFEDERATED
                                99-P-410 PAWNEE TRIBE           TRIBES OF THE CHEHALIS
NON-DEPARTMENT                  OF OKLAHOMA, FISCAL             RESERVATION, FISCAL YEAR
OF THE INTERIOR                 YEAR ENDED                      ENDED DECEMBER 3 1, 1998
                                DECEMBER 31,1999                (4120199)
99-A-719 PUERTO RICO            (417199)
OFFICE OF YOUTH
                                                                99-P-447 DUCKWATER
AFFAIRS, FISCAL YEAR
                                                                SHOSHONE TRIBE, FISCAL
ENDED JUNE 30,1998
                                                                YEAR ENDED DECEMBER 31,
(7129199)
                                                                1998 (4123199) *$43.444



           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999           41
99-P-448 DUCKWATER               99-P-493 NATIVE                 99-P-564 SPOKANE TRIBE
SHOSHONE TRIBE, FISCAL           VILLAGE OF BARROW,              OF INDIANS, FISCAL YEAR
YEAR ENDED                       FISCAL YEAR ENDED               ENDED SEPTEMBER 30,1997
DECEMBER 3 1, 1999               DECEMBER 3 1, 1998              (6/S/99) *$13,131
(4123199)                        (5’12i99) *$7,060
                                                                 99-P-565 SPOKANE TRIBE
99-P-449 DUCKWATER                99-P-494 NATIVE                OF INDIANS, FISCAL YEAR
SHOSHONE TRIBE, FISCAL           VILLAGE OF BARROW,              ENDED SEPTEMBER 30,1998
YEAR ENDED                       FISCAL YEAR ENDED               (618199) *$210,823
DECEMBER 3 1, 1997               DECEMBER 3 1, 1999
(41231’99)                       (5/12/‘99) *$127,835            99-P-566 SPOKANE TRIBE
                                                                 OF INDIANS, FISCAL YEAR
99-P-450 DUCKWATER               99-P-512 ELK VALLEY             ENDED SEPTEMBER 30,1999
SHOSHONE TRIBE, FISCAL           RANCHERIA, FISCAL               (618199)
YEAR ENDED                       YEAR ENDED
DECEMBER 3 1, 1996               DECE.MBER 3 1, 1998             99-P-568 MENTASTA LAKE
(4/23/99) *$10,164               (5125199) *$12,395              VILLAGE TRADITIONAL
                                                                 COUNCIL, FISCAL YEAR
99-P-459 GREAT LAKES             99-P-515 RAMAH NAVAJO           ENDED SEPTEMBER 30,1995
INDIAN FISH AND                  CHAPTER, FISCAL YEAR            (618i99)
WILDLIFE COMMISSION,             ENDED DECEMBER 3 1,
FISCAL YEAR ENDED                1995 (S/26/99)                  99-P-569 MENTASTA LAKE
DECEMBER 31, 1999                                                VILLAGE TRADITIONAL
(4/30/99) *$15,648               99-P-516 RAMAH NAVAJO           COUNCIL, FISCAL YEAR
                                 CHAPTER, FISCAL YEAR            ENDED SEPTEMBER 30, 1996
99-P-482 MAINE INDIAN            ENDED DECEMBER 3 1,             (618i99)
EDUCATION, FISCAL YEAR           1997 (5126199)
ENDED JUNE 30, 1997                                              99-P-570 MENTASTA
(S/7/99)                         99-P-517 RAMAH NAVAJO           TRADITIONAL COUNCIL,
                                 CHAPTER, FISCAL YEAR            FISCAL YEAR ENDED
99-P-485 NATIVE VILLAGE          ENDED DECEMBER 3 1,             SEPTEMBER 30, 1997 (6/S/99)
OF GAMBELL, FISCAL               1998 (5/26!99)
YEAR ENDED                                                       99-P-571 MENTASTA
DECEMBER 31, 1998                99-P-532 WALKER RIVER           TRADITIONAL COUNCIL,
(5/10/99) *%6,470                PAIUTE TRIBE, FISCAL            FISCAL YEAR ENDED
                                 YEAR ENDED                      SEPTEMBER 30, 1998 (618199)
99-P-486 CONFEDERATED            DECEMBER 3 I, 1998
TRIBES OF THE GRAND              (612199)                        99-P-618 PRIBILOF ISLAND
RONDE COMMUNITY OF                                               ALUET COMMUNITY OF
OREGON, FISCAL YEAR              99-P-533 WALKER RIVER           GEORGE ISLAND, FISCAL
ENDED DECEMBER 3 1, 1998         PAIUTE TRIBE, FISCAL            YEAR ENDED SEPTEMBER 30,
(S/10/99) *.$355,535             YEAR ENDED                      1999 (6/18/99) *$23,719
                                 DECEMBER 3 1, 1999
99-P-490 JICARILLA               (612199) *$79,028               99-P-619 RENO-SPARKS
APACHE TRIBE, FISCAL                                             INDIAN COLONY, FISCAL
YEAR ENDED                       99-P-560 KEWEENAW               YEAR ENDED
DECEMBER 31,1998 (S/l l/99)      BAY INDIAN                      DECEMBER 31, 1998 (6/18/99)
*$841,064                        COMMUNITY, FISCAL
                                 YEAR ENDED                      99-P-620 REND-SPARKS
99-P-492 NATIVE VILLAGE          SEPTEMBER 30, 1999              INDIAN COLONY, FISCAL
OF BARROW, FISCAL YEAR           (6/B/99) *$30,5 10              YEAR ENDED
ENDED DECEMBER 3 1,1997                                          DECEMBER 31, 1999 (6/18/99)
(5/12/99)


42          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-P-621 LYTTON BAND              99-P-650 FOND DU LAC            99-P-699 GUIDIVILLE
OF POMO INDIANS, FISCAL           BAND OF LAKE SUPERIOR           INDIAN RANCHERIA, FISCAL
YEAR ENDED                        CHIPPEW INDIANS,                YEAR ENDED JULY 3 1, 1997
DECEMBER 3 1,1998                 FISCAL YEAR ENDED               (712 1199)
(6122i99) *$12,231                SEPTEMBER 30, 1999
                                  (719199) *$60.243               99-P-706 DULL KNIFE
99-P-622 LYTTON BAND                                              MEMORIAL COLLEGE.
OF POMO INDIANS, FISCAL           99-P-651 CONFEDERATED           FISCAL YEAR ENDED
YEAR ENDED                        TRIBES OF THE GRAND             JUNE 30, 1999 (7/27/99)
DECEMBER 3 1, 1999                RONDE COMMUNITY OF
(6/22:99)                         OREGON, FISCAL YEAR             99-P-707 DULL KNIFE
                                  ENDED DECEMBER 3 1,             MEMORIAL COLLEGE,
99-P-624 CONFEDERATED             1999 (7116199) *$10,219         FISCAL YEAR ENDED
TRIBES OF SILETZ                                                  JUNE 30, 1997 (7127199)
INDIANS, FISCAL YEAR              99-P-653
ENDED DECEMBER 31, 1998           STILLAGUAMISH TRIBE             99-P-708 COAST KDIAN
(6/22:99)                         OF INDIANS, FISCAL              COMMUNITY OF THE
                                  YEAR ENDED                      RESIGHJNI RANCHERIA,
99-P-625 CONFEDERATED.            SEPTEMBER 30, 1999              FISCAL YEAR ENDED
TRIBES OF SILETZ                  (711699)                        DECEMBER 3 1, 1998
RESERVATION, FISCAL                                               (7127!99) *$5,155
YEAR ENDED                        99-P-689 ELY SHOSHONE
DECEMBER 3 1, 1999                TRIBE, FISCAL YEAR              99-P-709 RINCON BAND OF
(6/22/99) *$82,418                ENDED DECEMBER 3 1,             LUISENO MISSION JNDIANS,
                                  1998 (7/19/99) *$17,405         FISCAL YEAR ENDED
99-P-631 OMAHA TRIBE OF                                           SEPTEMBER 30, 1999 (7127199)
NEBRASKA FISCAL YEAR              99-P-690 ELY SHOSHONE           *$7,2 14
ENDED SEPTEMBER 30,               TRIBE, FISCAL YEAR
1997 (6124199) *$287,233          ENDED DECEMBER 3 1,             99-P-710 LUMMI INDIAN
                                  1999 (7/19/99) *$42,017         BUSINESS COUNCIL, FISCAL
99-P-645                                                          YEAR ENDED DECEMBER 3 1,
ALABAMA-COUSHATA                  99-P-695 PORT GAMBLE            1998 (7127199)
INDIAN TRIBE, FISCAL              S’KLALLAM TRIBE,
YEAR ENDED                        FISC AL YEAR ENDED              99-P-734 METLAKATLA
DECEMBER 3 1, 1998 (7/8/99)       DECEMBER 3 1,1998               INDIAN COMMUNITY,
                                  (7/20/99)                       FISCAL YEAR ENDED
99-P-646                                                          SEPTEMBER 30, 1999 (814199)
ALABAMA-COUSHATI-‘A               99-P-696 PORT GAMBLE
INDIAN TRIBE, FISCAL              S’KLALLAM TRIBE,                99-P-735 THE NAVAJO
YEAR ENDED                        FISCAL YEAR ENDED               NATION, FISCAL YEAR
DECEMBER 3 1, 1999 (7/8/99)       DECEMBER 3 1, 1999              ENDED SEPTEMBER 30.1997
                                  (7/20/99)                       (g/5/99) *$854,300
99-P-649 LAC COURTE
OREILLES TRIBAL                   99-P-697 LOWER ELWHA            99-P-743 MUCKLESHOOT
GOVERNING BOARD,                  TRIBAL COUNCIL, FISCAL          INDIAN TRIBE, FISCAL YEAR
FISCAL YEAR ENDED                 YEAR ENDED                      ENDED DECEMBER 3 1, 1999
SEPTEMBER 30,1999                 SEPTEMBER 30, 1999              (8/l l/99)
(7/9/99)                          (7120199)
                                                                  99-P-771 SCOTTS VALLEY
                                  99-P-698 GUIDIVILLE             BAND OF POMO INDIANS,
                                  INDIAN RANCHERIA,               FISCAL YEAR ENDED
                                  FISCAL YEAR ENDED               DECEMBER 31,1998
                                  JULY 31, 1998 (7121199)         (g/16/99) *$1,523


             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999          43
99-P-772 BLUE LAKE               99-P-848 TUOLUMNE               99-P-862 AGDAAGUX
RANCHERIA, FISCAL YEAR           BAND OF ME-WUK                  TRIBAL COUNCIL, FISCAL
ENDED DECEMBER 3 1, 1998         INDIANS, FISCAL                 YEAR ENDED SEPTEMBER 30,
(8117199) *$17,361               YEAR ENDED                      1999 (9i2199) *$24,550
                                 SEPTEMBER 30, 1999
99-P-773 BLUE LAKE               (8/27/99)                       99-P-863 HUALAPAI
RANCHERIA, FISCAL YEAR                                           NATION, FISCAL YEAR
ENDED DECEMBER 3 1, 1996         99-P-849 ELEM INDIAN            ENDED DECEMBER 3 1, 1998
(8i17199)                        COLONY, FISCAL YEAR             (9/2/99) *$130,437
                                 ENDED DECEMBER 3 1,
99-P-774 CROW TRIBE OF           1999 (8/‘27/99)                 99-P-864 HUALAPAI
INDIANS, FISCAL YEAR                                             NATION, FISCAL YEAR
ENDED SEPTEMBER 30,              99-P-851 ELEM INDIAN            ENDED DECEMBER 3 1,1999
1996 (8117199)                   COLONY, FISCAL YEAR             (912199)
                                 ENDED DECEMBER 3 1,
99-P-775 CROW TRIBE OF           2000 (8/27/99)                  99-P-866 SWINOMISH
INDIANS, FISCAL YEAR                                             INDIAN TRIBAL
ENDED SEPTEMBER 30.              99-P-852 KLAMATH                COMMUNITY, FISCAL YEAR
1997 (g/17/99)                   TRIBAL HEALTH AND               ENDED DECEMBER 3 1, 1998
                                 FAMILY SERVICES,                (9/3/99) *$12,786
99-P-776 CROW TRIBE OF           FISCAL YEAR ENDED
INDIANS, FISCAL YEAR             DECEMBER 3 1, 1997              99-P-867 SWINOMISH
ENDED SEPTEMBER 30,              (g/27/99) *$120,823             INDIAN TRIBAL
1998 (8117199) *$253,237                                         COMMUNITY, FISCAL YEAR
                                 99-P-853 KLAMATH                ENDED DECEMBER 3 1, 1999
99-P-777 CROW TRIBAL             TRIBAL IIEALTH AND              (913199) *$2,939
COUNCIL, FISCAL YEAR             FAMILY SERVICES,
ENDED SEPTEMBER 30,              FISCAL YEAR ENDED               99-P-871 MENOMINEE
1999 (S/17/99) *$453,079         DECEMBER 3 1, 1998              INDIAN TRIBE OF
                                 (8127i99) *$191,803             WISCONSIN, FISCAL YEAR
99-P-781 LAC DU                                                  ENDED SEPTEMBER 30,1999
FLAMBEAU TRIBAL                  99-P-855 FOREST                 (9/7/99)
GOVERNMENT, FISCAL               COUNTY POTAWATOMI
YEAR ENDED                       COMMUNITY, FISCAL               99-P-896 YERINGTON
SEPTEMBER 30, 1999               YEAR ENDED                      PAIUTE TRIBE, FISCAL YEAR
(8/l 8199)                       SEPTEMBER 30, 1999              ENDED DECEMBER 3 1, 1998
                                 (g/27/99) *$15,750              (903199)
99-P-800 LUMMI INDIAN
BUSINESS COUNCIL,                99-P-860 LAC VIEUX              99-P-897 YERINGTON
FISCAL YEAR ENDED                BAND OF LAKE SUPERIOR           PAIUTE TRIBE, FISCAL YEAR
DECEMBER 3 1, 1999               CHIPPEWA TRIBAL                                    1,
(8119199) *$284                  GOVERNMENT, FISCAL              (9/13:99)
                                 YEAR ENDED
99-P-807 COEUR D’ALENE           DECEMBER 3 1, 1998
TRIBE, FISCAL YEAR               (911i99)
ENDED SEPTEMBER 30,                                              30,1999
1998 (g/20/99) *!§211,649        99-P-861 AGDAAGUX               (9/l5199)
                                 TRIBAL COUNCIL, FISCAL
                                 YEAR ENDED                      99-P-900 PINOLEVILLE
                                 SEPTEMBER 30, 1998              INDIAN RESERVATION,
                                 (9/2199)                        FISCAL YEAR ENDED
                                                                 DECEMBER 31, 1999
                                                                 (9/l S/99)


44          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-P-901 SALK-SUIATTLE         99-P-926 SUSANVILLE              99-P-978 ALL INDIAN
INDIAN TRIBE, FISCAL           INDIAN RANCHERIA,                PUEBLO COUNCIL, FISCAL
YEAR ENDED                     FISCAL YEAR ENDED                YEAR ENDED JUNE 30, 1997
DECEMBER 3 1, 1998             DECEMBER 31, 1998                (9130199)
(9115199)                      (912 l/99)
                                                                99-P-979 PECHANGA BAND
99-P-902 SAUK-SUIATTLE         99-P-927 SUSANVILLE              OF LUISENO MISSION
INDIAN TRIBE, FISCAL           INDIAN RANCHERIA,                INDIANS, FISCAL YEAR
YEAR ENDED                     FISCAL YEAR ENDED                ENDED SEPTEMBER 30,1998
DECEMBER 3 1, 1999             DECEMBER 3 1, 1999               (9130199)
(9i15199)                      (9121199) *$135,485
                                                                99-P-980 PECHANGA BAND
99-P-903 KALISPEL TRIBE        99-P-928 CHISTOCHINA             OF LUISENO MISSION
OF INDIANS, FISCAL YEAR        VILLAGE COUNCIL,                 INDIANS, FISCAL YEAR
ENDED SEPTEMBER 30,            FISCAL YEAR ENDED                ENDED SEPTEMBER 30, 1999
1999 (9/15/99) *s1,745         DECEMBER 3 1, 1996               (9i30/99)
                               (9/‘22/99)
99-P-908 SAN PASCUAL                                            BUREAU OF
BAND OF MISSION                99-P-929 CHISTOCHINA             RECLAMATION
INDIANS, FISCAL YEAR           VILLAGE COUNCIL,
ENDED DECEMBER 3 1, 1998       FISCAL YEAR ENDED                99-P-878 NORTH DAKOTA
(9i16199)                      DECEMBER 3 1, 1997               WATER COMMISSION,
                               (9i22199)                        FISCAL YEAR ENDED
99-P-909                                                        JUNE 30, 2000 (9/9!99)
TORRES-MARTINEZ                99-P-930 CHISTOCHINA
DESERT CAHUILLA                VILLAGE COUNCIL,
                               FISCAL YEAR ENDED
                                                                INSULAR AREAS
INDIANS, FISCAL YEAR
ENDED SEPTEMBER 30,            DECEMBER 3 1, 1998
1999 (9/16/99)                 (9/22/99)                        Commonwealth of the
                                                                Northern Mariana Islands
99-P-915 SAN PASQUAL           99-P-931 CHISTOCHINA
BAND OF DIEGUENO               VILLAGE COUNCIL,                 99-P-641 COMMONWEALTH
MISSION INDIANS OF             FISCAL YEAR ENDED                OF THE NORTHERN
CALIFORNIA, FISCAL YEAR        DECEMBER 3 1, 1999               MARIANA ISLANDS PUBLIC
ENDED DECEMBER 3 1, 1999       (9/22/99)                        SCHOOL SYSTEM, INDIRECT
(9116199)                                                       COST PROPOSAL, FISCAL
                               99-P-932 NORTHWEST               YEAR ENDED
99-P-91 8 POARCH BAND          INDIAN COLLEGE, FISCAL           SEPTEMBER 30,200O (7/2/99)
OF CREEK INDIANS,              YEAR ENDED JUNE 30,              *$57,740
FISCAL YEAR ENDED              1998 (9/23:99)
DECEMBER 3 1, 1999                                              Guam
(912 1199)                     99-P-976 ALL INDIAN
                               PUEBLO COUNCIL, FISCAL           99-P-630 GOVERNMENT OF
99-P-920 TUOLUMNE              YEAR ENDED JUNE 30,              GUAM, CENTRAL SERVICE
BAND OF ME-WUK                 1995 (9/30/99)                   COST ALLOCATION PLAN
INDIANS, FISCAL YEAR                                            AND INDIRECT COST
ENDED DECEMBER 3 1, 1999       99-P-977 ALL INDIAN              PROPOSAL, FISCAL YEAR
(9/21/99)                      PUEBLO COUNCIL, FISCAL           ENDED SEPTEMBER 30,200O
                               YEAR ENDED JUNE 30,              (6124199)
                               1996 (9130199)




           Semiannual Report to the Congress: April 1, 1999 - September 30, 1999           45
99-P-879 UNIVERSITY OF          99-P-488 ALASKA                 99-P-692 CALIFORNIA
GUAM, INDIRECT COST             DEPARTMENT OF                   DEPARTMENT OF WATER
PROPOSAL, FISCAL YEAR           FISH AND GAME, FISCAL           RESOURCES, FISCAL YEAR
ENDED SEPTEMBER 30,             YEAR ENDED JUNE 30,             ENDED JUNE 30, 1999 (7119199)
2000 (9/10/99)                  1999 (5/10/99)
                                                                99-P-693 ALASKA
U.S. Virgin Islands             99-P-489 ALASKA                 DEPARTMENT OF NATURAL
                                DEPARTMENT OF FISH              RESOURCES, FISCAL YEAR
99-P-718 ISLAND                 AND GAME, FISCAL YEAR           ENDED JUNE 30, 1999 (7/20199)
RESOURCES FOUNDATION,           ENDED ILNE 30.2000
FISCAL YEAR ENDED               (5:lOi99)                       99-P-694 ALASKA
JUNE 30,200O (7129199)                                          DEPARTMENT OF NATURAL
                                99-P-534 IDAHO                  RESOURCES, FISCAL YEAR
MINERALS                        DEPARTMENT OF PARKS             ENDED JUNE 30, 2000 (7/20/99)
                                AND RECREATION,
MANAGEMENT                      FISCAL YEAR ENDED               99-P-704 OREGON
SERVICE                         JUNE 30, 1999 (6123199)         DEPARTMENT OF FISH AND
                                                                WILDLIFE, FISCAL YEAR
99-P-810 COLORADO               99-P-535 IDAHO                  ENDED JUNE 30, 1999 (7126199)
DEPARTMENT OF                   DEPARTMENT OF WATER
REVENUE, FISCAL YEAR            RESOURCES, FISCAL               99-P-705 OREGON
ENDED JUNE 30, 1999             YEAR ENDED JUNE 30,             DEPARTMENT OF FISH AND
(S/24/99)                       2000 (6/2/99)                   WILDLIFE, FISCAL YEAR
                                                                ENDED JUNE 30,200O (7126199)
MULTI-OFFICE                    99-P-536 IDAHO                  *241,277
                                DEPARTMENT OF WATER
99-P-440 WASHINGTON             RESOURCES, FISCAL               99-P-716 IDAHO
DEPARTMENT OF FISH              YEAR ENDED JUNE 30,             DEPARTMENT OF FISH AND
AND WILDLIFE, FISCAL            1999 (612199)                   GAME, FISCAL YEAR ENDED
YEAR ENDED JUNE 30, 1998                                        JUNE 30, 1999 (7128199)
(4/20/99)                       99-P-567 SONORAN
                                INSTITUTE, FISCAL YEAR          99-P-717 IDAHO
99-P-441 WASHINGTON             ENDED JUNE 30,200O              DEPARTMENT OF FISH AND
DEPARTMENT OF FISH              (6/8/99)                        GAME, FISCAL YEAR ENDED
AND WILDLIFE, FISCAL                                            JULY 30, 2000 (7/28/99)
YEAR ENDED JUNE 30, 1999        99-P-623 IDAHO STATE
(4/20/99)                       HISTORICAL SOCIETY,             99-P-732 CALIFORNIA
                                FISCAL YEAR ENDED               DEPARTMENT OF FISH AND
99-P-446 NEVADA                 JUNE 30, 1999 (6122199)         GAME, FISCAL YEAR ENDED
DEPARTMENT OF                                                   JUNE 30, 1999 (g/4/99)
CONSERVATION AND                99-P-629 IDAHO
NATURAL RESOURCES,              DEPARTMENT OF PARKS             99-P-733 CALIFORNIA
DIVISION OF                     AND RECREATION,                 DEPARTMENT OF FISH AND
ENVIRONMENTAL                   FISCAL YEAR ENDED               GAME, FISCAL YEAR ENDED
PROTECTION, FISCAL              JUNE 30, 2000 (6/23/99)         JUNE 30,200O (g/4/99) *$36,679
YEAR ENDED JUNE 30, 1999
(4120199)                       99-P-691 CALIFORNIA             99-P-739 UTAH
                                DEPARTMENT OF WATER             DEPARTMENT OF NATURAL
99-P-487 ARIZONA GAME           RESOURCES, FISCAL               RESOURCES, DIVISION OF
AND FISH DEPARTMENT,            YEAR ENDED JUNE 30,             WILDLIFE, FISCAL YEAR
FISCAL YEAR ENDED               1998 (709199)                   ENDED JUNE 30, 1999 (8/9/99)
JUNE 30, 1999 (5/10/99)




46         Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-P-740 UTAH                    99-P-865 CALIFORNIA              99-P-913 UTAH
DEPARTMENT OF                    DEPARTMENT OF WATER              DEPARTMENT OF
NATURAL RESOURCES,               RESOURCES, FISCAL                COMMUNITY AND
DIVISION OF WILDLIFE             YEAR ENDED JUNE 30.              ECONOMIC DEVELOPMENT,
RESOURCES, FISCAL YEAR           2000 (913199)                    DIVISION OF STATE
ENDED JUNE 30,200O                                                HISTORY, FISCAL YEAR
(819199)                         99-P-868 OREGON                  ENDED JUNE 30, 1999 (g/16/99)
                                 DEPARTMENT OF
 99-P-741 UTAH                   GEOLOGY AND MINERAL              99-P-914 UTAH
DEPARTMENT OF                    INDUSTRIES, FISCAL               DEPARTMENT OF
NATURAL RESOURCES,               YEAR ENDED JUNE 30.              COMMUNITY AND
DIVISION OF OIL, GAS AND         1999 (913i99) *$4,960            ECONOMIC DEVELOPMENT,
MINING, FISCAL YEAR                                               DIVISION OF STATE
ENDED JUNE 30,200O               99-P-869 OREGON                  HISTORY, FISCAL YEAR
(8/l 1199)                       DEPARTMENT OF                    ENDED JUNE 30,200O (9116199)
                                 GEOLOGY AND MINERAL
99-P-742 UTAH                    INDUSTRIES, FISCAL               99-P-951 MONTANA STATE
DEPARTMENT OF                    YEAR ENDED JUNE 30,              HISTORICAL SOCIETY,
NATURAL RESOURCES                2000 (913199) *$9,5 10           FISCAL YEAR ENDED
GEOLOGICAL SURVEY,                                                JUNE 30, 2000 (9128199)
FISCAL YEAR ENDED                99-P-870 HAWAII
JUNE 30,200O (8/l 1199)          DEPARTMENT OF LAND               N A T I O N A L PARK
                                 AND NATURAL                      SERVICE
99-P-779 WASHINGTON              RESOURCES, FISCAL
DEPARTMENT OF                    YEAR ENDED                       99-P-439 NATIONAL TRUST
ECOLOGY, FISCAL YEAR             JUNE 30,200O (g/3/99)            FOR HISTORIC
ENDED JUNE 30,200O                                                PRESERVATION IN THE
(8/18/99)                        99-P-895 MONTANA                 UNITED STATES, FISCAL
                                 DEPARTMENT OF                    YEAR ENDED SEPTEMBER 30,
99-P-809 NEVADA                  NATURAL RESOURCES                2000 (4/19/99)
DEPARTMENT OF                    AND CONSERVATION,
CONSERVATION AND                 FISCAL YEAR ENDED                99-P-456 STATE
RESOURCES, DIVISION OF           JUNE 30, 2000 (9113199)          HISTORICAL SOCIETY OF
ENVIRONMENTAL                    *$166,627                        WISCONSIN, FISCAL YEAR
PROTECTION, FISCAL                                                ENDED JUNE 30, 1999 (4130199)
YEAR ENDED JUNE 30,200O          9 9 - P - 9 1 0 ANDERSON-
(8/23/99)                        COTTONWOOD                       99-P-457 WISCONSIN
                                 IRRIGATION DISTRICT,             DEPARTMENT OF NATURAL
99-P-854 WASHINGTON              FISCAL YEAR ENDED                RESOURCES, FISCAL YEAR
DEPARTMENT OF FISH               DECEMBER 31, 1999                ESDED JUNE 30, 1999 (4130199)
AND WILDLIFE, FISCAL             (9/16/99)                        *$52,700
YEAR ENDED JUNE 30,2000
(8/27/99) *681,517               99-P-91 1 IDAHO                  99-P-496 MISSOURI
                                 HISTORICAL SOCIETY,              DEPARTMENT OF NATURAL
99-P-856 ARIZONA GAME            FISCAL YEAR ENDED                RESOURCES, FISCAL YEAR
AND FISH DEPARTMENT,             JUNE 30, 2000 (g/16/99)          ENDED JUNE 30, 1999 (5/ 19199)
FISCAL YEAR ENDED
JUNE 30, 2000 (8129199)           99-P-912 IDAHO STATE            99-P-513 PENNSYLVANIA
*fi3,009                          HISTORICAL SOCIETY,             HISTORICAL AND MUSEUM
                                  FISCAL YEAR ENDED               COMMISSION, FISCAL YEAR
                                  JUNE 30, 2001 (9/16/‘99)        ENDED JUNE 30,200O (5126199)




             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999            47
99-P-608 VIRGINIA                 99-P-822 NEW MEXICO              U.S. FISH AND
DEPARTMENT OF                     DEPARTMENT OF                    WILDLIFE SERVICE
HISTORIC RESOURCES,               ENERGY, MINERALS AND
FISCAL YEAR ENDED                 NATURAL RESOURCES,               99-P-423 SOUTH DAKOTA
JUNE 30, 1999 (6/17/‘99)          FISCAL YEAR ENDED                DEPARTMENT OF GAME,
                                  mE 30,200O (8125’99)             FISH AND PARKS, FISCAL
99-P-609 SOUTH                                                     YEAR ENDED JUNE 30, 1999
CAROLINA DEPARTMENT               99-P-857 ARKANSAS                (4i14199)
OF ARCHIVES AND                   DEPARTMENT OF PARKS
HISTORY, FISCAL YEAR              AND TOURISM, FISCAL              99-P-424 SOUTH DAKOTA
ENDED JUNE 30,200O                YEAR ENDED                       DEPARTMENT OF GAME AND
(6/17/99)                         JUNE 30, 2000 (813 l/99)         FISH, FISCAL YEAR ENDED
                                                                   JUNE 30, 2000 (4114199)
99-P-724 MINNESOTA                99-P-955 MINNESOTA
DEPARTMENT OF                     HISTORICAL SOCIETY,              99-P-435 ATLANTIC STATES
NATURAL RESOURCES,                FISCAL YEAR ENDED                MARINE FISHERIES
FISCAL YEAR ENDED                 JUNE 30,200O (9128199)           COMMISSION, FISCAL YEAR
JUNE 30, 1999 (813199)                                             ENDED JUNE 30, 1999 (4116199)
                                  OFFICE OF SURFACE                *s331.799
99-P-725 MINNESOTA                MINING
DEPARTMENT OF                                                      99-P-458 PENNSYLVANIA
                                  RECLAMATION AND
NATURAL RESOURCES,                                                 GAME COMMISSION, FISCAL
FISCAL YEAR ENDED                 ENFORCEMENT
                                                                   YEAR ENDED JUNE 30, 1998
JUNE 30, 2000 (g/4/99)                                             (4130199)
                                  99-P-585 VIRGINIA
99-P-737 WISCONSIN                DEPARTMENT OF                    99-P-497 PENNSYLVANIA
DEPARTMENT OF                     CONSERVATION AND                 FISH AND BOAT
NATURAL RESOURCES,                RECREATION (6/10/99)             COMMISSION, FISCAL YEAR
FISCAL YEAR ENDED                                                  ENDED JUNE 30, 2000 (5/ 19!99)
JUNE 30, 2000 (8/5/99)            99-P-635 VIRGINIA
                                  DEPARTMENT OF MINES,             99-P-498 NEW HAMPSHIRE
99-P-780 MISSOURI                 MLNERALS AND ENERGY,             FISH AND GAME
DEPARTMENT OF                     FISCAL YEAR ENDED                DEPARTMENT,
NATURAL RESOURCES                 JUNE 30, 2000 (6125199)          FISCAL YEAR ENDED
FISCAL YEAR ENDED                                                  JUNE 30, 1999 (5/19/99)
JUNE 30,200O (g/18/99)            99-P-859 TEXAS
                                  RAILROAD COMMISSION,             99-P-500 ILLINOIS
99-P-783 KANSAS                   FISCAL YEAR ENDED                DEPARTMENT OF NATURAL
HISTORICAL SOCIETY                AUGUST 31, 1999 (8/31/99)        RESOURCES, FISCAL YEAR
FISCAL YEAR ENDED                                                  ENDED JUNE 30, 1999 (5120199)
JUNE 30, 2000 (g/19/99)           99-P-894 WEST VIRGINIA
                                  DIVISION OF                      99-P-514 INDIANA
99-P-813 IOWA                     ENVIRONMENTAL                    DEPARTMENT OF NATURAL
DEPARTMENT OF                     PROTECTION, FISCAL               RESOURCES, FISCAL YEAR
NATURAL RESOURCES,                YEAR ENDED JUNE 30,              ENDED JUNE 30, 1999 (5/26199)
FISCAL YEAR ENDED                 2000 (9/l 0199)
JUNE 30,200O (816199)




48            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
99-P-520 OHIO                     99-P-850 NEW                    99-P-899 SOUTH CAROLINA
DEPARTMENT OF                     HAAMPSHIRE                      DEPARTMENT OF NATURAL
NATURAL RESOURCES,                DEPARTMENT OF FISH              RESOURCES, FISCAL YEAR
FISCAL YEAR ENDED                 AND GAME, FISCAL YE.4R          ENDED JUNE 30, 2000 (S/15/99)
JUNE 30, 1999 (5!27/‘99)          ENDED JUNE 30,200O
                                  (8130199)                       99-P-962 AMERICAN
99-P-581 MICHIGAN                                                 FISHERIES SOCIETY, FISCAL
DEPARTMENT OF                     99-P-858 MISSOURI               YEAR ENDED DECEMBER 3 1,
NATURAL RESOURCES,                DEPARTMENT OF                   1999 (9130199)
FISCAL YEAR ENDED                 CONSERVATION. FISCAL
SEPTEMBER 30,1999                 YEAR ENDED                      99-P-972 OKLAHOMA,
(6/10/99)                         SEPTEMBER 30,200O               DEPARTMENT OF WILDLIFE
                                  (8131199)                       CONSERVATION, FISCAL
99-P-582 FLORIDA GAME                                             YEAR ENDED JUNE 30,200O
.4ND FRESH WATER FISH             99-P-872 ARKANSAS               (9/30/99)
COMMISSION, FISCAL                GAME AND FISH
YEAR ENDED JUNE 30, 1998          COMMISSION, FISCAL              U.S. GEOLOGICAL
(6ilOi99)                         YEAR ENDED JUNE 30,             SURVEY
                                  2000 (9i7199)
99-P-647 KENTUCKY
DEPARTMENT OF FISH                99-P-875 PENNSYLVANIA           99-P-784 WYOMING
                                  GAME COMMISSION,                GEOLOGICAL SURVEY,
AND WILDLIFE
                                  FISCAL YEAR ENDED               FISCAL YEAR ENDED
RESOURCES, FISCAL YEAR
                                                                  JUNE 30, 2000 (8119199)
ENDED JUNE 30, 1999               JUNE 30, 1999 (919199)
(718i99)
                                                                  99-P-954 KANSAS WATER
                                  99-P-876 KANSAS
                                                                  OFFICE, FISCAL YEAR
99-P-702 NORTH DAKOTA             DEPARTMENT OF
                                  WILDLIFE AND PARKS,             ENDED JUNE 30, 1998 (8124199)
DEPARTMENT OF GAME
AND FISH, FISCAL YEAR             FISCAL YEAR ENDED
ENDED JUNE 30, 1999               JUNE 30, 2000 (g/9/99)
(7/24/99)
                                  99-P-877 OHIO
99-P-703 NORTH DAKOTA             DEPARTMENT OF
DEPARTMENT OF GAME                NATURAL RESOURCES,
AND FISH, FISCAL YEAR             FISCAL YEAR ENDED
ENDED JUNE 30,200O                JUNE 30, 2000 (9/S/99)
(7125199)
                                  99-P-883 MISSISSIPPI
99-P-730 NEW MEXICO               DEPARTMENT OF
DEPARTMENT OF GAME                ENVIRONMENTAL
AND FISH, FISCAL YEAR             QUALITY, FISCAL YEAR
ENDED JUNE 30, 1999               ENDED JUNE 30,200O
(g/3/99)                          (9/l 3199)

99-P-73 1 NEW MEXICO              99-P-891 WEST VIRGINIA
DEPARTMENT OF GAME                DIVISION OF NATURAL
AND FISH, FISCAL YEAR             RESOURCES, FISCAL
ENDED JUNE 30,200O                YEAR ENDED JUNE 30,
(814199)                          2000 (9/10/99)




             Semiannual Report to the Congress: April 1, 1999 - September 30, 1999          49
                                         APPENDIX 3

            MONETARY IMPACT OF AUDIT ACTIVITIES FROM



       ACTIVITY*
                                                                    REVENUES***




     Mariana Islands




        h and Wildlife



   * Costs for audits performed by the Defense Contract Audit Agency are not included.
  ** Includes monetary impact of indirect cost proposals negotiated.
 *** Represents lost or potential additional revenues.
:*** Includes monetary impact of non-Federal funds (see Appendix 4).




50          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
                                        APPENDIX 4

                  NON-FEDERAL FUNDING INCLUDED IN
                 MONETARY IMPACT OF AUDIT ACTIVITIES
                  DURING THE 6-MONTH PERIOD ENDED .
                          SEPTEMBER 30,1999


No. 99-1-921 - “Child Support Enforcement Program, Division of Paternity and Child Support,
Department of Justice, Government of the Virgin Islands,” dated September 1999. Of the $182,535
reported as monetary impact, $78,884 represents insular area funds and $103,65 1 represents Federal
funds.

No. 99-I-957 - “Medicaid Program Grants, Department of Health, Government of the Virgin
Islands,” dated September 1999. Of the $85,3 12 reported as monetary impact. $42,656 represents
insular area funds and $42,656 represents Federal funds.




            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999               51
                                                      APPENDIX 5
                                                          Table I

                          INSPECTOR GENERAL AUDIT REPORTS
                               WITH QUESTIONED COSTS

                                                                                                       Unsupported
                                       No. of Reports*               Questioned Costs                    costs**
 A. For which no
 management decision had
 been made by the
 commencement of the
 reporting period                                71                     $198,905,282                     $1,160,199
 B. Which were issued
 during the reporting
 period                                        3 4                           7.369.394                    3.020.477
     Total (A+B)                               105                      $206.274,676                     $4,180,676
 C. For which a
 management decision
 was made during the
 reporting period                                29                       $11,302,918                      $492,307
     (i) dollar value of
         disallowed costs                        24                        $1,782,689                      $492,307
     (ii) dollar value of
          costs not
          disallowed                             12                        $3,520,229                               0
 D. For which no
 management decision had
 been made by the end of
 the reporting period                            76                     $194,971,758                    $3,688,369
 E. For which no
 management decision
 was made within 6
 months of issuance                              56                     $191,600,652                    $1,160,199
 * Report totals cannot be reconciled because some reports have dollar amounts in both the allowed and disallowed categories.
 ** Unsupported costs are included in questioned costs.




52              Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
                                                   APPENDIX 5
                                                          Table II

           INSPECTOR GENERAL AUDIT REPORTS WITH
      RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                           No. of Reports*              Dollar Value**
A. For which no management decision had been made by
the commencement of the reporting period                                            37                  $298,787,948
B. Which were issued during the reporting period                                    67                     13,952,235***
   Total (A+B)                                                                     104
                                                                                   -                    $312,740,183
C. For which a management decision was made during the
reporting period                                                                    71                    $18649,283
   (i) dollar value of recommendations that were agreed
       to by management                                                             69                   $11,598,512***
   (ii) dollar value of recommendations that were not
        agreed to by management                                                      2                    $7,050,771
D. For which no management decision had been made by
the end of the reporting period                                                     33                 $294,102,743
E. For which no management decision was made within
6 months of issuance                                                                28                 $290,011,340
* Report totals cannot be reconciled because some reports have dollar amounts in both the agreed and disagreed categories.
** Amounts include preaward audits.
*** Amounts include indirect cost proposals negotiated.




               Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                                         53
                                            APPENDIX 5
                                               Table III

          INSPECTOR GENERAL AUDIT REPORTS WITH LOST OR
                 POTENTIAL ADDITIONAL REVENUES


                                                           No. of Reports      Dollar Value
 A. For which no management decision had been made
 by the commencement of the reporting period                     16              $88,901,484

 B. Which were issued during the reporting period               4                 26,955,118

     Total (A+B)                                                2               $115,856.602

 C. For which a management decision was made during
 the reporting period                                             6             $25,090,452

     (i) dollar value of recommendations that were
      agreed to by management                                     6             $24864,452

     (ii) dollar value of recommendations that were not
      agreed to by management                                     1                   $226,000

 D. For which no management decision had been made
 by the end of the reporting period                              14             $90,766,150

 E. For which no management decision was made within
 6 months of issuance                                            11             $67,3 11,032




54            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
                                                        APPENDIX 6

           SUMMARY OF AUDIT REPORTS OVER 6 MONTHS OLD
                PENDING MANAGEMENT DECISIONS

     This listing includes a summary of internal, contract (except preawards), grant. and single audit reports that were over 6 months
     old on September 30, 1999, and still pending a management decision. It provides report number. title, issue date, number of
     unresolved recommendations. and unresolved amount of monetary benefits identified in the audit report.



INTERNAL AUDITS                                 Commonwealth of the                                   Guam
                                                Northern Mariana
                                                Islands                                               92-I-597 SELECTION,
BUREAU OF LAND                                                                                        PROCUREMENT, AND
MANAGEMENT                                                                                            ADMINISTRATION OF
                                                94-I-936 FOLLOWUP
                                                OF RECOMMENDATIONS                                    WATER DISTRIBUTION
98-I-689 FOLLOWUP OF                            CONCERNJNG THE                                        PROJECTS, PUBLIC UTILITY
NEVADA LAND EXCHANGE                                                                                  AGENCY OF GUAM,
                                                ECONOMIC DEVELOPMENT
ACTIVITIES, BUREAU OF                           LOAN FUND,                                            GOVERNMENT OF GUAM
LAND MANAGEMENT                                 COMMONWEALTH                                          (3120192)
(9/30/98)                                       DEVELOPMENT                                           2 RECOMMENDATIONS
2 RECOMMENDATIONS                               AUTHORITY (7/ 18/94)                                  UNRESOLVED
UNRESOLVED                                      2 RECOMMENDATIONS
                                                UNRESOLVED                                            93-I-706 SELECTED
BUREAU OF                                                                                             SPECIAL REVENUE FUNDS,
                                                                                                      GOVERNMENT OF GUAM
RECLAMATION                                     96-I-596 MANAGEMENT OF
                                                PUBLIC LAND,                                          (3/15/93)
                                                COMMONWEALTH OF THE                                   7 RECOMMENDATIONS
98-I-250 FOLLOWUP OF
                                                NORTHERN MARIANA                                      AND S39,330,411
RECOVERY OF IRRIGATION                                                                                UNRESOLVED
JNVESTMENT COSTS,                               ISLANDS (3/20/96)
BUREAU OF RECLAMATION                           6 RECOMMENDATIONS
                                                AND $145,877,257                                     93-I-1195 IMPACT OF THE
(2/13/98)                                                                                            COMPACT OF FREE
3 RECOMMENDATIONS                               UNRESOLVED
                                                                                                     ASSOCIATION ON THE
UNRESOLVED                                                                                           GOVERNMENT OF GUAM
                                                99-I-147 MANAGEMENT OF
                                                FEDERAL GRANTS, PUBLIC                               (6128193)
INSULAR AREAS                                                                                        1 RECOMMENDATJON AND
                                                SCHOOL SYSTEM,
                                                COMMONWEALTH OF THE                                  $15,9 11,978 UNRESOLVED
American Samoa                                  NORTHERN MARIANA
                                                ISLANDS (12/l 5198)                                  94-I-106 REVIEW OF
93-I-1600 REVIEW OF                             1 RECOMMENDATION AND                                 GUAM’S
GRANT ADMINISTRATION,                           $738,597 UNRESOLVED                                  GOVERNMENTWIDE
DEPARTMENT OF                                                                                        TRAVEL PRACTICES
EDUCATION, AMERICAN                                                                                  (1 l/26/93)
SAMOA GOVERNMENT                                                                                     14 RECOMMENDATIONS
(9130193)                                                                                            AND $1,689,650
2 RECOMMENDATIONS                                                                                    UNRESOLVED
AND $306,637 UNRESOLVED




              Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                                                      55
97-1-591 GUAM                   99-I-255 FEDERAL GRANT            93-I-670 PERSONNEL,
LEGISLATURE,                    PROGRAM TRAVEL                    PROPERTY MANAGEMENT.
GOVERNMENT OF GUAM              ACTIVITIES, DEPARTMENT            AND PROCUREMENT
(3124197)                       OF EDUCATION,                     PRACTICES, BUREAU OF
5 RECOMMENDATIONS               GOVERNMENT OF GUAM                CORRECTIONS,
AND $1,004,084                  (2!25/99)                         GOVERNMENT OF THE
UNRESOLVED                      7 RECOMMENDATIONS                 VIRGIN ISLANDS (3il li93)
                                AND $47,879 UNRESOLVED            14 RECOMMENDATIONS
97-I-1051 FOLLOWUP OF                                             AND $265,823
RECOMMENDATIONS                 Republic of the Marshall          UNRESOLVED
CONCERNING PERSONNEL            Islands
AND PAYROLL PRACTICES,                                            95-I-1258 SCHOOL LUNCH
LEGISLATIVE BRANCH,             94-I-21 CAPITOL                   PROGRAM, DEPARTMENT
GOVERNMENT OF GUAM              RELOCATION PROJECT,               OF EDUCATION,
(713 l/97)                                                        GOVERNMENT OF THE
                                REPUBLIC OF THE
1 RECOMMENDATION                MARSHALL ISLANDS                  VIRGIN ISLANDS (9!12/95)
LXZESOLVED                      (10/18!93)                        1 RECOMMENDATION
                                2 RECOMMENDATIONS                 LmRESOLVED
97-I-1294 SCHOOL BUS            UNRESOLVED
OPERATIONS,                                                       96-E-828 ACCOUNTING
DEPARTMENT OF PUBLIC                                              CONTROLS FOR DISASTER
WORKS, GOVERNMENT OF
                                U.S. Virgin Islands               ASSISTANCE FUNDS,
GUAM (9/30/97)                                                    POLICE DEPARTMENT,
6 RECOMMENDATIONS               91-I-467 FOLLOWUP OF
                                                                  GOVERNMENT OF THE
                                RECOMMENDATIONS                   VIRGIN ISLANDS (513 1196)
AND $3,584,034
L-NRESOLVED                     CONTAINED IN THE                  2 RECOMMENDATIONS
                                REPORT ON THE ROAD                L.rNRESOLVED
98-I-179 PROTECTION AND         FUND, GOVERNMENT OF
                                THE VIRGIN ISLANDS                97-I-40 DIVISION OF
ADVOCACY OF THE
                                (2/19/91)
MARIANAS, TERRITORY OF                                            AGRICULTURE,
                                1 RECOMMENDATION                  DEPARTMENT OF
GUAM (12/23/97)
                                UNRESOLVED                        ECONOMIC DEVELOPMENT
10 RECOMMENDATIONS
AND $74 1,687 UXRESOLVED                                          AND AGRICULTURE,
                                93-I-363 INMATE CARE,             GOVERNMENT OF THE
98-I-264 LEGISLATURE            REHABILITATION, AND               VIRGIN ISLANDS ( 1 O/2 l/96)
                                SAFETY, BUREAU OF                 8 RECOMMEXDATIONS
CAPITAL IMPROVEMENT
                                CORRECTIONS,                      AND $90,000 UNRESOLVED
FUND, GUAM
                                GOVERNMENT OF THE
LEGISLATURE,
                                VIRGIN ISLANDS (1213 1192)        97-E-189 SUBGRANT
GOVERNMENT OF GUAM
                                10 RECOMMENDATIONS                ADMINISTRATION FOR
(2120198)
                                UNRESOLVED
4 RECOMMENDATIONS                                                 DISASTER ASSISTANCE
AND $4,159,110                                                    FUNDS, OFFICE OF
                                93-I-572 SUPPLY AND               MANAGEMENT AND
UNRESOLVED
                                EQUIPMENT                         BUDGET, GOVERNMENT
                                MANAGEMENT,                       OF THE VIRGIN ISLANDS
99-I-13 ON-CALL
                                DEPARTMENT OF
SUBSTITUTE TEACHERS,                                              (11126196)
DEPARTMENT OF                   EDUCATION,                        2 RECOMMENDATIONS
                                GOVERNMENT OF THE
EDUCATION,                                                        UNRESOLVED
                                VIRGIN ISLANDS (2/19/93)
GOVERNMENT OF GUAM
                                9 RECOMMENDATIONS
(10/21/98)
1 RECOMMENDATION                AND $3 10,000 UNRESOLVED
UNRESOLVED




56         Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
97-E-239 PROCUREMENT             98-I-191 BUILDING PERMIT          NATIONAL PARK
PRACTICES FOR                    FEES, DEPARTMENT OF               SERVICE
HURRICANE-RELATED                PLANNING AND NATURAL
DEBRIS REMOVAL,                  RESOURCES,                        98-I-344 FOLLOWUP OF
DEPARTMENT OF PUBLIC             GOVERNMENT OF THE                 MAINTENANCE
WORKS, GOVERNMENT OF             VIRGIN ISLANDS (12/30/97)         ACTIVITIES, NATIONAL
THE VIRGIN ISLANDS               7 RECO.MMENDATIONS                PARK SERVICE (3127198)
(12i17196)                       AND $143,446 UNRESOLVED
                                                                   3 RECOMMENDATIONS
1 RECOMMENDATION
                                                                   AND $4 11,000
UNRESOLVED                       98-I-263 SEWAGE SYSTEM            UNRESOLVED
                                 USER FEES, GOVERNMENT
97-I-243 WORKMEN’S               OF THE VIRGIN ISLANDS             98-I-686 SELECTED
COMPENSATION                     (2120198)                         MANAGEMENT ACTIVITIES
PROGRAM, GOVERNMENT              5 RECOMMENDATIONS                 AT MANASSAS NATIONAL
OF THE VIRGIN ISLANDS            AND $897,2 12 UNRESOLVED          BATTLEFIELD PARK,
( 12/30/96)                                                        NATIONAL PARK SERVICE
15 RECOMMENDATIONS               98-I-384 HURRICANE-               (9/2 li98)
AND $2,530,000                   RELATED CONTRACTING,              1 RECOMMENDATION
UNRESOLVED                       DEPARTMENT OF                     UNRESOLVED
                                 EDUCATION,
97-E-279 ACCOUNTING              GOVERNMENT OF THE
CONTROLS FOR DISASTER            VIRGIN ISLANDS (3/3 l/98)         CONTRACT AND
ASSISTANCE FUNDS,                4 RECOMMENDATIONS                 GRANT AUDITS
VIRGIN ISLANDS WATER             AND $5,418 UNRESOLVED
AND POWER AUTHORITY                                                BUREAU OF INDIAN
(l/7/97)                         98-I-468 FOLLOWUP OF
3 RECOMMENDATIONS                RECOMMENDATIONS
                                                                   AFFAIRS
UNRESOLVED                       RELATING TO THE BUREAU
                                 OF CORRECTIONS,                   94-E-784 COSTS CLAIMED
                                 DEPARTMENT OF JUSTICE,            BY DIVERSIFIED BUSINESS
98-E-98 EXPENDITURES
CLAIMED AGAINST THE              GOVERNMENT OF THE                 TECHNOLOGIES
                                                                   CORPORATION UNDER
FEDERAL EMERGENCY                VIRGIN ISLANDS (5129198)
                                                                   CONTRACT NO. CBM000047
MANAGEMENT AGENCY’S              6 RECOMMENDATIONS
COMMUNITY DISASTER                                                 (6/10/94) $825,170
                                 UNRESOLVED
                                                                   UNRESOLVED
LOAN, GOVERNMENT OF
THE VIRGIN ISLANDS               98-I-670 INTERFUND LOANS
                                                                   (Circumstances beyond the
(1 l/12/97)                      AND FEDERAL GRANT
                                                                   Bureau ‘s control have delayed
4 RECOMMENDATIONS                BALANCES, GOVERNMENT              resolution of the costs.)
AND $2 1,700 UNRESOLVED          OF THE VIRGIN ISLANDS
                                 (9/9/98)                          94-E-919 COSTS CLAIMED
                                                                   BY DIVERSIFIED BUSINESS
98-I-188 INTERNAL                14 RECOMMENDATIONS
                                                                   TECHNOLOGIES
REVENUE TAXES, BUREAU            AND $1,581,000,000
                                                                   CORPORATION UNDER
OF INTERNAL REVENUE,             UNRESOLVED
                                                                   CONTRACT NO. CBMOO0147
GOVERNMENT OF THE
                                                                   (6/30/94) $247,4 14
VIRGIN ISLANDS (12/30/97)
                                                                   UNRESOLVED
1 RECOMMENDATION
UNRESOLVED                                                         (Circumstances beyond the
                                                                   Bureau ‘s control have delayed
                                                                   resolution of the costs.)




            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999               57
98-I-709 BOMAR, MC.,             97-E-1254 U.S. FISH AND           SINGLE AUDITS
REQUEST FOR EQUITABLE            WILDLIFE SERVICE
ADJUSTMENT SUBMITTED             FEDERAL AID GRANTS TO
UNDER BUREAU OF INDIAN           FLORIDA’S DEPARTMENT
                                                                   BUREAU OF INDIAN
AFFAIRS CONTRACT                 OF ENVIRONMENTAL                  AFFAIRS
NO. 145CBH002116 (9i30198)       PROTECTION FOR 2 FISCAL
$2.169.615 UNRESOLVED            YEARS ENDED JUNE 30,              96-A-l 122
                                 1996 (9/18/97)                    NORTHWESTFRN BAND OF
INSULAR AREAS                    2 RECOMMENDATIONS                 THE SHOSHO:\ I NATION,
                                 UNRESOLVED                        FISCAL YEAR ENDED
                                                                   DECEMBER 30, 1994
Republic of the Marshall                                           (08115196)
                                 98-E-198 U.S. FISH AND
Islands                          WILDLIFE SERVICE                  1 RECOMMENDATION
                                 FEDERAL AID GRANTS TO             UNRESOLVED
95-E-951 GRANT AND               COLORADO FOR 2 FISCAL             (Circumstances beyond the
TRUST FUNDS PROVIDED             YEARS ENDED JUNE 30,              Bureau ‘s control have delayed
FOR THE RONGELAP                 1995 (l/16/98)                    resolution of the
RESETTLEMENT PROJECT,                                              recommendation.)
                                 1 RECOMMENDATION AND
REPUBLIC OF THE                  $1,453,632 UNRESOLVED
MARSHALL ISLANDS                                                   INSULAR AREAS
(5122195) $2 15,960              98-E-681 U.S. FISH AND
UNRESOLVED                       WILDLIFE SERVICE                  Commonwealth of the
                                 FEDERAL AID GRANTS TO             Northern Mariana
NATIONAL PARK                    NEW YORK DEPARTMENT
SERVICE                          OF ENVIRONMENTAL
                                                                   Islands
                                 CONSERVATION FOR 2
                                                                   91-A-731 COMMONWEALTH
                                 FISCAL YEARS ENDED
98-E-217 RAMPART                                                   UTILITIES CORPORATION,
                                 MARCH 31, 1996 (9/17/98 )
WATERBLAST, INC., CLAIM                                            FISCAL YEAR ENDED
                                 $2,175,118 UNRESOLVED
SUBMITTED UNDER                                                    SEPTEMBER 30,1988
NATIONAL PARK SERVICE                                              (4126191)
                                 98-E-705 U.S. FISH AND
CONTRACT                                                           15 RECOMMENDATIONS
                                 WILDLIFE SERVICE
NO. 1443CX-3000-93-904                                             AND $6,087,882
                                 FEDERAL AID GRANTS TO
(l/8/98) $1,464,523                                                UNRESOLVED
UNRESOLVED                       RHODE ISLAND
                                 DEPARTMENT OF
                                                                   91-A-803 MARIANA
                                 ENVIRONMENTAL
U.S. FISH AND                                                      ISLANDS HOUSING
                                 MANAGEMENT, DIVISION
WILDLIFE SERVICE                                                   AUTHORITY, FISCAL YEAR
                                 OF FISH AND WILDLIFE.
                                                                   ENDED SEPTEMBER 30,
                                 FOR 2 FISCAL YEARS
                                 ENDED JUNE 30, 1996               1986 (5/7/91)
97-E-100 U.S. FISH AND
                                                                   1 RECOMMENDATION AND
WILDLIFE SERVICE                 (9J3Oi98)
                                                                   S 1,537,32 1 UNRESOLVED
WILDLIFE AND SPORT FISH          8 RECOMMENDATIONS
RESTORATION GRANTS TO            AND $1,104,906
                                                                   91 -A-823 MARIANA
CONNECTICUT, 2 FISCAL            UNRESOLVED
                                                                   ISLANDS HOUSING
YEARS ENDED JUNE 30,
                                                                   AUTHORITY, FISCAL YEAR
1995 (10130196)                  U.S. GEOLOGICAL                   ENDED SEPTEMBER 30,
1 RECOMMENDATION AND             SURVEY                            1987 (5/10/91)
$1,750,514 UNRESOLVED
                                                                   1 RECOMMENDATION AND
                                 93-E-339 TGS                      $455,857 UNRESOLVED
                                 TECHNOLOGY, INC.,
                                 CLOSING STATEMENT
                                 (12122192) $520,235
                                 UNRESOLVED


58          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
91-A-824 MARIANA                94-A-574 COMMONWEALTH             98-A-339 COMMONWEALTH
ISLANDS HOUSING                 UTILITIES CORPORATION,            OF THE NORTHERN
AUTHORITY, FISCAL YEAR          FISCAL YEAR ENDED                 MARIANA ISLANDS,
ENDED SEPTEMBER 30, 1988        SEPTEMBER 30, 1990 (516194)       FISCAL YEAR ENDED
(YlOi91)                        6 1 RECOMMENDATIONS               SEPTEMBER 30,1996
1 RECOMMENDATION AND            AND $166,509 UNRESOLVED           (3/11:98)
$196,593 UNRESOLVED                                               47 RECOMMENDATIONS
                                94-A-818 COMMONWEALTH             AND $11,176,309
92-A-l 179 MARIANA              UTILITIES CORPORATION,            UNRESOLVED
ISLANDS HOUSING                 FISCAL YEAR ENDED
AUTHORITY,                      SEPTEMBER 30, 199 1               Federated States of
FISCAL YEAR ENDED               (6116194)                         Micronesia
SEPTEMBER 30, 1989              42 RECOMMENDATIONS
(Sil3/92)                       UNRESOLVED                        96-A-482 FEDERATED
1 RECOMMENDATION AND                                              STATES OF MICRONESIA,
$168,7 1 I UNRESOLVED            94-A-836 COMMONWEALTH            STATUS OF NATIONAL
                                 OF THE NORTHERN                  GOVERNMENT, FISCAL
93-A-l 10 MARIANA                MARIANA ISLANDS, FISCAL          YEAR ENDED
ISLANDS HOUSING                  YEAR ENDED                       SEPTEMBER 30, 1994
AUTHORITY, FISCAL YEAR           SEPTEMBER 30, 1993               (2129196)
ENDED SEPTEMBER 30,199O          (6120194)                        19 RECOMMENDATIONS
(10/26!92)                       59 RECOMMENDATIONS               AND $57,900 UNRESOLVED
1 RECOMMENDATION AND             UNRESOLVED
$124,450 UNRESOLVED                                               97-A-244 FEDERATED
                                 94-A-l 083 MARIANA               STATES OF MICRONESIA
93-A-225 MARIANA                 ISLANDS HOUSING                  NATIONAL GOVERNMENT,
ISLANDS HOUSING                  AUTHORITY, FISCAL YEAR           FISCAL YEAR ENDED
AUTHORITY, FISCAL YEAR           ENDED SEPTEMBER 30,1993          SEPTEMBER 30, 1995
ENDED SEPTEMBER 30, 199 1        (813194)                         (12/23/96)
(11/19/92)                       5 RECOMMENDATIONS                22 RECOMMENDATIONS
1 RECOMMENDATION AND             UNRESOLVED                       AND S166,523
$1 ,119,377 UNRESOLVED                                            UNRESOLVED
                                 95-A-784 COMMONWEALTH
93-A-1563                        PORTS AUTHORITY,                 98-A-386 FEDERATED
COMMONWEALTH                     FISCAL YEAR ENDED                STATES OF MICRONESIA
DEVELOPMENT                      SEPTEMBER 30, 1994               NATIONAL GOVERNMENT,
AUTHORITY, FISCAL YEAR           (4/12/95)                        FISCAL YEAR ENDED
ENDED SEPTEMBER 30,1988          10 RECOMMENDATIONS               SEPTEMBER 30,1996
(9/13/93)                        UNRESOLVED                       (3131198)
52 RECOMMENDATIONS                                                23 RECOMMENDATIONS
AND $4,998,398                   97-A-851 NORTHERN                AND $109,560
UNRESOLVED                       MARIANAS COLLEGE,                UNRESOLVED
                                 FISCAL YEAR ENDED
94-A-525 COMMONWEALTH            SEPTEMBER 30, 1993
                                                                   Chuuk
DEVELOPMENT                      (5/16/97)
AUTHORITY, FISCAL YEAR           36 RECOMMENDATIONS
                                                                   91-A-505 CHUUK STATE
ENDED SEPTEMBER 30, 1989         UNRESOLVED
                                                                   GOVERNMENT, FISCAL
(4/l 5/94)                                                         YEAR ENDED
45 RECOMMENDATIONS                                                 SEPTEMBER 30,1989
AND $6,078,308                                                     (2120191)
UNRESOLVED                                                         1 RECOMMENDATION AND
                                                                   $6658 17 UNRESOLVED



            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999       59
92-A-519 CHWK STATE              Yap                               92-A-885 REPUBLIC OF
GOVERNMENT, FISCAL                                                 PALAU, FISCAL YEAR
YEAR ENDED                       94-A-371 STATE OF YAP,            ENDED SEPTEMBER 30,
SEPTEMBER 30, 1990               FEDERATED STATES OF               1989 (615’92)
(2!25192)                        MICRONESIA, FISCAL YEAR           1 RECOMMENDATION AND
1 RECOMMENDATION AND             ENDED SEPTEMBER 30, 1992          $40,262 UNRESOLVED
$1,940,938 UNRESOLVED            (2125194)
                                 22 RECOMMENDATIONS                93-A-1053 PALAU
94-A-374 STATE OF CHWK,          UNRESOLVED                        COMMUNITY ACTION
FEDERATED STATES OF                                                AGENCY, FISCAL YEAR
MICRONESIA, FISCAL YEAR                                            ENDED SEPTEMBER 30,
ENDED SEPTEMBER 30,1992
                                 Guam                              1991 (511 l/93)
(2/28/94)                                                          12 RECOMMENDATIONS
                                 99-A-144 GOVERNMENT OF
15 RECOMMENDATIONS                                                 UNRESOLVED
                                 GUAM, FISCAL YEAR
UNRESOLVED
                                 ENDED SEPTEMBER 30, 1997          93-A-1629 REPUBLIC OF
                                 ( 1218197)                        PALAU, FISCAL YEAR
Kosrae                           28 RECOMMENDATIONS                E N D E D SEPTEIMBER 30,
                                 UNRESOLVED                        1990 (9/30/93)
94-A-367 STATE OF
KOSRAE, FEDERATED                                                  1 RECOMMENDATION AND
STATES OF MICRONESIA,
                                 Republic of the Marshall          $401,843 UNRESOLVED
FISCAL YEAR ENDED                Islands
SEPTEMBER 30, 1992                                                 94-A-499 REPUBLIC OF
(2/24/94)                        97-A-1272 REPUBLIC OF             PALAU, FISCAL YEAR
9 RECOMMENDATIONS                THE MARSHALL ISLANDS,             ENDED SEPTEMBER 30,
UNRESOLVED                       FISCAL YEAR ENDED                 199 1 (416i94)
                                 SEPTEMBER 30,1996                 11 RECOMMENDATIONS
                                 (9123197)                         AND $5 17,693
Pohnpei
                                 28 RECOMMENDATIONS                UNRESOLVED
                                 UNRESOLVED
91-A-398 POHNPEI STATE
                                                                   94-A-882 REPUBLIC OF
GOVERNMENT, FISCAL
                                 99-A-D REPUBLIC OF THE            PALAU, FISCAL YEAR
YEAR ENDED
                                 MARSHALL ISLANDS,                 ENDED SEPTEMBER 30,
SEPTEMBER 30, 1989 (214191)
                                 FISCAL YEAR ENDED                 1992 (6/27194)
1 RECOMMENDATION AND
                                 SEPTEMBER 30, 1997                37 RECOMMENDATIONS
$98,216 UNRESOLVED
                                 (10/l/98)                         AND $4,085 UNRESOLVED
                                 42 RECOMMENDATIONS
94-A-527 STATE OF
                                 AND $20,854,750                   98-A-130 REPUBLIC OF
POHNPEI, FEDERATED
                                 UNRESOLVED                        PALAU, FISCAL YEAR
STATES OF MICRONESIA,
                                                                   ENDED SEPTEMBER 30,
FISCAL YEAR ENDED
                                 Republic of Palau                 1996 (1 l/19/97)
SEPTEMBER 30, 1992
                                                                   19 RECOMMENDATIONS
(4/19/94)
2 1 RECOMMENDATIONS              92-A-368 PALAU                    UNRESOLVED
AND $2,764 UNRESOLVED            COMMUNITY ACTION
                                 AGENCY, FISCAL YEAR               98-A-176 PALAU
                                 ENDED SEPTEMBER 30, 1990          COMMUNITY ACTION
                                 (l/24/92)                         AGENCY, FISCAL YEAR
                                 1 RECOMMENDATION AND              ENDED SEPTEMBER 30,
                                 $2,593 UNRESOLVED                 1994 (12/12/97)
                                                                   16 RECOMMENDATIONS
                                                                   AND $4,769 UNRESOLVED




60          Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
98-A-177 PALAU                  98-A-229 NATIONAL                 97-A-1180 WISCONSIN,
COMMUNITY ACTION                INSTITUTE FOR THE                 FISCAL YEAR ENDED
AGENCY, FISCAL YEAR             CONSERVATION OF                   JUNE 30, 1995 (915197)
ENDED SEPTEMBER 30,1995         CULTURAL PROPERTY,                3 RECOMMENDATIONS
(12112i97)                      IN-C., FISCAL YEAR ENDED          AND $26.4 10 UNRESOLVED
12 RECOMMENDATIONS              DECEMBER 31, 1996 (l/15/98)       (Unresolved findings pertain to
AND $43,843 UNRESOLVED          1 RECOMMENDATION                  National Park Service.)
                                UNRESOLVED
99-A-37 REPUBLIC OF                                               97-A-1241 SOUTH
PALAU, FISCAL YEAR              98-A-627 SOUTH                    CAROLINA, FISCAL YEAR
ENDED SEPTEMBER 30,1997         CAROLINA DEPARTMENT               ENDED JUNE 30, 1996
(10/20!98)                      OF PARKS, RECREATION              (9117197)
22 RECOMMENDATIONS              AND TOURISM, FISCAL               2 RECOMMENDATIONS
AND $1,029,762                  YEAR ENDED JUNE 30, 1996          UNRESOLVED
UNRESOLVED                      (8!6i98)                          (Unresolved findings pertain to
                                9 RECOMMENDATIONS                 National Park Service.)
U.S. Virgin Islands             UNRESOLVED
                                                                  98-A-148 NORTH
                                98-A-687 NATIONAL                 CAROLINA, FISCAL YEAR
98-A-154 GOVERNMENT OF
                                CONFERENCE OF STATE               ENDED JUNE 30,1996
THE VIRGIN ISLANDS,
                                HISTORIC PRESERVATION             (1212197)
FISCAL YEAR ENDED
                                OFFICERS, FISCAL YEAR             1 RECOMMENDATION
SEPTEMBER 30, 1994
                                ENDED DECEMBER 3 1, 1997          UNRESOLVED
(1212197)
                                (9/25/98)
5 RECOMMENDATIONS                                                 98-A-149 ARIZONA, FISCAL
                                2 RECOMMENDATIONS
AND $632,247 UNRESOLVED
                                UNRESOLVED                        YEAR ENDED JUNE 30, 1996
                                                                  (1212197)
NATIONAL PARK                   U.S. FISH AND                     1 RECOMMENDATION
SERVICE                                                           UNRESOLVED
                                WILDLIFE SERVICE
                                                                  (Unresolvedfindingpertains to
97-A-1019 ILLINOIS              97-A-843 NATIONAL
                                                                  National Park Service.)
HISTORIC PRESERVATION           TROPICAL BOTANICAL
AGENCY, 2 FISCAL YEARS          GARDEN, FISCAL YEAR
ENDED JUNE 30,1996              ENDED DECEMBER 31, 1995
(7/10/97)                       (5115197)
1 RECOMMENDATION                5 RECOMMENDATIONS
UNRESOLVED                      UNRESOLVED

98-A-194 GEORGIA TRUST          97-A-993 VIRGINIA, FISCAL
FOR HISTORIC                    YEAR ENDED JUNE 30, 1995
PRESERVATION, INC.,             (8/S/97)
FISCAL YEAR ENDED               2 RECOMMENDATIONS
MARCH 31, 1997 (12/24/97)       UNRESOLVED
2 RECOMMENDATIONS               (Unresolved findings pertain to
UNRESOLVED                      National Park Service.)




            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999              61
                                                         APPENDIX 7

     SUMMARY OF INTERNAL AUDIT REPORTS OVER 6 MONTHS
             OLD PENDING CORRECTIVE ACTION

                     of
     This is a listing internal audit reports with management decisions over 6 months old for which corrective action has not been
     completed. It provides report number, title, issue date, and the number of recommendations without final corrective action.
     These audits continue to be monitored by the Focus Leader for Management Control and Audit Followup, AsWant Secretary
     for Policy, Management and Budget, for completion of corrective action. Note: The insular area reports contain
     recommendations made specifically to the insular area governors and other territorial officials, who do not report to the Secretary
     and are not subject to the policy, guidance, and administrative overslght established by the Assistant Secretary for Policy,
     Management and Budget.



BUREAU OF INDIAN                                 97-I-771 GENERAL                                       BUREAU OF LAND
                                                 CONTROLS OVER                                          MANAGEMENT
AFFAIRS                                          AUTOMATED
                                                 INFORMATION SYSTEMS,                                   92-I-828 ONSHORE
95-I-598 BUREAU OF                               OPERATIONS SERVICE                                     GEOPHYSICAL
TNDIAN AFFAIRS                                   CENTER, BUREAU OF                                      EXPLORATION PROGRAM
PRTNCIPAL FINANCIAL                              INDIAN AFFAIRS (4130197)                               (5126i92)
STATEMENTS FOR FISCAL                            7 RECOMMENDATIONS                                      2 RECOMMENDATIONS
YEARS 1993 AND 1994
(2!28/95)                                        97-I-834 BUREAU OF                                     95-I-379 FOLLOWUP
2 RECOMMENDATIONS                                INDIAN AFFAIRS                                         OF RECOMMENDATIONS
                                                 CONSOLIDATED FINANCIAL                                 RELATING TO BUREAU OF
95-I-1402 WAPATO                                 STATEMENTS FOR FISCAL                                  LAND M4NAGEMENT USER
IRRIGATION PROJECT,                              YEARS 1995 AND 1996                                    CHARGES FOR
BUREAU OF INDIAN                                 (519197)                                               MINERAL-RELATED
AFFAIRS (9/30/95)                                1 RECOMMENDATION                                       DOCUMENT PROCESSING
2 RECOMMENDATIONS
                                                                                                        (1123195)
                                                  98-I-483 FOLLOWUP OF                                  2 RECOMMENDATIONS
96-I-641 REVIEW OF                                GENERAL CONTROLS OVER
INDIAN IRRIGATION                                 AUTOMATED                                             95-I-747 RIGHT-OF-WAY
PROJECTS, BUREAU OF                               INFORMATION SYSTEMS,                                  GRANTS, BUREAU OF
INDIAN AFFAIRS (3/29/96)                          OPERATIONS SERVICE                                    LAND MANAGEMENT
7 RECOMMENDATIONS                                 CENTER, BUREAU OF                                     (313 1195)
                                                  INDIAN AFFAIRS (6/l O/98)                             6 RECOMMENDATIONS
97-I-504 DIRECT AND                               5 RECOMMENDATIONS
GUARANTEED LOAN
                                                                                                         96-I-1265 OCCUPANCY
PROGRAMS, EASTERN
                                                  98-I-703 AGRICULTURAL                                  TRESPASS RESOLUTION,
AREA OFFICE, BUREAU OF
                                                  LEASING AND GRAZING                                    BUREAU OF LAND
INDIAN AFFAIRS (3/ 1 O/97)
                                                  ACTIVITIES, FORT PECK                                  MANAGEMENT (9/30/96)
1 RECOMMENDATION
                                                  AGENCY, BUREAU OF                                      1 RECOMMENDATION
                                                  INDIAN AFFAIRS (9/30/98)
                                                  2 RECOMMENDATIONS                                      97-I-l 104 MANAGEMENT
                                                                                                         OF HERD LEVELS, WILD
                                                                                                         HORSE AND BURRO
                                                                                                         PROGRAM, BUREAU OF
                                                                                                         LAND MANAGEMENT
                                                                                                         (g/12/97)
                                                                                                         2 RECOMMENDATIONS


62              Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
98-I-419 THE ADOPT-A-               95-I-870 RECREATION               98-I-383 CENTRAL VALLEY
HORSE PROGRAM, BUREAU               MANAGEMENT ACTIVITIES             PROJECTS RESTORATION
OF LAND MANAGEMENT                  AT SELECTED SITES                 FUND, BUREAU OF
(4130198)                           (5/17/95)                         RECLAMATION (3/3 l/98)
3 RECOMMENDATIONS                   2 RECOMMENDATIONS                 2 RECOMMENDATIONS

98-I-551 REIMBURSEMENT              95-I-1204 FINANCIAL               98-I-623 FOLLOWUP OF
OF FIREFIGHTING COSTS,              MANAGEMENT OF THE                 MAINFRAME COMPUTER
BUREAU OF LAND                      COLUMBIA BASIN.                   POLICIES AND
MANAGEMENT (7/27/98)                PROJECT, PACIFIC                  PROCEDURES,
5 RECOMMENDATIONS                   SORTHWEST REGION                  ADR4INISTRATIVE SERVICE
                                    (8122195)                         CENTER, BUREAU OF
BUREAU OF                           1 RECOMMENDATION                  RECLAMATION (8/20/98)
RECLAMATION                                                           11 RECOMMENDATIONS
                                    95-I-1376 FOLLOWUP OF
92-I-1128 REPAYMENT OF              RECOVERY OF OPERATION             98-I-630 AWARD AND
MUNICIPAL AND                       AND MAINTENANCE                   ADMINISTRATION OF
INDUSTRIAL WATER                    PROGRAM EXPENSES                  CONTRACTS FOR THE
SUPPLY JNVESTMENT                   (9129195)                         PROGRAMMATIC
COSTS (8/l 3/92)                    1 RECOMMENDATION                  ENVIRONMENTAL IMPACT
2 RECOMMENDATIONS                                                     STATEMENT FOR
                                    95-I-1383 RECOVERY OF             IMPLEMENTATION OF THE
92-I-l 151 REVIEW OF THE            OPERATION AND                     CENTRAL VALLEY
COST ALLOCATION FOR                 MAINTENANCE COSTS,                PROJECT IMPROVEMENT
THE CENTRAL ARIZONA                 COLUMBIA BASIN PROJECT            ACT, BUREAU OF
PROJECT (8117192)                   (9!29195)                         RECLAMATION (8/3 1198)
4 RECOMMENDATIONS                   2 RECOMMENDATIONS                 3 RECOMMENDATIONS
(Final action is pending
outcome of litigation.)             96-I-313 AWARD AND                99-I-133 IDENTIFICATION
                                    ADMINISTRATION OF                 OF UNNEEDED ACQUIRED
93-I-577 PROPOSED                   CONTRACT                          LANDS, BUREAU OF
DEFERRAL OF NOTICE OF               NO: 1425-2-CC-40-12260            RECLAMATION ( 12i2 1198)
SUBSTANTIAL                         WITH ENVIRONMENTAL                3 RECOMMENDATIONS
COMPLETION OF THE                   CHEMICAL CORPORATION
CENTRAL ARIZONA                     RELATEDTOTHE
PROJECT (2/19/93)                   SUMMITVILLE MINE SITE
                                                                      INSULAR AREAS
3 RECOMMENDATIONS                   CLEANUP, BUREAU OF
(Final action is pending            RECLAMATION (3114/96)             American Samoa
 outcome of litigation.)            1 RECOMMENDATION
                                                                      96-I-533 AMERICAN
94-I-884 DEVELOPMENT                98-I-258 DETERMINATION            SAMOA LEGISLATURE,
STATUS OF THE DOLORES                                                 AMERICAN SAMOA
                                    OF THE REIMBURSABILITY
AND THE                                                               GOVERNMENT (3/22/96)
                                    OF ENVIRONMENTAL
ANIMAS-LA PLATA                                                       7 RECOMMENDATIONS
                                    ACTIVITIES COSTS
PROJECTS (7/l l/94)                 ASSOCIATED WITH GLEN
1 RECOMMENDATION                    CANYON DAM BY THE
                                    BUREAU OF RECLAMATION
94-I-930 IRRIGATION OF              (2/23/98)
INELIGIBLE LANDS                    2 RECOMMENDATIONS
(7111194)
3 RECOMMENDATIONS




               Semiannual Report to the Congress: April 1, 1999 - September 30, 1999         63
Commonwealth of the             Republic of Palau                 97-I-590 SUPPLEMENTAL
Northern Mariana                                                  FOOD PROGRAM FOR
                                92-I-1368 BILLINGS AND            WOMEN, INFANTS AND
Islands                                                           CHILDREN, DEPARTMENT
                                COLLECTIONS OF THE
                                REPUBLIC OF PALAU’S               OF HEALTH, GOVERNMENT
94-I-1323 UTILITIES RATE                                          OF THE VIRGIN ISLANDS
                                GROSS REVENUE TAX
STRUCTURE,                                                        (3124197)
COMMONWEALTH OF THE             (9128192)
                                3 RECOMMENDATIONS                 1 RECOMMENDATION
NORTHERN MARIANA
ISLANDS (9/30/94)                                                 98-I-293 BUSINESS
3 RECOMMENDATIONS               U.S. Virgin Islands
                                                                  LICENSING FEES,
                                91-I-1188 SECURITY AND            DEPARTMENT OF
95-I-106 CONTRACTING                                              LICENSING AND
AND CONTRACT                    MAINTENANCE OF
                                CORRECTIONAL                      CONSUMER AFFAIRS,
ADMINISTRATION,                                                   GOVERNMENT OF THE
CO.MMONWEALTH                   FACILITIES, GOVERNMENT
                                OF THE VIRGIN ISLANDS             VIRGIN ISLANDS (2i27i98)
UTILITIES CORPORATION,                                            3 RECOMMENDATIONS
COMMONWEALTH OF THE             (8i29191)
NORTHERN MARIANA                16 RECOMMENDATIONS
                                                                  99-I-148 UNEMPLOYMENT
ISLANDS (1 li14194)                                               INSURANCE PROGRAM,
5 RECOMMENDATIONS               91-I-1431 FOLLOWUP OF
                                AUDIT OF THE                      DEPARTMENT OF LABOR,
                                GOVERNMENT                        GOVERNMENT OF THE
Guam                                                              VIRGTN ISLANDS (12118198)
                                EMPLOYEES’ RETIREMENT
                                SYSTEM, GOVERNMENT OF             9 RECOMMENDATIONS
92-I-1360 GOVERNMENT
                                THE VIRGIN ISLANDS
OF GUAM RETIREMENT                                                MINERALS
FUND (9/18/92)                  (9130191)
7 RECOMMENDATIONS
                                1 RECOMMENDATION                  MANAGEMENT
                                                                  SERVICE
                                92-I-90 PRISON
98-I-335 PROGRAMS AND
                                OVERCROWDING, BUREAU              97-I-1042 ROYALTY
OPERATIONS,
                                OF CORRECTIONS (10/28/91)         MANAGEMENT
DEPARTMENT OF
                                5 RECOMMENDATIONS                 PROGRAM’S AUTOMATED
VOCATIONAL
REHABILITATION,                                                   INFORMATION SYSTEMS,
                                94-I-248 PROPERTY                 MINERALS MANAGEMENT
GOVERNMENT OF GUAM
                                MANAGEMENT FUNCTIONS,             SERVICE (713 l/97)
(3116i98)
                                POLICE DEPARTMENT,                1 RECOMMENDATION
3 RECOMMENDATIONS
                                GOVERNMENT OF THE
                                VIRGIN ISLANDS (l/24194)          98-l-336 GENERAL
98-l-570 ASSESSMENT
                                1 RECOMMENDATION                  CONTROLS OVER THE
AND COLLECTION OF
GROSS RECEIPTS TAXES,                                             AUTOMATED
                                95-I-52 SELECTED                  INFORMATION SYSTEM
DEPARTMENT OF
                                ADMINISTRATIVE                    PROGRAM, MINERALS
REVENUE AND TAXATION,
GOVERNMENT OF GUAM              FUNCTIONS, ST. CROlX              MANAGEMENT SERVICE
                                INTERIM HOSPITAL,                 (3123198)
(7117i98)
                                GOVERVMENT OF THE                 3 RECOMMENDATIONS
4 RECOMMENDATIONS
                                VIRGIN ISLANDS (lo/3 l/94)
                                2 RECOMMENDATIONS                 98-I-484 MINERALS
98-I-643 OPERATIONAL
FUNDING STATUS,                                                   MANAGEMENT SERVICE’S
                                97-I-257 SMALL BUSINESS           WORK REGARDING
DEPARTMENT OF
                                DEVELOPMENT AGENCY,               UNDERPRICING OF
EDUCATION,
                                GOVERNMENT OF THE                 CALIFORNIA CRUDE OIL
GOVERNMENT OF GUAM
                                VIRGIN ISLANDS (l/15/97)
(g/28/98)                                                         (6/10/98)
2 RECOMMENDATIONS               4 RECOMMENDATIONS                 1 RECOMMENDATION

64         Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
MULTI-OFFICE                     OFFICE OF SURFACE                 98-I-206 FINANCIAL
                                 MINING                            STATEMENTS FOR FISCAL
96-I-1267 INSPECTION AND                                           YEAR 1996 FOR OFFICE OF
                                 RECLAMATION AND                   THE SPECIAL TRUSTEE
ENFORCEMENT PROGRAM
AND SELECTED RELATED
                                 ENFORCEMENT                       FOR AMERICAN INDIANS
ACTIVITIES, BUREAU OF                                              TRIBAL, INDIVIDUAL
LAND MANAGEMENT                  97-I-1303 FEE COMPLIANCE          INDIAN MONIES AND
                                 PROGRAM, OFFICE OF                OTHER SPECIAL TRUST
(g/30/96)
4 RECOMMENDATIONS                SURFACE MINING                    FUNDS MANAGED BY THE
                                 RECLAMATION AND                   OFFICE OF TRUST FUNDS
                                 ENFORCEMENT (9130197)             MANAGEMENT (l/23/98)
97-I-548
ADMINISTRATIVELY                 1 RECOMMENDATION                  12 RECOMMENDATIONS
UNCONTROLLABLE
OVERTIME, DEPARTMENT             OFFICE OF THE                     U.S. FISH AND
OF THE INTERIOR (2/27/97)        SPECIAL TRUSTEE                   WILDLIFE SERVICE
1 RECOMMENDATION                 FOR AMERICAN
                                 INDIANS                           95-I-376 CONCESSION
NATIONAL PARK                                                      FEES, U.S. FISH AND
SERVICE                          97-I-196 STATEMENT OF             WILDLIFE SERVICE
                                 ASSETS AND TRUST FUND             (107195)
98-I-406 FOLLOWUP OF             BALANCES AT                       1 RECOMMENDATION
RECOMMENDATIONS                  SEPTEMBER 30, 1995, OF
CONCERNING UTILITY               THE TRUST FUNDS                   97-I-1112
RATES IMPOSED BY THE             MANAGED BY THE OFFICE             ADMINISTRATION OF
NATIONAL PARK SERVICE            OF TRUST FUNDS                    GRANTS AWARDED UNDER
(4/15/98)                        MANAGEMENT ( 12/l 3/‘96)          THE NORTH AMERICAN
6 RECOMMENDATIONS                16 RECOMMENDATIONS                WETLANDS
                                                                   CONSERVATION ACT,
OFFICE OF THE                    97-l-l 167 JUDGMENT               U.S. FISH AND WILDLIFE
SECRETARY                        FUNDS AWARDED TO THE              SERVICE (8129197)
                                 TURTLE MOUNTAIN BAND              1 RECOMMENDATION
97-I-683 MAINFRAME               OF CHIPPEWA INDIANS
COMPUTER POLICIES AND            (9/22/97)                         97-I-1302 PARTNERS FOR
PROCEDURES,                      1 RECOMMENDATION                  WILDLIFE HABITAT
ADMINISTRATIVE SERVICE                                             RESTORATION PROGRAM,
CENTER, BUREAU OF                97-I-l 168 JUDGMENT               U.S. FISH AND WILDLIFE
RECLAMATION (313 1197)           FUNDS AWARDED TO THE              SERVICE (9/29/97)
2 RECOMMENDATIONS                NAVAJO NATION (9122197)           4 RECOMMENDATIONS
                                 1 RECOMMENDATION
 98-I-712 RECEIPT- AND                                             97-I-1305 AUTOMATED
EXPENDITURE OF FUNDS             97-I-l 169 JUDGMENT               LAW ENFORCEMENT
BY THE UTAH                      FUNDS AWARDED TO THE              SYSTEM, U.S. FISH AND
RECLAMATION                      PAPAGO TRIBE OF                   WlLDLIFE SERVICE
MITIGATION AND                   ARIZONA (9/I 5197)                (9/30/97)
CONSERVATION                     2 RECOMMENDATIONS                 4 RECOMMENDATIONS
COMMISSION FOR FISCAL
YEARS 1996 AND 1997                                                99-I-162 LAND
                                                                   ACQUISITION ACTIVITIES,
(9/30/98)
7 RECOMMENDATIONS                                                  U.S. FISH AND WILDLIFE
                                                                   SERVICE (12/29/98)
                                                                   6 RECOMMENDATIONS




            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999          65
U.S. GEOLOGICAL
SURVEY

97-I-927 U.S. GEOLOGICAL
SURVEY FINANCIAL
STATEMENTS FOR FISCAL
YEAR 1996 (6:12197)
1 RECOMMENDATION




66         Semiannual Report to the Congress: April 1, 1999 - September 30,1999
                                              APPENDIX 8
         STATUTORY AND ADMINISTRATIVE RESPONSIBILITIES
The Inspector General Act of 1978 (Public Law 95-452) as amended, sets forth specific requirements for
semiannual reports to be made to the Secretary for transmittal to the Congress. A selection of other statutory
and administrative responsibilities and criminal and civil investigative authorities of the OIG follows:

                                   Statutory Audit Responsibilities

Statutory audit responsibilities include:

P.L. 96-510          Comprehensive Environmental Response, Compensation and Liability Act of 1980
                       (Superfund)
P.L. 97-357          Insular Areas Act of 1982
P.L. 97-45 1         Federal Oil and Gas Royalty Management Act of 1982
P.L. 98-502          Single Audit Act of 1984
P.L. 99-499          Superfund Amendments and Reauthorization Act of 1986
P.L. 101-576         Chief Financial Officers Act of 1990
P.L. 103-382         Improving American Schools Act of 1994
P.L. 104-208         Federal Financial Management Improvement Act of 1996
P.L. 104-3 16        General Accounting Office Act of 1996, Section 108, “To Require DOI-OIG
                      To Audit the Central Utah Project Cost Allocation”
P.L. 105-277         Office of National Drug Control Policy Reauthorization Act of 1998

                                    Administrative Responsibilities

Office of Management and Budget circulars and bulletins:

     A-50            “Audit Followup”
     A-87            “Cost Principles for State and Local Government”
     A-123           “Management Accountability and Control”
     A-131           “Value Engineering”
     A-133           “Audits of States, Local Governments, and Non-Profit Organizations”
     97-01           “Form and Content of Agency Financial Statements” (Bulletin)
     98-08           “Audit Requirements for Federal Financial Statements” (Bulletin)

                            Criminal and Civil Investigative Authorities

Criminal investigative authorities include:

     - Title 18, United States Code, section on crime and criminal procedures as they pertain to OIG’s
        oversight of DO1 programs and employee misconduct.

Civil and administrative investigative authorities include civil monetarv penaltv authorities such as:

     - Title 31, United States Code, Section 3801 et seq., the Program Fraud Civil Remedies Act.
     - Title 31, United States Code, Section 3729-3733, the False Claims Act.




                Semiannual Report to the Congress: April 1, 1999 - September 30, 1999                      67
                                         APPENDIX 9

         CROSS-REFERENCES TO THE INSPECTOR GENERAL ACT

Inspector General Act, as amended

Section 4(a)(2)          Review of Legislation and Regulations                        N/A*
Section S(a)( 1)         Significant Problems, Abuses, and Deficiencies                7-24
Section S(a)(2)          Recommendations With Respect to Significant Problems,         7-24
                         Abuses, and Deficiencies
Section 5(a)(3)          Summary of Audits From Agency’s Previous Report on           62-66
                         Which Corrective Action Has Not Been Completed

Section 5(a)(4)          Matters Referred to Prosecutive Authorities                     iv
Section 5(a)(5)          Summary of Instances Where Information Was Refused           N/A*
Section 5(a)(6)          List of Audit Reports                                        26-49
Section 5(a)(7)          Summary of Significant Reports                                7-24
Section 5(a)(8)          Statistical Table - Questioned Costs                            52
Section S(a)(9)          Statistical Table - Recommendations That Funds Be               55
                         Put To Better Use
Section 5(a)( 10)        Summary of Audit Reports Issued Before the                   62-66
                         Commencement of the Reporting Period for Which
                         No Management Decision Has Been Made
Section 5(a)(ll)         Significant Revised Management Decisions Made                N/A=”
                         During the Reporting Period
Section 5(a)( 12)        Management Decisions With Which the                          N/A*
                         Inspector General Is in Disagreement
Section 5(a)( 13)        Information Described Under Section 05(b) of the Federal     N/A*
                         Financial Management Improvement Act of 1996



*N/A: Not applicable.




68            Semiannual Report to the Congress: April 1, 1999 - September 30, 1999
                       GENERAL INFORMATION

Send Requests for Publications to:

 U.S. Department of the Interior     (202) 208-4599
 Office of Inspector General
 1849 C Street, NW
 Mail Stop 5341, MIB
 Washington, D.C. 20240


 Facsimile Number:                   (202) 208-4998


 World Wide Web Site:                www.oig.doi.gov




 HOTLINE

 Toll Free Numbers:                  l-800-424-5081
                                     TDD l-800-354-0996


 FTS/Comm&ial Numbers:               (202) 208-5300
                                     TDD (202) 208-2420
 Address:                            U.S. Department of the Interior
                                     Office of Inspector General
                                     1849 C Street, NW
                                     Mail Stop 5341, MIB
                                     Washington, D.C. 20240
                     ILLEGAL OR WASTEFUL ACTIVITIES
                     SHOULD BE REPORTED TO
                     THE OFFICE OF INSPECTOR GENERAL


                             Internet/E-Mail Address
                                    www.oig.doi.gov



Sending Written Documents to:                          Calling:

                     Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240

                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-3 54-0996


                     Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                      Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
